U . S . A G E N C Y F O R I N T E R N AT I O N A L D E V E L O P M E N T




     Semiannual Report to the Congress
       OFFICE OF INSPECTOR GENERAL

                        APRIL 1-SEPTEMBER 30, 2013
USAID provides training and supplies for farmers in Cambodia,
such as the beneficiary pictured on the cover (photo by Office
of Inspector General, 2013).
                                          MISSION

The mission of the Office of Inspector General (OIG) is to provide independent oversight
that promotes efficiency and effectiveness while safeguarding the integrity of programs and
operations under our jurisdiction.

                                           VISION

OIG's vision is to be a leading oversight organization with a motivated and resourceful
workforce that produces quality products that facilitate the foreign assistance mission,
increases accountability, and promotes good stewardship of foreign assistance funds.




                                                       USAID OIG Semiannual Report to the Congress
U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
INSPECTOR GENERAL HOTLINE


The hotline makes it easy to report allegations
of fraud, waste, abuse, mismanagement, or                 E-MAIL
                                                          ighotline@usaid.gov
misconduct in the programs and operations
of the U.S. Agency for International
                                                          COMPLAINT FORM
Development (USAID), the Millennium                       http://oig.usaid.gov/content/oig-hotline
Challenge Corporation (MCC), the U.S. African
Development Foundation (USADF), the Inter-                TELEPHONE
American Foundation (IAF), and the Overseas               1-202-712-1023
Private Investment Corporation (OPIC).
                                                          MAIL
Employees of these organizations, as well as
                                                          USAID OIG HOTLINE
contractors, program participants, and members
                                                          P.O. Box 657
of the general public, may report allegations             Washington, DC 20044-0657
directly to the Office of Inspector General (OIG).
Complaints may be submitted electronically by
using e-mail or OIG’s online complaint form.

Individuals who are concerned about the confidentiality or anonymity of electronic communication
may submit allegations by telephone or mail.

The Inspector General Act of 1978, as amended, and other laws protect those who make hotline
complaints. Individuals who contact the hotline are not required to identify themselves and may
request confidentiality when submitting allegations. However, OIG encourages those who report
allegations to identify themselves so they can be contacted if OIG has additional questions. OIG will
not disclose the identity of an employee of USAID, MCC, USADF, IAF, or OPIC, or any individual
who provides information unless that person consents or the Inspector General determines that such
disclosure is unavoidable during the course of an investigation.




	                                                    U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
CONTENTS



Message From the Acting Inspector General. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Introduction. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Organizational Performance Measures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Progress in Meeting Strategic Goals and Objectives. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Summary Tables. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Significant Findings and Activities: U.S. Agency for International Development . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
     Accountability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
     Agriculture and Food Security. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31
     Crisis and Conflict. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
     Democracy, Human Rights, and Governance. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41
     Economic Growth and Trade. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
     Education . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57
     Environment and Global Climate Change. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 61
     Global Health. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65
     Management Capabilities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 73
Tables: U.S. Agency for International Development. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 81
Significant Findings and Activities: Millennium Challenge Corporation. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  147
     Financial Management. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  149
     Management Accountability. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  151
Tables: Millennium Challenge Corporation. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  153
Significant Findings and Tables: United States African Development Foundation . . . . . . . . . . . . . . . . . . . . . . . . . . .  165
Significant Findings and Tables: Inter-American Foundation. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  171
Significant Findings: Overseas Private Investment Corporation. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  177
Peer Reviews. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  179
Abbreviations. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  181




	                                                                                           U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
    MESSAGE FROM THE
    ACTING INSPECTOR GENERAL



    I am pleased to present the United States Agency
    for International Development (USAID) Office
    of Inspector General (OIG) Semiannual Report
    to the Congress for the period April 1 through
    September 30, 2013, in accordance with the
    Inspector General Act of 1978, as amended. We
    continue to provide independent and vigorous
    oversight of the operations and programs of USAID,
    MCC, USADF, IAF, and OPIC.

    The importance of this oversight function is
    multiplied in institutional settings characterized by
    a high degree of volatility. Foreign affairs agencies as
    a group face significant changes in their operating           Acting Inspector General
    environment as conditions abroad shift. In recent             Michael Carroll

    years, USAID has embarked on reforms designed
    to improve internal operations and transform its approach to delivering development assistance.
    Changes like these increase risks; therefore, OIG is working to ensure that the Agency has systems
    in place to properly manage these transitions while directly responding to associated risks of waste,
    fraud, and abuse.

    OIG’s approach to oversight has always included audits and investigations of U.S. foreign assistance
    funds implemented by host nation governments and local nongovernmental organizations. As
    USAID increases its use of these implementers through its Local Solutions initiative, OIG is
    intensifying related oversight efforts.

    By using local systems to an increasing extent to deliver foreign assistance, USAID believes that it
    will strengthen host countries’ long-term capacity to manage and address their own development
    needs. To support this effort, USAID is expanding the share of program funds it uses to provide
    direct support to host governments and implement projects through local nonprofit organizations
    and private businesses overseas.

    We have also redoubled our monitoring of USAID’s use of host-country institutions and partners
    with the aim of reducing risks to taxpayer dollars. OIG has examined Agency assessments of


                                                           USAID OIG Semiannual Report to the Congress 1
	
prospective local partners to help improve
information about their ability to manage                                OIG'S ACCOMPLISHMENTS DURING THE
                                                                         REPORTING PERIOD
U.S. Government resources. We have audited
Agency efforts to strengthen the capacity of local
                                                                         • $96.8 million in questioned costs and funds
organizations that are potential recipients of U.S.                      recommended to be put to better use
Government assistance funds. In addition, we
have examined host-country implementation of                             • $516.2 million in investigative recoveries and
assistance programs after USAID has awarded                              savings
corresponding contracts and grants.
                                                                         • 400 audit reports issued

Oversight of foreign assistance provided through
                                                        • 57 investigations closed
local systems continues to be a key feature of our
work. OIG’s dedicated country hotlines in Haiti         • 6 convictions
and Pakistan give local citizens the opportunity
to report fraud, waste, and abuse concerning            • 50 administrative actions
USAID and other international assistance
programs and help to ensure transparency and
prevent corruption. We have worked with local
governments’ audit institutions to strengthen their oversight of financial and management systems
that handle U.S. Government assistance. When possible, our investigators work closely with host-
country law enforcement partners to counter illegal activities and ensure that those who would
commit fraud are brought to justice. When local legal and regulatory frameworks can be used to
support accountability, OIG has leveraged them in partnership with local authorities to combat the
misuse of U.S. taxpayer funds.

Our staff members frequently operate in difficult and dangerous environments around the world.
OIG Foreign Service and Civil Service auditors, criminal investigators, and management and legal
staff work with great dedication to reinforce program integrity and assist in the improvement
of stabilization, reconstruction, and development activities. Their diligence and commitment to
excellence in sometimes harsh and perilous conditions is commendable. We are particularly mindful
of the sacrifices of our staff members who are deployed to posts in critical priority countries in the
service of our mission.

This has been an especially challenging period for oversight in the Middle East and North Africa
as conflict and unrest have disrupted OIG operations. The Regional Inspector General (RIG) for
Cairo is the component of OIG that provides audit and investigative coverage for USAID programs
and activities in this region. With oversight of several emerging USAID programs and large-scale
continuing assistance programs in West Bank/Gaza and Jordan, our RIG Office in Cairo has been
one of our most active hubs for audit and investigative activity.




2	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
In early July, OIG personnel operating in our RIG offices in Cairo were immediately evacuated to
the United States along with their families in response to ongoing political and social unrest in
Egypt. Our displaced personnel are operating temporarily out of our Washington, D.C., offices and
we continue to monitor developments in Egypt closely.

Proper stewardship of U.S. tax dollars requires a robust accountability framework, and we are
committed to ensuring that measures to support such a framework are in place. Taxpayers have a
right to know that the foreign assistance funds they provide are administered with integrity and
efficiency and we will continue to provide necessary oversight with that end in mind.

We appreciate continuing congressional interest in our work and support for our efforts to promote
accountability of foreign assistance funds. We look forward to continuing to work closely with
Congress to keep Members and their staffs fully informed about the results of our work.




                                                      USAID OIG Semiannual Report to the Congress 3
4	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
INTRODUCTION



History and Mandated Authority
USAID OIG was established on December 16, 1980, by statutory amendment to the Foreign
Assistance Act of 1961. On December 29, 1981, the International Security and Development
Cooperation Act of 1981 brought the USAID Inspector General under the purview of the Inspector
General Act of 1978. OIG assumed audit and investigative oversight of USADF and IAF in 1999 and
of MCC in 2004. OIG also maintains limited oversight authority of the Overseas Private Investment
Corporation under 22 U.S.C. 2199(e).

The Inspector General Act authorizes the Inspector General to conduct and supervise audits
and investigations. Our mission is to provide independent oversight that promotes efficiency and
effectiveness, and safeguards the integrity of programs and operations under our jurisdiction. Some
of our work is mandated by statute or other requirements; other work is performed at the discretion
of OIG. When identifying and prioritizing appropriate audit and investigative activity, we consider
stakeholder interests and needs, alignment with strategic goals, program funding, and the risks
associated with the agencies' programs, including potential vulnerabilities in internal controls.


Areas of Responsibility
Audits

OIG audits activities relating to the worldwide foreign assistance programs and operations of USAID,
MCC, USADF, IAF, and OPIC. Audit activities include performance audits and reviews of programs
and management systems, financial statement audits required under the Chief Financial Officers Act
of 1990, and audits related to the financial accountability of grantees and contractors.

Investigations

OIG investigates allegations of fraud, waste, and abuse relating to the foreign assistance programs and
operations of our client agencies. Investigations of criminal, civil, and administrative violations cover
all facets of these worldwide operations. OIG also works proactively by providing fraud awareness
briefings and literature, audiovisual aids, and advice on fraud prevention strategies for agency
personnel and employees of foreign assistance implementers worldwide.




	                                                 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   5
Joint Work and Partners
OIG participates in task forces and cooperates with other groups. In this reporting period, for
example, OIG contributed to task forces and interagency groups that provide oversight for U.S.
Government programs in Afghanistan, Iraq, and Pakistan that assist the Department of Justice in
addressing procurement and grant fraud.

Department of Justice Task Forces

OIG participates on two Department of Justice task forces—the National Procurement Fraud Task
Force and the International Contract Corruption Task Force. The mission of both is to promote
the early detection, prevention, and prosecution of procurement and grant fraud associated with
increased contracting activity for national security and other government programs.

Southwest Asia Joint Planning Group

This group was formed to coordinate oversight activities in Afghanistan, Iraq, Pakistan, and other
countries in the region. The group originally comprised representatives of the Offices of Inspector
General for USAID, the Departments of Defense and State, the Government Accountability Office
(GAO), the Special Inspector General for Iraq Reconstruction, the Special Inspector General for
Afghanistan Reconstruction, the U.S. Army Audit Agency, the Naval Audit Service, the Air Force
Audit Agency, and the Defense Contract Audit Agency (DCAA).

Coordinated Audit Plan for HIV/AIDS, Tuberculosis, and Malaria

OIG collaborates with its counterparts at the Departments of State and Health and Human Services
to develop an annual consolidated audit plan. The three OIGs work together to determine the audits
each office will conduct to make the best use of U.S. Government resources.

Working With Bilateral Donors

OIG participates in a group of 11 bilateral donors that are working to improve transparency and
accountability of multilateral organizations and to take on other issues of mutual interest.




6	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
ORGANIZATIONAL PERFORMANCE
MEASURES



OIG established the following measures in its 2012-2016 strategic plan. The data below reflects our
results for fiscal year 2013.



    Goal 1: Strengthen the ability of the organizations for which OIG provides oversight to
    manage and deliver foreign assistance efficiently and effectively through audit products
    and activities.


                             Measure                                  Fiscal Year-end Target              Year-end Results



    Percentage of audits with recommendations that focus on
                                                                                  60%                              57%
    program effectiveness and efficiency*


    Percentage of agency expenditures audited                                     55%                              65%



    Hours per audit                                                           900 or less                          973


*Includes audits with recommendations in the following catagories: performance targets not met, insufficient
coordination among development partners, risk to projects' sustainability, lack of host-country support,
inefficient operations, unsatisfactory contractor performance, and inadequate commodity management or
storage.




	                                                     U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   7
 Goal 2: Deter and detect fraud, corruption, criminal activity, and misconduct in the
 programs, operations, and workforce of the organizations for which OIG provides
 oversight.


                                 Measure                                      Fiscal Year-end Target   Year-end Results


 Percentage of OIG investigations resulting in substantiated
 allegations that were referred for criminal, civil, or                               80%                   100%
 administrative action

 Percentage of referrals that resulted in criminal, civil, or
                                                                                      50%                    89%
 administrative action


 Number of individuals reached through outreach events                                2,800                 6,259




 Goal 3: Provide useful, timely, and relevant information to enable stakeholders to make
 informed decisions.



                                 Measure                                      Fiscal Year-end Target   Year-end Results



 Number of briefings and testimonies provided to Congress                              15                    17



 Number of hits on the OIG Web site                                                 500,000               6,377,829




8	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
 Goal 4: Continually improve the efficiency, effectiveness, and quality of OIG operations
 and outputs.


                            Measure                               Fiscal Year-end Target      Year-end Results



 Percentage of employees indicating satisfaction with OIG
                                                                            70%                     57%**
 customer service, operations, and initiatives


 Percentage of major management milestones met relating
 to strategic planning, continuity of operations, policy
 development, information technology management, financial                  80%                     82%
 resource management, operations planning, and external
 reporting requirements



 Percentage of OIG hours spent on indirect tasks                        40% or less                 30%


** This percentage represents the baseline data captured in OIG's first annual employee satisfaction survey at the
end of FY 2012.




                                                             USAID OIG Semiannual Report to the Congress 9
 Goal 5: Recruit, develop, and retain a highly qualified, motivated, and diverse workforce
 with the necessary tools and training to fulfill OIG’s mission.


                                 Measure                                      Fiscal Year-end Target   Year-end Results



 Percentage of vacancies with qualified candidates accepting an
                                                                                      100%                  100%
 offer of employment within 120 days


 Percentage of highly performing employees retained                                   80%                   100%



 Percentage of OIG employees expressing satisfaction
 with management policies and procedures, opportunities,
 to improve their skills, their ability to use their talents,                         55%                    47%***
 recognition for good performance, and personal
 empowerment in work processes and their jobs


 Percentage of employees completing required core curriculum
                                                                                      100%                   77%
 training for their level


*** This percentage represents the baseline data captured in OIG's first annual employee satisfaction survey at
the end of FY 2012.




10	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
PROGRESS IN MEETING STRATEGIC
GOALS AND OBJECTIVES



In 2012, OIG released its FY 2012–2016 strategic plan. The five goals and supporting strategies
in the plan reaffirm our commitment to providing quality oversight to the agencies we serve and
informing the public and our stakeholders of how OIG is safeguarding taxpayer resources. The plan
also emphasizes our obligation to continually find ways to improve our own operations and to ensure
that our workforce is highly motived and well trained to carry out its responsibilities. OIG identified
15 performance indicators to assess progress toward achieving the goals articulated in the plan.

Throughout FY 2013, OIG performed at a high level. We met 10 of our 15 annual performance
targets and are developing plans to address the targets we did not meet. In addition, we implemented
numerous strategies to promote the effectiveness and integrity of foreign assistance programs,
provide quality information for our stakeholders, and enhance OIG’s internal processes and
workforce.

Strategic Goal 1
OIG set a number of ambitious performance targets for our audit program, and we had mixed success
in meeting those targets. We exceeded our goal for percentage of agency expenditures audited,
which is critical to ensuring that OIG’s audit activities are focusing on a reliable representation of
the Agency’s portfolio. We fell just short of the goal for percentage of audits with recommendations
that focus on program effectiveness and efficiency. This measure covers a limited definition of
which recommendations contribute to efficiency and effectiveness. The majority of the work we do
emphasizes improving program efficiency and effectiveness, so we are reviewing whether the current
definition accurately reflects our performance.

Finally, we fell short on the average number of hours per audit. The target of 900 hours was the
average of the planned staff-hour budget for each audit and review in the FY 2013 annual plan. We
will be emphasizing to audit managers and staff at all levels the importance of performing our work
efficiently and monitoring performance. In addition, we are requiring that audit proposals contain
a detailed breakdown of the planned hours for each audit. These steps will help ensure that our
resources are effectively and efficiently used.

Although these performance indicators show mixed results, OIG successfully implemented many
activities presented in our strategic plan. For instance, we expanded the use of risk assessments to
plan our activities. OIG developed criteria for risk analyses that consider risk factors consistently in
all of USAID’s country programs. OIG’s overseas offices used these criteria to serve as the starting


	                                                 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   11
point for their own individualized risk assessments in their respective regions, which were then
used to identify where audit resources would be focused and to plan future work. We made greater
use of subject-matter experts to increase the quality of audit analyses and coordinated closely with
other oversight entities to ensure the most effective level of oversight of foreign assistance programs.
In addition, we conducted regular outreach with Agency representatives to review priorities and
discuss program successes, failures, and risks.

Strategic Goal 2
OIG met all of its performance targets related to deterring and detecting fraud, waste, and abuse in
the programs for which we provide oversight. Of our investigations with substantiated allegations,
all were referred for criminal, civil, or administrative action, and those referrals largely resulted
in criminal, civil, or administrative action. We far exceeded our goal of the number of Agency
employees, partners, and implementers reached through these outreach events. These education
and relationship-building efforts expand awareness of the consequences of criminal, civil, and
administrative violations.

OIG played a crucial role in a landmark drug safety settlement that resulted in $150 million in
criminal fines and forfeitures and $350 million in settled civil claims. In addition, we increased
opportunities to communicate the results of our investigations and expand awareness of the
consequences of violations, and expanded investigators’ presence abroad.

Strategic Goal 3
OIG’s performance results indicate that we did a good job of providing useful, timely, and
relevant information to our stakeholders. We surpassed the number of briefings and testimonies
provided to Congress and far exceeded the number of hits on the OIG Web site. In addition, we
established a social media presence (i.e., a Twitter site at https://twitter.com/USAID_OIG) that we
use to announce the release of audit reports, discuss OIG’s mission, advertise job openings, and
market OIG’s hotlines. We participated in a number of outreach efforts with Agency and mission
representatives, audit and oversight organizations, and professional associations involved in
assistance work. Finally, we redesigned the OIG Web site to make it more user-friendly.

Strategic Goal 4
OIG did a fairly good job of improving internal operations and outputs this year. We met two of the
three performance targets by spending a very low percentage of organizational hours on indirect
tasks and meeting most of the major management milestones identified for the year. In addition,
we implemented several activities to improve communication across the organization, integrated
performance planning and reporting into our annual plan and Semiannual Report to the Congress,
revised and issued 12 directives to clarify and update internal policies, exceeded industry standards
for network uptime (the percentage of time the system is functioning), and improved access to Citrix
to minimize remote disruptions and reduce layers of logon procedures.


12 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
We have not met the target for measuring employee satisfaction with OIG customer service,
operations, and initiatives. At the time we set the target, we did not have data we could use as a
benchmark. When we conducted the customer satisfaction survey to set the baseline, we found that
the current level of satisfaction—57 percent—is well below the target we had originally set. Several of
our offices have taken steps to address weaknesses identified in the survey, and we will continue to
use employee feedback to improve customer service satisfaction. We will conduct the survey again in
FY 2014 to measure progress and identify additional improvement opportunities.

Strategic Goal 5
OIG’s performance in relation to building a high-quality workforce was strong, although there is
room for improvement. The performance results indicate that we did very well in terms of hiring
efficiency and retention of highly performing employees. The Office of Personnel Management
evaluated OIG’s human resource programs and reported that operations were compliant with laws,
rules, and regulations. The evaluation team provided a list of recommended actions, all of which
have been addressed. In addition, we successfully implemented an electronic onboarding process that
allows new employees to complete forms electronically, promoted telework as a critical recruitment
and retention tool, and proactively recruited interns to fill short-term staffing needs and build interest
in OIG as an employer.

In FY 2013, OIG conducted an employee survey to set a baseline for the employee satisfaction
performance indicator. At the time, 47 percent of employees expressed satisfaction. In response to
the results, we established four employee work groups to address the critical issues identified. We will
readminister the survey in FY 2014 to measure progress in reaching the performance target.

OIG missed the target for completing 100 percent of required core curriculum training. Two OIG
offices have required core curriculum training: Investigations and Audit. Investigations completed
all of its required training.

Audit did a considerable amount of hiring over the past 3 fiscal years. Of the 23 auditors hired,
10 joined the OIG in FY 2013 and received the required core curriculum training for new hires,
which includes training on OIG’s approach to performing financial and performance audits, audit
report writing, USAID and MCC programs and business processes, and USAID and MCC financial
management processes. One auditor hired in FY 2013 was unable to attend when the program was
presented. The 12 additional auditors who did not attend the training were hired in prior fiscal years.
Seven of those currently are stationed overseas and were unable to attend the training dates. The
remaining five auditors hired in prior fiscal years have considerable experience; consequently, it is not
likely that they would materially benefit from attending the new employee orientation program. We
will continue to ensure that newly hired auditors attend the required core curriculum training and
that auditors already on board who would materially benefit from this training attend it at the earliest
opportunity.


                                                       USAID OIG Semiannual Report to the Congress 13
Audit’s new employee orientation program, which was kicked off this year, demonstrates OIG’s
commitment to providing new employees the tools and resources they need to succeed and thrive
in the OIG’s organizational culture. It provides 2 to 4 weeks of classroom training that is based on
examples of actual USAID and OIG conditions and is tailored to the unique needs of each new staff
member. Two classes have completed the orientation.

Overall, these performance results demonstrate that OIG is performing quite well, although we still
have room to improve. This is the first full year in which OIG has measured its progress against the
current strategic goals and performance indicators. In response to the lessons learned from this
process and to ensure that the strategic plan captures OIG’s overall organizational performance, we
will review the strategic plan and related indicators in FY 2014.




14	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
SUMMARY TABLES




                                   Summary Table of Audits Conducted
                                     USAID, USADF, IAF, and OPIC
                                      April 1-September 30, 2013


             Type of Report                Number of Reports                        Value of Questioned Costs


    Financial Audits

    U.S.-based contractors                        73                                           58,480,416

        Quality control reviews                   0                                                  0

    U.S.-based grantees                           51                                            8,663,304

        Quality control reviews                   1                                                  0

    Foreign-based organizations                  198                                           8,794,300

        Quality control reviews                   17                                             229,647

    Foreign government funding                    2                                               30,600

    Local currency trust fund                     1                                                  0

    Performance Audits

    USAID economy and efficiency                  33                                           18,814,395
    Foundations’ economy and
                                                  2                                                  0
    efficiency
    Other                                         5                                               2,870

    Total                                        383                                           95,015,532




	                                                 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   15
                                       Summary Table of Audits Conducted
                                                     MCC
                                          April 1-September 30, 2013


            Type of Report                            Number of Reports        Value of Questioned Costs


 Financial Audits

 Foreign-based organizations                                    14                     1,781,392

 Quality control reviews                                         2                        0

 Performance Audits

 Economy and efficiency                                          1                        0

 Total                                                          17                     1,781,392




16	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
            Summary Table of Investigative Activities Including Matters
                     Referred to Prosecutive Authorities
                         April 1-September 30, 2013


                        Workload                                         Civil Actions

    Investigations opened                         46   Civil referrals                            2

    Investigations closed                         57   Civil declinations                         2

                                                       Settlements                                3

                                                       Total                                      7

                    Criminal Actions                             Administrative Actions

    Prosecutive referrals                        22    Personnel suspensions                      2

    Prosecutive declinations                      2    Resignations/terminations                  4

    Arrests                                       1    Recoveries                                 10

    Indictments                                   1    Suspensions/debarments                     9

    Convictions                                   6    Systemic changes                           17

    Sentencing                                    4    Other                                      8

    Fines/assessments                             3
    Restitutions                                  1
    Total                                        40    Total                                      50

                                        Recoveries and Savings

    Judicial recoveries (criminal and civil)                                         $504,071,300 *

    Administrative recoveries                                                            $12,080,572

    Total                                                                                $516,151,872

*
 Of this total, $500 million is associated with a joint investigation in which USAID OIG had
a leading role. The subject of the investigation agreed to pay $150 million in criminal fines and
forfeitures and to settle civil claims for $350 million. Additional information on this case is
provided on page 71 of this report.




    Note: Chart has been revised to include prosecutive referrals, which were inadvertently
    ommitted from the previously issued version.




                                                       USAID OIG Semiannual Report to the Congress 17
                              Fraud Awareness Briefings Conducted Worldwide
                                       April 1-September 30, 2013
     APRIL 1-SEPTEMBER 30, 2013

               Month                         Location                          Sessions   Attendees

                April               Baghdad, Iraq                                 1          15

                                    Rangoon, Burma                                1          76

                                    Conakry, Guinea                               2          16

                                    Kabul, Afghanistan                            5          63

                                    La Paz, Bolivia                               2          67
                                    San Salvador,
                                                                                  1          24
                                    El Salvador
                                    Washington, D.C.                              1          33

                 May                Abuja, Nigeria                                1         102

                                    Cairo, Egypt                                  3          66

                                    Dakar, Senegal                                3          39
                                    Dedougou, Burkina
                                                                                  1          12
                                    Faso
                                    Islamabad, Pakistan                           2          37

                                    Kabul, Afghanistan                            3          8
                                    Koudougou,
                                                                                  2          18
                                    Burkino Faso
                                    Lima, Peru                                    2          88

                                    Manila, Philippines                           1          78
                                    Ouagadougou,
                                                                                  1          22
                                    Burkino Faso
                                    San Salvador,
                                                                                  1          24
                                    El Salvador
                                    Sindou, Burkino Faso                          1          26

                 June               Baghdad, Iraq                                 1          20

                                    Dushanbe, Tajikistan                          1          5

                                    Islamabad, Pakistan                           2          21




18	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                    Fraud Awareness Briefings Conducted Worldwide
                             April 1-September 30, 2013
APRIL 1-SEPTEMBER 30, 2013

       Month                   Location          Sessions               Attendees

     June (cont.)      Kabul, Afghanistan           2                       8
                       Mazar-e-Sharif,
                                                    1                       35
                       Afghanistan
                       Phnom Penh, Cambodia         1                       6
                       Ramallah, Palestinian
                                                    8                      146
                       Territories
                       San Salvador,
                                                    1                       23
                       El Salvador
                       Santo Domingo,
                                                    3                       88
                       Dominican Republic
                       Washington, D.C.             2                       22

         July          Bogota, Columbia             3                       80

                       Cap-Haitien, Haiti           1                       30

                       Islamabad, Pakistan          1                       6

                       Lahore, Pakistan             1                       67

                       Kabul, Afghanistan           9                      252

                       Lusaka, Zambia               1                       49

                       Petionville, Haiti           2                       70

                       Phnom Penh, Cambodia         2                       31

                       Port-au-Prince, Haiti        1                       25

                       Quito, Ecuador               2                       36
                       San Salvador,
                                                    4                       85
                       El Salvador
                       Tblisi, Georgia              4                      288

                       Washington, D.C.             3                       27

       August          Bamako, Mali                 3                       86
                       San Salvador,
                                                    1                       11
                       El Salvador




                                               USAID OIG Semiannual Report to the Congress 19
                           Fraud Awareness Briefings Conducted Worldwide
                                    April 1-September 30, 2013
 APRIL 1-SEPTEMBER 30, 2013

            Month                         Location                         Sessions    Attendees

       August (cont.)            Hanoi, Vietnam                                  2        50

                                 Islamabad, Pakistan                             2        9

                                 Jakarta, Indonesia                              4       134

                                 Kabul, Afghanistan                              5        67

                                 Kampala, Uganda                                 4       244

                                 Lilongwe, Malawi                                2        68

                                 Yerevan, Armenia                                1        30

                                 Manila, Philippines                             1        19

                                 Tegucigalpa, Honduras                           2       129

                                 Washington, D.C.                                1        13

         September               Accra, Ghana                                    5       157

                                 Dakar, Senegal                                  1        16

                                 Kabul, Afghanistan                              5        167

                                 Kampala, Uganda                                 8       380

                                 Phnom Penh, Cambodia                            1        58

                                 Port-au-Prince, Haiti                           1        73

                                 Tegucigalpa, Honduras                           1        6

           TOTAL                                                                 140     3,951




2 0 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
SIGNIFICANT FINDINGS AND ACTIVITIES:
U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT




    USAID implements environmental and agricultural programs in provinces like this
    one in Cambodia (photo by USAID).




	                                         U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   21
2 2	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
ACCOUNTABILITY




Contractor and Grantee Accountability—Audits
Overall Audit Activity

USAID is required by the Federal Acquisition Regulation (FAR), the Single Audit Act, Office of
Management and Budget (OMB) circulars, and its own internal policies and procedures to obtain
appropriate and timely audits of its contractors, grantees, and enterprise funds. OIG provides
oversight of these audit activities, ensuring that audits are conducted in accordance with appropriate
quality standards.

Audits of U.S.-Based Companies

U.S.-based companies carry out many USAID-funded activities. DCAA and, less frequently, public
accounting firms conduct audits, reviews, and preaward surveys of U.S.-based contractors on
USAID’s behalf. OIG then reviews DCAA’s reports and transmits them to USAID management.

During this reporting period, OIG reviewed and transmitted 44 DCAA reports covering
approximately $1.02 billion in costs (with questioned costs of more than $21 million) and reviewed
and transmitted 12 incurred cost audit reports covering approximately $28 million in costs (with
questioned costs of more than $15 million). OIG also completed one quality control review.

Audits of U.S.-Based Grantees and Enterprise Funds

U.S.-based nonprofit organizations also receive significant USAID funds to implement development
programs overseas. As required by OMB Circular A-133, “Audits of States, Local Governments, and
Non-Profit Organizations,” nonfederal auditors perform annual financial audits of USAID grantees
that spend more than $500,000 in federal funds annually. The auditors are required to identify:

•   Significant deficiencies involving major programs.
•   Material noncompliance with laws and regulations.
•   Known fraud affecting federal awards.
•   The status of prior audit findings.




	                                                U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   23
In some instances, USAID contracts with DCAA to perform special financial audits and with
independent public accounting firms to perform Agency-contracted financial audits of U.S.-based
grantees. OIG provides oversight for the nonfederal auditors performing these audits to determine
whether auditors have prepared audit reports in accordance with the reporting requirements of OMB
Circular A-133 and generally accepted government auditing standards.

OIG also conducts quality control reviews to (1) determine whether the underlying audits were
conducted in accordance with generally accepted government auditing standards and meet the
requirements of OMB A-133, (2) identify any follow-up work needed to support the opinions
contained in the audit report, and (3) identify issues that may require management attention by
federal officials.

Enterprise funds are U.S.-based nonprofit organizations established under the Support for East
European Democracy Act of 1989 and the Freedom Support Act of 1992. Enterprise funds are subject
to annual audits of financial statements performed by private accounting firms and reviewed by OIG.

During the reporting period, OIG issued 26 reviews for A-133 Single Audit Act reports and
37 reviews for Agency-contracted audit reports, and conducted 1 limited scope review, covering
approximately $3 billion in USAID funds.

Audits of Foreign-Based Contractors and Grantees

OMB Circular A-133 does not apply to foreign-based contractors and grantees. Given the high-risk
environment in which USAID operates, however, USAID has extended similar audit requirements
to its foreign-based contractors and grantees through standard provisions included in grants,
cooperative agreements, and contracts. Financial audits of foreign-based contractors and grantees are
normally conducted by independent audit firms approved by OIG’s overseas regional offices.

Under the recipient-contracted audit programs, audits are required for all foreign entities that spend
$300,000 or more in USAID funds during their fiscal year. USAID may also request financial audits
of nonprofit organizations that fall below the $300,000 threshold.

USAID’s financial audit requirements concerning its contracts, grants, and cooperative agreements
are normally satisfied under the recipient-contracted audit program. However, Agency-contracted
audits may be initiated by either USAID or OIG to provide additional audit coverage or address
specific concerns.

OIG reviews all audit reports and, if they comply with OIG’s Guidelines for Financial Audits
Contracted by Foreign Recipients, transmits the reports to the appropriate USAID mission for
corrective actions. Audit firms also are notified of any problems identified in the audit reports.



2 4 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
During this reporting period, OIG reviewed and transmitted 198 audits of foreign-based
organizations, covering more than $817 million in expenditures and resulting in about $9 million in
questioned costs, and 2 audits of foreign government funding, covering $7 million in expenditures
and $30,600 in questioned costs. OIG also completed 17 quality control reviews to ensure that the
audits were completed in accordance with appropriate audit standards.

Contractor and Grantee Accountability—Investigations
Grant in Egypt Terminated

An Egyptian NGO was awarded a grant from USAID, but the local government did not approve the
NGO to implement the grant, as required in Egypt. The founder of the NGO asked USAID to modify
the grant in order to give it to another company, which would not have required the approval of the
Egyptian Government. The NGO founder said to USAID that she also owned the other company, but
an investigation determined that she did not. The true owner of the second company advised OIG
that he was manipulated by the NGO founder and was unaware of how project funds were allocated.
As a result, USAID/Egypt allowed the grant to expire.

Employee Misconduct

USAID/Afghanistan Employee Terminated for Submitting False Documents

In May 2012, OIG received an anonymous complaint alleging favoritism in the hiring process of
employees and falsification of diplomas and transcripts by applicants to gain points in their job
applications sent to USAID/Afghanistan. OIG disproved the allegations of favoritism but did find
that a foreign service national (FSN) employee submitted a false degree and diploma to USAID.  In
July 2013, the employee was terminated as a result of the investigation. USAID/Afghanistan has since
implemented a policy requiring that all transcripts and degree documentation be verified prior to
hiring employees. 

USAID Employee Ordered to Repay More Than $30,000 of Inflated Salary

A USAID direct-hire employee submitted falsified documents to receive a higher starting salary with
USAID.  After receiving an initial salary offer from USAID, the employee submitted correspondence
from his “previous employer” (in fact, he was self-employed) and a document purporting to
be an authentic W-2 form to USAID to justify a higher starting salary. Personal and corporate
bank account records for the employee and his previous employer refuted his claim that he received
a higher salary.  In addition to the inflated salary, the employee fraudulently received additional
benefits that accompanied the higher salary. A bill for collection was issued for more than $30,000.




                                                    USAID OIG Semiannual Report to the Congress 25
Grant to Egyptian Organization Canceled After Treasurer Withheld Salary Payments 

Information was provided to OIG about the treasurer of a USAID-funded NGO implementing
an activity that provided legal services to street children.  OIG determined that the treasurer
was withholding salary payments from employees even though he billed USAID for their entire
salaries. USAID/Egypt terminated the grant.

Manufacturer of Water Pumps and Company Vice President Plead Guilty and Must Repay USAID
More Than $500,000

As a result of a 3-year OIG investigation, two executives and a U.S.-based manufacturer of water
pumps were indicted in Tennessee. Certifying that the pumps were made in the United States, the
company provided ten water pumps to a USAID program in Egypt for more than $500,000. In fact,
the pumps were manufactured in China at a fraction of what the company claimed was the cost. Days
before a trial was to begin in April 2013, one of the vice presidents and the company itself pleaded
guilty to a charge of false statements. The vice president was sentenced to 3 years’ probation, and the
company must repay $529,000. The other vice president received a pretrial diversion.

Project Manager for USAID-Funded Project in Bolivia Confesses to Soliciting and Receiving
Kickbacks

In February 2013, a USAID implementer disclosed that the FSN in charge of managing its
$1.5 million project had been accused of soliciting kickbacks from subcontractors. OIG conducted
an investigation and discovered that most of the project’s construction subcontracts were awarded
to a select group of companies that paid the project manager up to 40 percent of the value of
each subcontract. OIG investigators proceeded to secure a confession from the FSN as well as
two of the Bolivian subcontractors. In addition, and in coordination with OIG's Office of Audit,
the investigation also discovered that most of the construction projects were built using inferior
materials. As a result, the implementer agreed to reassess and reconstruct the projects at its own
expense. OIG referred the FSN and the two subcontractors to USAID suspension and debarment
officials. 

Afghan National Terminated for Steering $277,000 Diesel Fuel Subcontract to a Relative on a
USAID Project

In July 2013, USAID contractor Black & Veatch (B&V) terminated the employment of an Afghan
deputy administrative procurement manager who was working on a USAID-funded project. An
OIG investigation established that the former employee knowingly selected a relative to receive
a $277,000 diesel fuel subcontract.  B&V acknowledged the former employee did not enforce its




2 6 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
procurement procedures effectively. B&V reported that it will implement internal controls aimed at
preventing similar problems in the future. 

Former USAID Executive Settles Claim of Improper Behavior for $30,000 

A former USAID chief financial officer will pay the government $30,000 to settle allegations that he
did official work on a matter in which he had a prohibited financial interest. In 2012, the now-retired
Senior Executive Service employee helped draft a solicitation for a government contract for which he
intended to apply. The OIG investigation demonstrated that he sought to supplement his retirement
pension by continuing to work for USAID as a contract employee. OIG concluded that, in an effort
to ensure that he would be awarded a government contract after he retired, the employee tailored
the proposed contract to his specific skills and experiences. The investigation also determined that
the subject was assisted by another high-ranking USAID executive, who also is no longer with the
Agency. The settlement, which was the result of a coordinated effort with the Justice Department's
Civil Division, does not reflect any finding of liability.

Expanding Accountability

Corruption and lack of accountability are major impediments to development. These issues threaten
to negate years of economic growth, especially in the areas of the world subject to political instability
and violence.

OIG audits and investigations afford two methods of safeguarding USAID funds; however, OIG
pursues additional methods to promote accountability and transparency, described below.

Expanding Supreme Audit Institutions’ Capabilities

OIG continues to work closely with selected supreme audit institutions (SAIs) in countries where
USAID is present. SAIs are the principal government audit agencies in the recipient countries and
are often the only organizations that have a legal mandate to audit the accounts and operations of
their governments. As such, SAIs may be called upon to audit funds provided to host governments
by USAID or other donors. OIG and USAID missions have signed memorandums of understanding
(MOUs) with SAIs in 23 countries.

Before SAIs can conduct audits for USAID, they must demonstrate sufficient professional capacity
and independence. OIG provides training to SAIs in how to conduct financial audits of USAID
funds in accordance with Agency guidelines and U.S. Government auditing standards. OIG provides
quality control for all audits of USAID funds performed by SAIs.




                                                       USAID OIG Semiannual Report to the Congress 27
During this reporting period, SAIs issued nine audit reports covering approximately $12 million
in USAID funds. They reported approximately $143,000 in questioned costs, 12 internal control
weaknesses, and 12 material instances of noncompliance with agreements.

Training USAID Staff and Others

OIG remains committed to preventing loss of foreign assistance funds and continues to provide
training in cost principles and fraud awareness to USAID employees, SAIs, auditors from local
accounting firms, and implementing partners.

Cost Principles Training

USAID’s contracts and grants incorporate cost principles that define the types of costs that can be
legitimately charged to USAID programs.

To increase awareness of—and compliance with—cost principles and to promote the highest
standards of accountability, OIG conducts training for overseas USAID staff, contractors, grantees,
and others. This training provides a general overview of U.S. Government cost principles and actual
examples of instances that demonstrate concepts such as reasonableness, allocability, allowability,
and various specific cost principles (e.g., for travel expenses or entertainment costs). The training also
includes information on financial audit requirements and accountability issues.

During this reporting period, OIG provided training in cost principles and related subjects in
7 countries to approximately 500 individuals.

Fraud Awareness

During the current reporting period, OIG emphasized preventive strategies as part of our oversight
responsibilities and provided 140 fraud awareness briefings to 3,951 individuals.

These briefings—customarily given to employees, contractors, grantees, and others—alert
participants to fraudulent practices and schemes, and advise them on how to report fraud if it is
encountered. The briefings are tailored for presentation to specific groups, when requested, such as
contracting officers or contracting officers’ representatives (CORs).

Investigations resulting in criminal or civil prosecution are publicized on USAID’s Web site and in
other publications, calling attention to prosecutorial action taken against individuals or organizations
whose illegal activities have targeted USAID programs.




2 8	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
In addition, OIG has developed publications and educational materials. The newest publication,
“What an Investigation Means to You,” outlines the types of activities OIG investigates, the purpose
of its investigations, the investigative process, and the employee’s role in that process. Another
publication, “What to Report,” provides specific guidelines for making complaints to the OIG
Hotline. OIG Hotline posters, flyers, and cards have been distributed worldwide. To expand OIG’s
outreach efforts, these materials are produced in English, Spanish, French, and Arabic.




                                                     USAID OIG Semiannual Report to the Congress 29
3 0 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
AGRICULTURE AND FOOD SECURITY




USAID’s agriculture and food security
programs work to increase food security                     SIGNIFICANT FINDINGS AND ACTIVITIES
through Feed the Future, the U.S.
                                                            • USAID/Cambodia’s Helping Address Rural
Government’s global hunger and food security
                                                            Vulnerabilities and Ecosystem Stability Program
initiative. The Agency supports agricultural                demonstrates success in improving certain
research and development, expanding and                     aspects of food security in Cambodia, such as
enhancing agricultural markets and trade,                   effective program training, businesses’ access
capacity development, global nutrition                      to lower-cost loans, and a decrease in illegal
programs, and investment in sustainable                     fishing as a result of community education.
                                                            Some problem areas are noted, including
agriculture. It also provides food assistance to
                                                            those relating to program coordination
vulnerable populations and those in crisis.
                                                            with provincial governments, questionable
                                                            sustainability of certain natural resource
OIG’s oversight of USAID’s agriculture                      management activities, an insufficient focus
and food security programs this reporting                   on poor beneficiaries, and contractor
period focused on assistance programs in                    performance. One program official had an
Cambodia, Malawi, and Pakistan. Audits                      unjustified salary and a potential conflict of
                                                            interest, resulting in $82,625 in questioned
noted unsupported and questioned costs and
                                                            costs.
problems with internal controls and compliance
issues, among other areas for improvement.                  • An OIG investigation in Nicaragua results in a
                                                            bill for collection of more than $23,000.
Audit of USAID/Cambodia’s Helping Address
Rural Vulnerabilities and Ecosystem Stability               • In Malawi, OIG finds that one large grain
Program                                                     bulking center USAID helped construct did
                                                            not meet basic standards. Approximately 90
Report No. 5-442-13-008-P
                                                            metric tons of shelled peanuts were stored in
                                                            a pile on a concrete floor, and OIG found bags
Cambodia is predominately a rural society,                  of grain that had been damaged by rodents
with more than 70 percent of the population                 and infested by termites. OIG also identified
reliant on agriculture, fisheries, and forestry             nearly $16,000 in questioned costs related to
for their livelihoods. However, agricultural                unsupported food aid distributions and more
productivity can vary significantly because                 than $2.5 million in questioned costs related to
                                                            unsupported compensation.
of flooding and drought, creating food
insecurity—the inability to get enough
good food to live an active, healthy life. To



	                                                  U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   31
address this problem, USAID/Cambodia awarded a 5-year, $56.8 million contract to Fintrac Inc. to
implement the Helping Address Rural Vulnerabilities and Ecosystem Stability (HARVEST) Program.
Its primary goal is to improve food security through enhanced agricultural development and rational
management of natural resources. The program was designed to encompass six provinces where
nearly 32 percent of Cambodia’s population lives.

OIG found that the program is on track to improve food security in the provinces and cited several
notable achievements. For example, one rice miller said the program training completely changed the
way he interacted with suppliers, typically small rice farmers. He now talks with farmers about his
needs and the needs of his larger clients and how they can work together to produce higher-quality
rice. Another miller said that before working with the program, he took out loans from informal local
lenders. The program linked him to a formal financial institution, and he estimated his business now
saves around $20,000 annually in interest expense. Members of a community fishery organization
in one province said that because of the tools and community education provided by the program,
illegal fishing in the protected areas has decreased, and locals have noticed an increase in the fish
stock.

Notwithstanding the program’s successes, OIG identified some problem areas, such as weak
coordination with provincial governments, questionable sustainability of certain natural resource
management activities, an insufficient focus on poor beneficiaries, branding issues, and other
problems with contractor performance differing from contract specifications. In addition, one
program official had an unjustified salary and a potential conflict of interest, resulting in $82,625 in
questioned costs.

OIG made nine recommendations to help the mission improve the overall effectiveness of the
program. USAID made management decisions on all nine and has taken final action on two.

Bill for Collection of $23,000 Issued for Misuse of Funds

A public international organization1 (PIO) received a $1 million USAID grant designed to improve
cooperation among the donor community, civil society, and the Nicaraguan Government on
issues relating to food security. OIG discovered that the PIO’s management used approximately
$23,000 of the USAID grant to fund the activities of a separate project funded by the Spainish
Government. Subsequent to the OIG findings, USAID/Nicaragua issued a bill for collection for more
than $23,000.




1
   A public international organization is an organization composed principally of governments.


32 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
OIG Investigation Leads to Termination of Three Awards

Two U.S.-based NGOs and
a local subawardee were
responsible for implementing
food aid programs worth
more than $100 million in
East Africa. In late 2012,
OIG received reports from
USAID of commodity theft.
An investigation confirmed
that aid from beneficiaries
was siphoned to a local flour-
milling operation for the
purpose of international sale.
OIG estimated that more                Stolen wheat found at a flour factory in Filtu, Ethiopia (photo by OIG).
than $270,000 in USAID
commodities was found at the
flour-milling factory on the days investigators visited. Following the OIG investigation, all USAID
funding in the area was terminated. The matter was then referred to several USAID offices for further
review, as well as to local authorities.

Audit of USAID’s Agricultural Programs in Malawi
Report No. 4-612-13-010-P

To enhance food security and encourage economic growth, USAID/Malawi and the Office of Food
for Peace in Washington, D.C., established several agricultural programs with a total estimated
cost of $113.4 million as of December 2012. They align with USAID’s food security objectives and
the Government of Malawi’s strategies to improve agricultural productivity and competitiveness,
strengthen nutritional status, and increase resiliency to climate change and natural disasters. OIG
focused on 73 percent of USAID’s portfolio in Malawi and found that these programs generally were
achieving their goals and improving beneficiaries’ lives and livelihoods.

However, several issues need to be addressed. The mission relied on the data that partners reported
without verifying it. As a result, some reported data was not valid or substantiated. In addition,
weak internal controls, such as insufficient documentation and inadequate review of distribution
records, led to USAID being unsure that food commodities worth nearly $16,000 reached intended
beneficiaries. For example, subrecipients could not readily provide thumbprints for almost 2,000 of
the more than 10,000 distributions tested. In at least one instance, an individual other than the




                                                          USAID OIG Semiannual Report to the Congress 33
beneficiary made thumbprints on behalf of food recipients. About 42 percent of distributions
tested at one subrecipient’s warehouse were unsupported on the day the audit team visited. Finally,
noncompliance with U.S. Government regulations resulted in significant questioned costs. OIG found
that more than $2.5 million in compensation charged to USAID awards lacked adequate supporting
documentation.




The pile of loose peanuts was near the damaged goods area where termite nests are visible between the wall and
damaged bags (photo by OIG).


The state of warehouses was another issue. USAID helped construct 11 grain-bulking centers to
link farmers to markets and reported that more than 30,000 metric tons of commodities flowed
through these centers in 2012. Despite USAID support, the center processing the largest volume
of commodities, Dalitso, did not meet basic standards. For example, OIG auditors observed that
Dalitso was storing its entire stock of shelled peanuts—estimated by warehouse managers to be about
90 metric tons—in a large pile on the concrete floor. Auditors also noted bags of grain that rodents
had further damaged and termites had infested.

OIG made 14 recommendations. USAID made management decisions on 12 and has taken final
action on 3.

Audit of USAID/Pakistan’s Agribusiness Project
Report No. G-391-13-004-P

In November 2011, USAID/Pakistan awarded a 5-year, $89.4 million sole-source cooperative
agreement to a local NGO, the Agribusiness Support Fund (ASF) to carry out the Agribusiness




34 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
Project. Under this cooperative agreement, ASF awarded a $5.3 million subagreement to Citizens
Network for Foreign Affairs, a U.S.-based international organization, to provide technical assistance
and services.

Little progress had been made toward either of the main goals of the project. ASF had limited
experience managing a project of this size when it was selected as the implementer. In fact, in
the first preaward assessment, the implementer was rated as a high risk. However, according to
USAID/Pakistan officials, the Embassy encouraged the mission to use Pakistani organizations as
implementers, and the Embassy favored ASF. Also, because of security concerns and time constraints,
the mission was unable to visit other potential candidates. When ASF received the award, it did not
have procurement and finance policies that complied with USAID regulations, so the staff spent the
first year developing manuals, working out best approaches to designing and implementing activities,
and developing work plans.

Despite a late start, ASF had awarded $2.6 million to 11 subrecipients and disbursed advance
payments to 7 of them. However, for four of the recipients tested, several documents were missing or
not provided, including documentation to prove that senior managers had reviewed and approved the
monthly financial statements. One recipient could not provide proof that the bank account was in the
organization’s name and not in the name of an individual. Further, none of the recipients provided
documentation showing that they were capable of accounting for advance payments or implementing
the work.

ASF could not effectively manage the project and had not developed a system to monitor and track
jobs created. Even though the project had awarded 110 grants as of February 2013, it had not created
any permanent jobs. In addition, the five grant activities that auditors visited may not be sustainable.
For example, four farmer groups had limited access to markets; thus, OIG could not determine
whether the activities would increase employment in the surrounding community.

OIG made nine recommendations to help the mission improve the Agribusiness Project, and USAID
made a management decision on one.




                                                       USAID OIG Semiannual Report to the Congress 35
3 6	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
CRISIS AND CONFLICT




With a focus on crisis prevention, response,
recovery and transition, USAID works to                 SIGNIFICANT FINDINGS AND ACTIVITIES
strengthen resilience by helping states and
                                                        • OIG’s Audit of USAID/West Bank and
communities prepare for and mitigate the
                                                        Gaza’s Peace and Reconciliation Program
impacts of disasters; to provide life-saving            notes success in bringing people together
humanitarian assistance; to accelerate recovery         from opposite sides to discuss and work on
by supporting livelihoods, markets, and the             common goals. Some problems are noted with
sustainable provision of basic services; and            performance data and measures and with the
to address underlying grievances that cause             implementer following program guidance.
instability and conflict. The Agency also
promotes peaceful political transitions by
strengthening civil society and respect for human rights, facilitating reconciliation, supporting
effective democratic governance, and fostering the resumption of basic economic activity.

Audit of USAID/West Bank and Gaza’s Peace and Reconciliation Program
Report No. 6-294-13-016-P

USAID/West Bank and Gaza’s Peace and Reconciliation program is part of a worldwide effort
to support a “people-to-people” conflict mitigation and reconciliation process between Israelis
and Palestinians. The program’s goal is to improve mutual understanding and dialogue in areas
of common concern to ultimately address and resolve the root causes of conflict. The mission
implements this program through awards with U.S. and local organizations that address conflict
management and mitigation (CMM), 55 of which have been awarded in the region since 2004.

OIG audited this program to determine whether it is successfully bringing together people of
different ethnic, religious, or political backgrounds and providing them with opportunities to
address issues, reconcile differences, and promote greater understanding and mutual trust. OIG
found that the program was successful in bringing people together from opposite sides to discuss and
work on common goals. Furthermore, most implementers commented that the assistance officer’s
representatives provided guidance on data reporting and technical assistance in implementing their
activities. The mission also provided numerous training and support services to help implementers
develop reporting practices and financial management systems specific to USAID requirements.



	                                               U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   37
Despite these successes, the mission lacked data to determine whether the program was making
progress toward reconciling differences and promoting greater understanding and mutual trust.
The mission began measuring changes in perception; however, only 12 of 22 implementers had
this indicator in their performance management plans, and, as of May 2013, only 3 of those 12
had reported results. For example, Parents Circle-Families Forum (PCFF), an organization of
bereaved Palestinians and Israelis who promote reconciliation as an alternative to hate and revenge,
implemented a program called “Where Parallel Lines Meet.” The program supports three groups—
social activists, media people, and educators—who share stories. Program participants showed an
increase of 87 percent in positive perception of the other side. Although this one instance shows that
perceptions were changed, it alone is not sufficient to state that all activities were having the same
influence.




Palestinians learn new agricultural techniques in olive farms like this one (photo by OIG).




3 8	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
OIG found that because the mission did not fully follow CMM guidance at the program level, it did
not have a way to assess the impact this program has had on resolving or mitigating issues of conflict
or changing people’s perceptions. OIG made seven recommendations to improve the program.
USAID made management decisions on each of them and took final action on one.

Review of Selected Incurred Costs and Internal Controls for Parents Circle-Family Forum for the
Period September 2011 Through December 2012
Report No. 6-294-13-003-S

As part of its CMM program, USAID/West Bank and Gaza entered into a $700,000 cooperative
agreement in September 2011 with PCFF to implement "Where Parallel Lines Meet." (See also “Audit
of USAID/West Bank and Gaza’s Peace and Reconciliation Program,” for additional information
about the program).

OIG conducted this review to determine whether PCFF had taken corrective action on internal
control deficiencies identified in prior audits and whether selected incurred costs were allowable,
allocable, and reasonable in accordance with the terms of the agreement and federal regulations.
OIG found that PCFF had resolved the internal control problems reported in prior financial audits in
the areas of supporting documentation for incurred costs, written approvals on time sheets, and bank
account management. In addition, PCFF had implemented written accounting procedures covering
procurements, timekeeping and payroll, travel, and disbursements, as required by the agreement.
Review of the procurement, timekeeping, travel, and banking controls disclosed no exceptions.
OIG did, however, identify more than $2,800 in questioned salary costs, which included translator
services.

OIG made two recommendations, one involving the questioned costs and one recommending a
review of all program salary expenses under the USAID-funded program to identify any additional
questioned costs. USAID made management decisions on both and has taken final action on one.




                                                      USAID OIG Semiannual Report to the Congress 39
4 0	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
DEMOCRACY, HUMAN RIGHTS, AND
GOVERNANCE



USAID’s efforts to promote democracy, human
rights, and good governance are multifaceted:                 SIGNIFICANT FINDINGS AND ACTIVITIES
They include supporting free and fair elections,
                                                              • OIG’s Audit of USAID’s Albanian Justice
civil society, and independent media, as well
                                                              Sector Strengthening Project finds that
as protecting human rights, which includes                    the project made significant contributions,
countering trafficking in persons. USAID                      including the installation of digital audio
recognizes that promoting accountability and                  recording systems in Albanian courts, which
transparency in the countries it serves is key to             increases transparency by moving hearings
these efforts.                                                out of judges’ private chambers so they can
                                                              be recorded in public courtrooms. OIG notes
                                                              some areas of concern, however, including
OIG’s work during this reporting period helped
                                                              whether some project activities will be
identify challenges in the areas of contract or               sustainable.
program management and data quality issues,
as well as more than $150,000 in sustained                    • OIG’s Audit of USAID/Bangladesh’s
questioned costs.                                             Promoting Democratic Institutions and
                                                              Practices Program notes some progress
                                                              with respect to facilitating the gathering and
Audit of USAID’s Albanian Justice Sector
                                                              discussion of information on policy issues and
Strengthening Project
                                                              creating multiparty caucuses to encourage
Report No. 9-182-13-004-P                                     parties to work together. However, links
                                                              between the program’s objectives—critical to
In 1991, the East European nation of Albania                  the program’s success—are found to be weak.
held its first multiparty democratic election
after more than 4 decades of Communist                        • OIG finds that procurement delays, problems
                                                              with consistent performance monitoring, and
rule. Albania still faces high unemployment,
                                                              a lack of integration of gender programming
corruption, weak infrastructure, organized
                                                              in the project are limiting progress with the
crime, and persistent claims of electoral fraud.              implementation of USAID/South Sudan’s Core
In the justice sector, use of judges’ private                 Institutional Structures Project. OIG also
chambers instead of public courtrooms                         identifies more than $150,000 in sustained
for hearings and a lack of competency and                     questioned costs.
professionalism among attorneys contribute
to opportunities for judges and attorneys to
engage in corrupt activities. The important




	                                                   U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   41
anticorruption and watchdog roles that civil society organizations and the media play are limited
because the organizations generally are weak and media is not fully independent.

To address these issues, USAID’s Albanian Justice Sector Strengthening (JuST) Project works to
improve the enabling environment for policy reform and planning, enhance transparency and citizen
oversight, and upgrade performance and management capabilities in the justice sector. The project,
which was launched in October 2010, has a primary objective to improve the performance of the
Albanian justice sector and strengthen the watchdog and anticorruption role of civic organizations
and the media. Chemonics International is implementing the project through a 5-year, $9 million
contract.

OIG found that the project made significant contributions by implementing several targeted
activities. The most visible and important achievement was the installation of digital audio recording
systems in Albanian courts, which increases transparency by moving hearings out of judges’ private
chambers so they can be recorded in public courtrooms. As of March 2013, systems were installed
in half of the courts, and all courts were expected to be equipped by the end of the year. As another
example, project officials worked with Albania’s National Chamber of Advocates to establish and
jointly fund the country's first continuing legal education programs, which included more than
160 training sessions with 322 attendees.

OIG noted some areas of concern, including whether some project activities would be sustainable.
OIG made four recommendations to help strengthen mission management and promote project
sustainability. USAID made management decisions on each of the recommendations, and final action
was taken on one.

Audit of USAID/Bangladesh’s Promoting Democratic Institutions and Practices Program
Report No. 5-388-13-006-P

In April 2010, USAID awarded a $23.2 million cooperative agreement to the Asia Foundation
to implement the Promoting Democratic Institutions and Practices Program with its main
subcontractor, the State University of New York’s Center for International Development. The
program seeks to strengthen Bangladesh’s National Parliament and has two objectives: improving the
institution’s effectiveness and transparency, and facilitating increased participation of Bangladeshi
civil society in governmental oversight and making public policy.

OIG found that the program had some notable achievements, such as facilitating the conduct of
public hearings to gather citizens’ input on specific national policy issues, establishing district policy
forums, and creating multiparty caucuses to encourage members of different parties to work together.




4 2 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
However, the program was only partly achieving its objectives, and OIG identified several key
performance problems that need to be addressed. For example, some activities were still in an early
phase of implementation after almost 3 years of program operation. Links between the program’s
two components—critical to the program’s success—were weak. According to a midterm evaluation
of the program conducted at the mission’s request in January 2013, the connection between the two
components was “almost non-existent,” with the two appearing to be isolated and not reinforcing
each other. Further, training was not always adequate or targeted effectively. An analysis of the
100 parliamentary staff trained in 2012 revealed that most of the participants received some—but not
all—of the relevant training being offered. Some also received training that did not pertain to their
work. In addition, data for nine out of ten performance measures was not supported.

OIG made four recommendations for program improvement, and USAID has reached management
decisions on each of them.

Audit of USAID/Morocco’s Democracy and Governance Program
Report No. 7-608-13-005-P

As part of its ongoing support to Morocco, USAID launched the 4-year Local Governance Program
in June 2005, implemented by RTI International. Almost 5 years later, the mission signed a follow-on,
$14.7 million contract with RTI International to implement a new program to facilitate more
effective, accountable local governance in Morocco.

OIG found that USAID/Morocco’s democracy and governance program made noteworthy
improvements. Most completed activities met or exceeded their expected results, and ongoing
activities are succeeding for the most part. For instance, the mission reported that the program
organized more than 120 events attended by more than 3,700 participants (including 1,100 women).
The program also succeeded in getting local governments to agree to incorporate internal audit
divisions into their structure. For example, the city of Sale completed a vulnerability assessment and
prepared an audit plan based on the assessment. Further, at the Direction Générale des Collectivités
Locales’ (DGCL’s) request, program employees helped develop a draft charter for auditors. The
program completed and translated into Arabic a procedure manual for internal auditors; it will
now be integrated into the new operations manual that DGCL will make available to everyone in
Morocco.

In addition, the program reported that as of 2012, seven youth councils were established, and more
than 1,500 youths participated in program-sponsored activities. Moreover, more than 40 activities,
including conferences and planning sessions, were organized on civic participation and governance.
According to partner officials, other communes are creating councils, and the program launched a
successful small grant program that promotes partnership between communes and their youths.




                                                      USAID OIG Semiannual Report to the Congress 43
OIG made four recommendations to improve the program, and USAID took final action on all of
them.

OIG Investigation Results in Terminated Grant

In January 2013, OIG received allegations of fraud involving a USAID-funded legal support program
for women and children in Southeast Asia. An investigation was initiated with the cooperation of the
program implementer and revealed that the staff of the subimplementer had altered travel documents
to facilitate unauthorized travel. As a result, the subimplementer’s grant was terminated in September
2013.

Audit of USAID/Pakistan’s Small Grants Program
Report No. G-391-13-005-P

USAID/Pakistan’s Small Grants Program allows community-based and NGOs throughout the
country to set their own development agenda. The program encourages groups to submit concept
papers for activities they believe would contribute to economic growth, education, health, democracy
and governance, and other areas. The activities should have significant impacts and be unique,
innovative, compatible with the mission’s overall objectives, and sustainable after funding ceases.

In August 2010, the mission awarded the National Rural Support Programme, a local NGO, a
$50 million, 5-year contract to help implement the program. The contract provides $25 million
each to USAID/Pakistan’s Small Grants Program and the Ambassador’s Fund Program. OIG’s audit
focused on USAID/Pakistan’s Small Grants Program.

OIG found that the program had mixed results. Some grants were making a difference, such as one
implemented by an organization that was using a unique, innovative approach to training teachers.
It created training videos and downloaded these videos on the teachers’ cell phones for them to view
and apply the teaching techniques in the classroom. Another grantee was providing health-care
coverage, including X-rays and hospitalizations based on a health maintenance organization model,
which is a new way of serving the marginalized community it operates in. However, three of nine
grants tested did not achieve development impact or sustainability.

OIG made three recommendations to help promote ownership of the program by the technical
offices, to better monitor the program for development impact and sustainability, and to ensure
greater timeliness for reviewing and approving grant concept papers and application.

USAID has reached management decisions on each of the recommendations.




4 4 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
Audit of USAID/South Sudan’s Core Institutional Structures Project
Report No. 4-668-13-008-P

In 2005, the Government of Sudan and the Sudanese People’s Liberation Movement signed a peace
agreement that, among other provisions, established the Government of South Sudan as a subnational
entity. When the Government was established, however, it did not have the buildings, personnel, or
systems it needed to function. Shortly before the peace agreement was signed, USAID entered into
a contract with BearingPoint to initiate the Core Institutional Structures Project (Core) in order
to strengthen South Sudan’s governance activities. In May 2009, Core was taken over by Deloitte
Consulting. In 2009 and 2010, USAID reevaluated the project’s strategy and restructured it to
meet the anticipated needs of an independent government. In January 2011, South Sudan voted for
independence from Sudan.

Following these reevaluations, USAID extended Core and revised the project’s objectives. The new
objectives included improving the Government’s decision-making process and communication
capacity; implementing sound public financial management policies, legislation, and processes;
strengthening the central bank’s capacity; developing a legal and regulatory framework; and building
the Government’s capacity to manage oil resources. In 2010, USAID began the procurement process
to establish successor projects but experienced delays. As of January 2013, USAID had awarded a
contract to Deloitte for a follow-on project to the democracy and governance component but had not
yet funded the project’s economic growth component.

OIG audited Core to determine whether activities had increased South Sudan's capacity to govern
effectively, inclusively, transparently, and accountably. The team determined that the project had done
so. However, procurement delays, problems with consistent performance monitoring, and a lack of
integration of gender programming in the project limited its progress.

In addition, inadequate billing oversight led to more than $600,000 in questioned costs, including
$3,000 for fuel purchased by USAID that Deloitte did not properly safeguard, more than $230,000 for
personnel billed over their approved rates, more than $38,000 for a U.S. citizen that was billed at a
higher rate because he was listed as a non-American, and more than $329,000 for the premium paid
to hire non-Americans rather than Americans.

OIG made seven recommendations to strengthen USAID/South Sudan’s oversight of the project.
USAID made management decisions on all seven, including sustaining almost $154,000 of the
questioned costs, and took final action on three.




                                                      USAID OIG Semiannual Report to the Congress 45
USAID Subcontractor Referred for Suspension and Debarment and Issued Bill of Collection

In February 2013, OIG responded to allegations related to the Gender Equity Program (GEP) in
Pakistan that the Shah Sachal Sami Foundation (SSSF) falsified reports relating to the number of
women it registered in the program. GEP is implemented by the Aurat Foundation, which awarded
the grant to SSSF. OIG launched an investigation and requested documents from SSSF, which then
refused to comply. Aurat terminated the agreement after concluding that SSSF lacked the capacity to
meet project deliverables and found that documents were fabricated. In June 2013, OIG referred SSSF
to USAID for possible suspension and debarment, and in August, USAID sent a bill for collection of
more than $22,000 to the Aurat Foundation.




4 6	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
ECONOMIC GROWTH AND TRADE




USAID works to promote international
economic growth and trade by supporting sound             SIGNIFICANT FINDINGS AND ACTIVITIES
economic policies, mobilizing entrepreneurs’
                                                          • OIG notes that the Fostering Interventions
access to credit and markets, and supporting
                                                          for Rapid Market Advancement Project
private enterprise. Goals include building skills         criteria for paying loans hindered borrowing in
and capacity, developing an enabling regulatory           Bosnia-Herzegovina. OIG also observes that
environment, and encouraging market linkages.             the program has been less than successful in
                                                          attracting finance and promoting investment.
The most prevalent cross-cutting issues affecting
                                                          • The sustainability of USAID/El Salvador’s
USAID’s economic growth and trade programs
                                                          Municipal Competitiveness Project OIG
during this reporting period were compliance
                                                          is questioned as municipalities have not
problems and data quality issues. OIG also                implemented competitiveness plans, and
identified questioned costs and concerns about            economic growth and employment results are
program sustainability.                                   overstated.


Audit of USAID/Afghanistan’s Kandahar                     • Despite some success in building capacity
                                                          in community organizations, USAID/Jordan’s
Helmand Power Project
                                                          Youth for the Future Program is not satisfying
Report No. F-306-13-001-P
                                                          employment needs and does not have the
                                                          institutional capacity needed to deliver the
In 2010, USAID/Afghanistan joined forces with             programs to at-risk youth.
the country’s national electrical power company,
Da Afghanistan Breshna Sherkat (DABS), the
U.S. Army Corps of Engineers, U.S. Forces-
Afghanistan, and Regional Commands South
and Southwest to develop a plan for improving
the electric supply in the southern provinces of
Kandahar and Helmand. In December 2010,
USAID/Afghanistan awarded a $266 million contract to Black & Veatch Special Projects Corp. to
support the Kandahar Power Initiative, later renamed Kandahar Helmand Power Project. It was
designed to increase the supply, quantity, and distribution of electrical power as part of a larger
national program to improve the South East Power System and connect it with other electrical grids
in the country.




	                                               U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   47
The mission faced various challenges in completing the project as originally planned, some of which
were out of the mission’s control. About the same time the award was made, the Afghan Government
and the NATO-led International Security Assistance Force agreed that NATO troops would leave
the country completely by 2014. The resulting transition changed strategic priorities that affected
the project’s scope. In addition, security threats that plagued previous infrastructure projects also
hampered the progress of the project.

OIG conducted the audit to assess the mission’s project oversight, compliance with environmental
requirements, and sustainability planning. OIG noted a need for improvement in all areas,
particularly in planning. Many key processes and personnel that should have been in place when the
project began were not. The mission claimed it had started planning for sustainability in 2012 but did
not provide any such documentation. In addition, the mission did not have the personnel in place
at the beginning to confirm that Black & Veatch was carrying out activities with minimal pollution
and environmental damage. During the project’s first 18 months, the mission did not conduct any
documented environmental compliance monitoring. In fact, the first environmental monitoring
activity was not completed until October 2012—almost 2 years after the project began.

The mission also was not able to track implementation and financial progress adequately because
the original contract and mission expectations were not clear. During the first year, high turnover of
employees and the focus on starting the project were contributing factors. In addition, the mission
did not have the performance management plan in place during the first year and Black & Veatch
did not give enough support to the organization contracted to monitor its operations. Management
decisions have been made on all three recommendations.

Audit of USAID/Bosnia-Herzegovina’s Fostering Interventions for Rapid Market Advancement
Project
Report No. 9-168-13-003-P

In December 2008, USAID and the Swedish International Development Cooperation Agency (Sida)
agreed to finance the Fostering Interventions for Rapid Market Advancement project through a
5-year, $19.6 million contract. Cardo Emerging Markets USA, Ltd., is implementing the contract,
which was awarded in August 2009, along with its subcontractors. The goals of the project are to
support sustainable economic growth, and improve employment opportunities and competitiveness
in selected sectors in Bosnia-Herzegovina (BiH).

OIG found that the project is progressing and that many of its activities are assisting companies
in the targeted sectors. For example, it helped 35 wood processing companies obtain international
quality certifications. The project sponsored workshops and seminars that assisted 80 small and
medium-sized enterprises (SMEs) with becoming authorized exporters. In addition, the project




4 8	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
helped more than 102 companies attend international trade fairs. These companies reported sales
of almost $17 million from initial sales and in the 6 months after the fairs. OIG determined that the
project’s grant program is comprehensive and implemented in a way to help many SMEs.

Nevertheless, several problems were found. According to Cardno, accessing funds through the
Development Credit Authority (DCA) was harder than initially envisioned because BiH’s major
banks set high lending criteria that hindered borrowing. In addition, Cardno did not promote DCA
properly, which hindered beneficiaries from getting loans. Cardno acknowledged that its DCA
program has been less than successful in attracting finance and promoting investment.

Cardno also had issues with proper reporting. Quarterly reports and work plans had inaccurate
performance data. For example, work plans reported activities that had not started as “ongoing.”
Further, Cardno reported different results for the first and second years in its quarterly reports.
Project grants were not tracked properly and grant funds were overcommitted. The problematic data
was not identified because neither the mission nor Cardno periodically assessed data quality.

OIG made 11 recommendations. USAID made management decisions on nine and has taken final
action on three.

Audit of USAID/El Salvador’s Municipal Competitiveness Project
Report No. 1-519-13-005-P

In September 2009, USAID/El Salvador signed a $9.2 million contract with Research Triangle
Institute (RTI) to implement the Municipal Competitiveness Project. USAID/El Salvador
subsequently increased the award to $11.2 million, with an estimated completion date of March 2014.
The main objective of the project is to strengthen Salvadoran municipalities’ competitiveness, thus
resulting in more income, more employment, and increased private investment and trade.

OIG found that the project was successfully implementing activities in 50 municipalities. The project
provided investment training for more than 2,500 public officials and private sector representatives,
and finalized the 2011 Municipal Competitiveness Index. However, OIG noted several problem areas.
For example, the mission’s monitoring and evaluation was weak, and the mission did not properly
monitor the trainings RTI performed. Furthermore, mission officials had not conducted site visits to
any of the 50 municipalities or met with the two associations receiving USAID-funded assistance.
As a result, the mission was unable to determine whether the project was progressing as planned and
was approving payments without verifying accomplishments.

OIG also found that the mission did not maintain all required documentation in the project files
and may have overstated economic growth and employment results. With only 1 year remaining on




                                                      USAID OIG Semiannual Report to the Congress 49
the project, the municipalities have yet to implement their competitiveness plans and, as a result, the
project may not achieve its long-term sustainability goals.

OIG made six recommendations to help USAID/El Salvador improve implementation of its
Municipal Competitiveness Project. USAID made management decisions on all six recommendations
and has taken final action on one.

Audit of USAID/Haiti’s Integrated Financing for Value Chains and Enterprises Program
Report No. 1-521-13-008-P

In 2009, USAID awarded the $37 million Haiti Integrated Financing for Value Chain Enterprises
(HIFIVE) Program to Academy for Educational Development (which later was transferred to
FHI 360). The program was designed to increase the supply of financial services and products to
underserved semiurban and rural populations. OIG concluded that the program has made some
progress toward achieving this goal but still needed improvement.

To begin with, the mission did not implement all internal controls. Up to 23 percent of all grants took
more than 60 days to approve, and one grant took more than 412 days. These delays occurred because
of a lack of specific deadlines in the agreement. In addition, the agreement officer’s representative
(AOR) did not document all program site visits. The AOR said that she attended multiple events
related to HIFIVE’s implementation but did not document any in a site visit report because she was
unaware of any documentation requirement. Moreover, after the mission sponsored an external
evaluation of the program, it failed to share the findings with FHI 360 or document a response to the
report. Again, there was confusion regarding employee responsibilities and who was accountable for
the response.

Furthermore, auditors noted that the program did not comply fully with environmental
requirements. For example, the mission did not provide all necessary environmental awareness
training and did not provide the appropriate forms for screening projects. In addition, the AOR did
not make sure that the initial environmental examination document was kept current or was being
implemented because she did not know she was supposed to do so.

Management decisions have been made on all seven recommendations. However, OIG had also
determined that between 2008 and 2010, the mission had entered into many awards without
competition. This lack of competition raises concerns that the mission was not receiving the best
service at the lowest cost. The mission subsequently made efforts to increase the number of awards
achieved through full and open competition, so OIG did not make a recommendation on this matter




5 0 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
Audit of USAID/Jordan’s Youth for the Future Program
Report No. 6-278-13-010-P

According to Jordan’s 2006-2015 National Agenda, two of the country’s priorities are to reduce
its unemployment rate from 12.5 to 6.8 percent by 2017 and to increase the employability of its
workforce through vocational training that aligns with private sector needs. To help Jordan achieve
these goals, in March 2009, USAID/Jordan awarded the International Youth Foundation (IYF)
a 5-year, $30 million cooperative agreement. In May 2011, the mission increased the contract
to $33.4 million to build the capacity of the Ministry of Social Development (MoSD), IYF’s key
government partner.

The program, Youth for the Future, succeeded at building capacity in some community organizations
and MoSD. At least 20 community organizations improved in the areas of youth outreach and
recruitment, life skills training, career guidance and mentoring, and parent participation. Several
organizations also established youth-friendly services such as health clubs and computer centers.
However, multiple issues still exist.

To begin, the program was not satisfying employment needs. Despite success with a similar
$29 million program in Latin America where IYF trained 19,000 youth—with 51 percent of
them retaining jobs for 6 months—only 19 percent of the 4,081 youths who completed program-
supported training had retained work for 6 months. The program spent about $33.4 million to reach
8,255 at-risk youth, bringing the average cost per youth to about $4,000. In addition, the reported
results for several related indicators were unreliable, limiting the mission's ability to make informed
decisions about the program. Record keeping was poor, and results were often incorrectly classified.

MoSD’s staff also did not have the requisite knowledge of youth development principles and
programming or the institutional capacity needed to deliver the programs to at-risk youth. Further,
the NGOs that were contracted to award and manage subgrants were not equipped to take on the
responsibility. It took the NGOs 3 to 7 months to hire supporting staff needed to implement the
program. As a result, IYF terminated the NGOs and spent additional time and money directly
training the community organizations in strategic planning, financial management, income-
generating services, program marketing, and public relations.

IYF also did not include the required subcontract provisions about human trafficking and terrorism
financing in 19 subcontracts totaling $2.8 million. IYF officials said they did not know the provisions
were required to be included in subcontracts. USAID made management decisions on all five
recommendations.




                                                       USAID OIG Semiannual Report to the Congress 51
Audit of USAID/Lebanon’s Investment in Microfinance Program
Report No. 6-268-13-015-P

Although Lebanon enjoys some of the better economic indicators in the region, many Lebanese
citizens live in poverty and do not have basic financial services. According to the United Nations
International Fund for Agricultural Development, many impoverished Lebanese live in rural
governorates and work as farmers, herders, or fishermen. They have little access to banks or financial
institutions and therefore have trouble getting the funds they need to invest in improving their
businesses. Further complicating matters, the banking sector in Lebanon is very conservative,
requiring high collateral guarantees that poor citizens cannot provide.

In April 2009, USAID/Lebanon partnered with the Volunteers for Economic Growth Alliance
(VEGA) to initiate the Lebanon Investment in Microfinance program. The program’s goal is to
help existing microfinance institutions (MFIs), as well as small and medium-sized businesses, by
expanding access to credit to increase small business sales, create jobs, and advance economic
growth. In addition, the program provides training to MFIs and grants to those serving various
markets and specialties (e.g., small group loans to women, loans that target geographic regions).
Through VEGA, USAID also awarded International Executives Service Corps a $12 million grant to
implement the program.

OIG assessed whether the Lebanon Investment in Microfinance Program was achieving its goal to
increase sales, create jobs, and advance economic growth. OIG found that the program generally
improved access to credit by providing loans to more than 6,300 borrowers. Although 21 of
25 borrowers interviewed reported increased income and appeared to have benefited from the loans,
the sample was not statistically representative and data were not available to confirm their claims.
The program contributed to the creation of some jobs, but OIG found that the program took credit
for creating some jobs that existed before the program started. OIG also noted that USAID did not
obtain sustainability commitments from two of the eight MFIs, nor did it measure training results for
the program.

OIG made six recommendations to improve the program. USAID made management decisions on all
six and has taken final action on five.

Audit of USAID/Lebanon’s Water and Wastewater Sector Support Program
Report No. 6-268-13-014-P

Reconstruction efforts in the years following Lebanon’s civil war have been hindered by intermittent
sectarian violence, and problems with basic infrastructure and government services continue.
Moreover, because of Lebanon’s mountainous topography, pumping stations are needed to deliver
water. However, these systems do not always work because of the country’s unreliable power system.



52	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
To address these issues, USAID/Lebanon awarded a $34.4 million contract to Development
Alternatives Inc. (DAI) to implement the Lebanon Water and Wastewater Sector Support Program.
The goal was to help the four government entities in charge of those sectors—Beirut-Mount Lebanon
Water Establishment, North Lebanon Water Establishment, Beka’a Water Establishment, and South
Lebanon Water Establishment—improve water and wastewater services.

OIG found that the water establishment directors general and employees were pleased with the
assistance provided and were satisfied generally with the training even though not all the employees
were applying the procedures taught. DAI increased the capacity of the water establishments by
training 250 establishment employees on lab equipment, resource planning systems, operations, and
maintenance. DAI also installed 70 to 80 percent of the resource planning software components at
two water establishments. In addition to implementing small- and medium-scale water projects, DAI
began constructing walls and manhole covers to protect meters that measure the flow of water at a
water source. DAI also provided adequate oversight of the quality of the infrastructure projects.

However, OIG determined that the program is achieving its goal to improve water services but
not wastewater in particular. After the program was underway, the mission and DAI realized that
wastewater treatment was not a priority for the Lebanese Government. In addition, OIG identified
problems with the sustainability of equipment and infrastructure projects, contractor expenditures
that exceeded approved budgets by more than $7 million, discrepancies in invoices totaling
$1.3 million, delivered products that did not meet the contract’s requirements, and inaccurately
reported performance results.

OIG made seven recommendations for improvement. USAID made management decisions on five
and took final action on three.

Audit of USAID/Mali’s Economic Growth Activities
Report No. 7-688-13-003-P

In Mali, USAID is working to raise farm productivity, strengthen farm-to-market links, and expand
economic opportunities for vulnerable households. Programs help farmers apply new technologies,
supplies, and practices to improve yield and give them new business skills to increase production,
commercialization, and revenues earned from expanded opportunities. OIG audited three programs
that are part of Feed the Future, the U.S. Government’s global hunger and food security initiative:
Integrated Initiatives for Economic Growth in Mali (IICEM); International Sorghum, Millet, and
Other Grains Collaborative Research Support Program (INTSORMIL); and Mali Agriculture Value
Enhancement Network (MAVEN). USAID/Mali disbursed more than $37 million for economic
growth activities under these projects over 2 years.




                                                     USAID OIG Semiannual Report to the Congress 53
Though observations from the field and interviews with beneficiaries suggest that the program has
had a significant positive impact, OIG found that not all reports of achievements are accurate or
reliable. Moreover, OIG determined that multiple problems existed with monitoring the programs.
The mission did not monitor partner expenses sufficiently, failed to approve key deliverables, and
performed infrequent, irregular site visits. Some members of the mission staff have had to take on
excess responsibilities, and some of the mission staff are assigned too many tasks to oversee the three
projects properly. Furthermore, the staff turnover has been high for all three projects, which has
made it difficult for both the partners and the mission in terms of continuity. Partners also failed to
follow environmental, human trafficking, or branding and marking guidelines.

OIG made 11 recommendations. USAID made management decisions on ten and has taken final
action on one.

Audit of USAID/West Bank and Gaza’s Compete Project
Report No. 6-294-13-012-P

In January 2012, USAID awarded a $35 million contract to Development Alternatives, Inc. (DAI)
with a 2-year, $23 million option period to implement the Enterprise Development for Global
Competitiveness Project, known as the Compete Project. The goal was to improve small and
medium-sized Palestinian firms’ access to global markets by strengthening their ability to compete
and their export potential in four sectors essential to the future prosperity of the Palestinian
economy: agriculture and agribusiness, stone and marble, tourism, and information technology.

DAI was successful in its first year of the project and has had many accomplishments. For instance,
DAI installed four solar-powered water treatment systems to resolve water salinity problems
that affected farms in the Jordan Valley. Less saline water is better for irrigation, which increases
productivity, quality, and overall competitiveness of Palestinian produce. DAI also helped small
and medium-sized stone and marble firms band together to create marketing consortiums. One
beneficiary said that participating in just one trade show in Italy, with project support, resulted in
$3 million in contracts. Further, staff members recruited leading Palestinian high-tech enterprises
and major international information, communication, and technology firms to invest in innovation
projects.

Despite these successes, several issues remained. Activities were delayed partly because funding was
withheld by Congress in 2011 and 2012 from the Palestinian Authority. In addition, a lengthy vetting
process by the mission caused delays of up to 30 days or more after each request. Mission officials
said that even though it was not possible to quantify the financial impact of the delays, they caused
activities to lose momentum. For example, DAI lost most of Compete’s original staff during the
first year because of funding problems and experienced increased administrative and support costs
associated with starting, stopping, and restarting activities.



5 4	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
Despite a contractual obligation to perform environmental screenings for each proposed activity
as well as await approval from the mission, DAI began three activities without authorization. In
addition, the mission failed to include a gender strategy requirement in its statement of work, so DAI
did not prepare one.

USAID has made management decisions on all five OIG recommendations and has taken final action
on three.

Virginia-Based Construction Firm Settles OIG/Department of Justice Investigation of Activities in
Egypt for $3.5 Million

In early 2002, OIG opened an investigation involving two U.S.-based contractors and one Egyptian
contractor that won five construction contracts in Egypt that had been designated for U.S. firms
only. The two U.S. contractors entered into a joint venture agreement to compete for these contracts.
During the bidding process, they submitted a copy of their joint venture agreement showing only
two partners. However, OIG learned that the two U.S. contractors also had a third, Egyptian, partner
in their joint venture agreement, which they failed to disclose to USAID. An identical, undisclosed,
joint venture agreement obtained by OIG included the Egyptian partner. After denying involvement
in these alleged violations of USAID’s source, origin, and nationality regulations during the course
of 11 years of litigation, one of the original contractors settled its case by agreeing to pay the U.S.
Government $3.5 million. Litigation involving the two remaining partners continues.




                                                      USAID OIG Semiannual Report to the Congress 55
5 6 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
EDUCATION




USAID’s education programs work to improve
early grade reading, expend access to education             SIGNIFICANT FINDINGS AND ACTIVITIES
and workforce development, educate children
                                                            • USAID/Ghana’s education program is not on
and youth in crisis and conflict, and provide
                                                            track to improve student achievement in basic
training to address skill and knowledge gaps                schools. OIG finds that delays in signing of a
among mid- and high-level managers and                      memorandum of understanding between the
professionals in other countries.                           implementer and its subpartner set activities
                                                            back by more than a year, thus affecting the
OIG’s audits of USAID education programs                    program’s first- and second-year results.
during this reporting period noted problems
with contract or project management,                        Moreover, the implementer did not train any
                                                            of the 3,680 head teachers as scheduled in
questioned costs, and a lack of host country
                                                            fiscal year 2011. It also started implementing
support in one instance. OIG also noted project             activities without a proper work plan or input
sustainability concerns.                                    from the districts where these activities were
                                                            taking place.
Audit of USAID/Ghana’s Partnership for
Accountable Governance in Education Project                 • OIG notes delays, cost overruns, and a lack
Report No. 7-641-13-004-P                                   of a sustainability plan in USAID/Lebanon’s
                                                            Developing Rehabilitation Assistance to
                                                            Schools and Teacher Improvement Program.
Roughly half of all Ghanaian students fail                  In addition, since the program began, the
their basic education completion exam, and                  agreement officer’s representative reported
the quality of education in the West African                problems to the agreement officer such
nation is poor. In Ghana, Basic Education School            as slow implementation, no chief of party,
is made up of 11 years of school education,                 poor-quality deliverables, and poor program
through the junior high school level. This                  organizational structure, but the mission did
                                                            not take corrective action.
education tries to provide the essential building
blocks students need to continue to higher levels
of education and the foundation upon which
work-related skills are developed.

To help the Ghanaian Government improve the educational system, USAID entered into an
$8 million agreement with Cooperative for Assistance and Relief Everywhere (CARE) in June 2010 to
implement the Partnership for Accountable Governance in Education project. The project’s objective



	                                                 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   57
is to help more students succeed through strengthened school governance and supervision activities
in targeted districts, working with various stakeholders. The project is being implemented in 46 of
Ghana’s 216 districts.

The objective of the audit was to determine whether USAID/Ghana’s education program is on track
to improve student achievement in basic schools through strengthened educational governance and
supervision. OIG determined that it was not.

For example, the delayed signing of a memorandum of understanding (MOU) between CARE and
its subpartner, the Ghana Education Service, set activities back by more than a year, thus affecting
the program’s first- and second-year results. Moreover, CARE did not train any of the 3,680 head
teachers as scheduled in fiscal year 2011. It also started implementing activities without a proper work
plan or input from the districts where these activities were taking place. Auditors found that head
teachers at schools OIG visited were not using all of the supervision and monitoring techniques they
had learned during training, and the auditors noted a lack of outcome-based performance indicators
in the project’s performance management plan. OIG also found that CARE incorrectly attributed and
computed its cost-share contributions and, as a result, did not provide the correct amount of funds
and in-kind contributions to the program.

OIG made eight recommendations to help USAID strengthen its education project in Ghana, and
USAID has reached management decisions on all of them.

Audit of USAID/Lebanon’s Developing Rehabilitation Assistance to Schools and Teacher
Improvement Program
Report No. 6-268-13-011-P

In Lebanon, 40 percent of students attend public schools held in dilapidated school buildings and
classrooms that lack modern equipment and with teachers poorly trained in effective teaching
methods. To help Lebanon’s Ministry of Education and Higher Education (MEHE) address these
problems, in September 2010, USAID/Lebanon awarded a $75 million cooperative agreement to
Education Development Center Inc. (EDC) to implement the Developing Rehabilitation Assistance to
Schools and Teacher Improvement program. However, on the basis of program accomplishments so
far, the mission will not achieve its goal under its current arrangement with EDC.

More than 2 years into the program, EDC was rehabilitating 154 schools and had completed work on
29. Together, they represented only 13.1 percent of the 1,400 planned and at the current spending rate,
the program will be more than 1,000 schools short of its target. In addition, to reach the expected
third-year target results, EDC spent $2.4 million, or 44 percent of the training budget, to train only
166 of the planned 5,100 teachers. Further, EDC's assessment of eligible schools was more than a year




5 8	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
late and covered fewer schools than expected. This assessment cost nearly $1.5 million, more than
$352,000 over the amount budgeted.

Although the mission used a cooperative agreement that limited its involvement in managing
the program, the former mission director signed an MOU with Lebanon’s Ministry of Education
and Higher Education (MEHE) agreeing to jointly manage the program. However, this type
of arrangement runs contrary to a cooperative agreement, which limits the mission’s level of
involvement. As a result, EDC was not able to implement some activities without prior MEHE review
and approval, which caused significant delays.

Moreover, the program did not help develop a sustainability plan for the rehabilitated schools,
train teachers and school staff how to use new science equipment, or update its monitoring
database. Although mission officials were aware of poor program performance, they did not adjust
implementation to provide a timely remedy. Since the program began, the agreement officer’s
representative reported problems to the agreement officer such as slow implementation, no chief of
party, poor-quality deliverables, and poor program organizational structure, but the mission did not
take corrective action.

USAID took final action on all six recommendations.




                                                      USAID OIG Semiannual Report to the Congress 59
6 0	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
ENVIRONMENT AND GLOBAL CLIMATE
CHANGE



USAID’s environmental and global climate
change programs work to address issues related                 SIGNIFICANT FINDINGS AND ACTIVITIES
to climate change (such as promoting climate-
smart planning and clean technologies),                        • OIG finds that the Indonesia Forest and
                                                               Climate Support Project has made gains
conserving biodiversity and forests, securing
                                                               in working with communities to improve
land tenure and resource rights, promoting
                                                               agricultural practices and reduce pressure on
sustainable land management and sustainable                    nearby forests by increasing income from other
tourism, and ensuring environmental                            sources. Hundreds of households in various
compliance in the implementation of USAID                      districts are now improving the quality and
projects.                                                      quantity of produce. Other households that
                                                               participated earlier on said that their yields
                                                               have increased as much as 50 percent. Because
OIG’s reports during this period noted some
                                                               of the project’s support, some farmers said
successes, but also problems with contract or
                                                               they have stopped expanding into the forests.
project management, as well as contracting                     However, OIG notes several weaknesses in the
procedures not being followed. Data quality                    project, such as inappropriate and unrealistic
problems were also noted.                                      contractual requirements; a weak performance
                                                               monitoring plan and data; incomplete
Audit of USAID/Indonesia’s Indonesia Forest                    contractor performance reviews; lack of
                                                               support for multistakeholder forums, which
and Climate Support Project
                                                               help encourage transparency and accountability
Report No. 5-497-13-007-P
                                                               in managing forest resources; and turnover and
                                                               insufficient salaries that hindered the project’s
The Indonesia Forest and Climate Support                       implementation.
Project is working to reduce the threats of
deforestation and climate change and help the                  • OIG notes success in some areas of USAID/
Indonesian Government conserve the country’s                   Mexico’s Global Climate Change Program,
                                                               such as helping the Mexican Government
tropical forests, wildlife, and ecosystems. The
                                                               develop a basis document for a low-emissions
project is focusing its efforts in eight landscapes
                                                               development strategy and supporting efforts
that span 13 focal districts in four provinces                 to implement it. OIG notes concerns, however,
throughout the country.                                        with delays in program implementation,
                                                               noncompliance with contracting requirements
To implement the project, USAID awarded                        to help prevent human trafficking, and the need
a 4-year, $40 million task order to ARD Inc.                   for better financial controls.
(now Tetra Tech Inc.). The project is expected
to reduce the rate of forest degradation and


	                                                     U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   61
loss, improve tropical forest management, reduce greenhouse gas emissions within targeted areas
by 50 percent, provide training in spatial planning and sustainable economic development for local
technical government staff, increase financial resources for forest management by at least 20 percent,
and pilot low carbon growth development strategies in local districts.

The project works to address these goals through four components: focusing on land and forest
resource governance; improving management and conservation of forest resources in a changing
climate; developing private sector, local enterprise, and market linkages; and ensuring project
coordination and management.

OIG found that the project has made gains in working with communities to improve agricultural
practices and reduce pressure on nearby forests by increasing income from other sources. Hundreds
of households in various districts are now improving the quality and quantity of produce. Although
most participants are still involved in the activities and therefore believe that it is too early to judge
the project’s success, they said things look promising so far. Other households that participated
earlier on said that their yields have increased as much as 50 percent. Because of the project’s support,
some farmers said they have stopped expanding into the forests.

Despite these gains, the project has not shown sufficient progress toward meeting its objectives.
OIG noted several weaknesses, such as inappropriate and unrealistic contractual requirements; a
weak performance monitoring plan and data; incomplete contractor performance reviews; lack of
support for multistakeholder forums, which help encourage transparency and accountability in
managing forest resources; and staff turnover and insufficient salaries that hindered the project’s
implementation.

OIG made six recommendations to improve the project’s efficiency and effectiveness. USAID has
made management decisions on each of them and taken final action on one.

Audit of USAID/Mexico’s Global Climate Change Program
Report No. 1-523-13-006-P

In 2009, the United States and Mexico entered into an agreement through which the two countries
outlined their common commitment to a low carbon future and clean energy economies. The
mission’s Global Climate Change Program, which emanated from this agreement, includes activities
to help Mexico reduce emissions from deforestation and forest degradation, implement a low-
emissions strategy, and establish a strong national monitoring, reporting, and verification system for
greenhouse gases.




62	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
Program activities that OIG audited succeeded in some areas. For example, the Mexican Low
Emissions Development Program helped the Mexican Government develop a basis document for a
low-emissions development strategy and was supporting efforts to implement it. Mexico's Reduced
Emissions from Deforestation and Degradation (M-REDD) Program provided technical and strategic
support for Mexico’s General Law of Ecological Balance and Environmental Protection, the General
Sustainable Forestry Law, and the development of REDD strategies at the national and state levels.

OIG noted several concerns, however, with delays in program implementation, resulting from a
lack of start-up plans, problems with hiring personnel, misunderstandings among subpartners,
and changes within the Mexican Government. One program did not comply with contracting
requirements to help prevent human trafficking as the program’s staff was not aware of them. Further,
OIG identified the need for better financial controls and tracking of earmarked funds, as well as the
need for complete program security plans.

OIG made 13 recommendations for improvement, and USAID has made management decisions on
all of them. Final action was taken on seven.

Audit of USAID’s Regional Program for the Management of Aquatic Resources and Economic
Alternatives in Central America
Report No. 1-596-13-009-P

According to USAID, reforming governance and management of coastal and marine resources in
Central America is critical to stable and long-term economic development. To help achieve these
reforms, the Agency wants to reduce threats posed by unsustainable fishing practices and coastal
development in the region. In March 2010, USAID initiated a nearly $12 million contract with
Chemonics International, Inc., to implement the Management of Aquatic Resources and Economic
Alternatives Program in Central America.

OIG examined whether the program was reducing threats posed by unsustainable fishing practices
and coastal development. The program did not make much progress to address its first objective—
to promote effective monitoring and enforcement of coastal and marine resources policies and
legislation. Moreover, neither the mission nor the contractor adequately tested the quality of the
data used for monitoring the progress reported toward the program’s latter objective—to foster
rights-based and market-based mechanisms and management initiatives for the conservation and
sustainable use of coastal and marine resources and ecosystems. Further, the mission did not design
indicators to measure several of the program’s expected results.

Contract compliance was weak in some areas. Mission staff did not monitor the program’s cash
flow, submit program reports to USAID’s Development Experience Clearinghouse, nor confirm that
Chemonics conducted gender-impact case studies.



                                                     USAID OIG Semiannual Report to the Congress 63
OIG did note some progress. For example, the program trained more than 4,700 fishermen on best
practices, as well as 2,000 people from fisheries and governmental and nongovernmental institutions
on improved enforcement practices and institutional capacity strengthening. It also leveraged
$5.3 million in non-U.S. Government resources for conservation efforts.

OIG made eight recommendations to help USAID/El Salvador improve implementation of its
Regional Program for the Management of Aquatic Resources and Economic Alternatives in Central
America, and final action has been taken on all of them.

Three Suspects Charged with Defrauding Joint USAID and U.S. Forest Service Program

OIG received information that three individuals had devised a fraud scheme to steal $700,000 from
a joint USAID and U.S. Forest Service program in Sierra Leone. From a joint OIG investigation
and a report from a cooperating audit firm, OIG confirmed that the suspects conspired to falsify
cash withdrawal authorizations. Further, the OIG investigation revealed multiple internal control
deficiencies, including the failure to perform bank reconciliations. A forensic analysis of the
forged documents was conducted by the Department of Homeland Security with the support and
coordination of the Diplomatic Security Service Regional Security Office in Sierra Leone. The matter
was referred to local prosecutors and the 3 suspects have been charged with 59 counts of fraud.




6 4	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
GLOBAL HEALTH



USAID’s global health programs work to combat
and prevent HIV/AIDS, tuberculosis, malaria,             SIGNIFICANT FINDINGS AND ACTIVITIES
neglected tropical diseases, pandemic influenza,
                                                         • OIG notes progress in USAID/Bolivia’s
and other emerging threats. They also focus
                                                         Health Program despite initial delays,
on health delivery systems, maternal and child           but cites problems with monitoring and
health, and nutrition in vulnerable populations.         evaluation, accounting systems, and a lack of a
Cross-cutting audit findings of USAID health             sustainability plan.
programs during this reporting period included
inadequate internal controls, contracting                • USAID/East Africa’s Maternal and Child
                                                         Health Program in Burundi is generally
procedures not being followed, and concerns
                                                         achieving its goals, but several instances are
about program sustainability.
                                                         cited in which the program is not using the
                                                         equipment or facilities provided.
Audit of USAID/Bolivia’s Health Program
Report No. 1-511-13-003-P                                • Haiti’s Ministry of Public Health and
                                                         Population has adopted methods and practices
USAID/Bolivia implemented a significant part             to improve its leadership and management
                                                         capacity, OIG finds, however, that the
of its health strategy through two awards to
                                                         implementer will be unable to complete all
PROSALUD, a Bolivian NGO. PROSALUD’s
                                                         of the work envisioned in the cooperative
$14.2 million Healthy Communities Project                agreement despite having spent a significant
(HCP), which began in December 2011, sought              portion of the agreement’s funds.
to increase access to quality health care; improve
the clinical knowledge, cultural awareness,          • USAID has made progress to address
and interpersonal communication skills of            sustainability issues with its Primary Health
                                                     Care Project in Iraq, but OIG notes problems
health-care providers; and support sexual
                                                     with contract administration and other
and reproductive rights by promoting healthy
                                                     implementation issues.
practices. PROSALUD’s Social Marketing
Activity (known as Promeso) is a $5 million
project with a goal to expand access to
contraceptives, increase the number of people
who use contraceptives, reduce maternal and child mortality, and maintain Bolivia’s low prevalence
of HIV/AIDS.

OIG found that PROSALUD implemented the HCP and Promeso projects late because the
implementer focused on closing out previously-funded USAID projects and had difficulty finding


	                                              U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   65
staff. After these initial delays, PROSALUD was able to make considerable progress, especially during
the second half of 2012. However, several areas still needed improvement. For instance, PROSALUD’s
monitoring and evaluation plan for Promeso was incomplete and not fully implemented. PROSALUD
did not define indicators, track targets and results, or verify data quality. It also did not develop a
management and sustainability plan for Promeso.

PROSALUD’s accounting system showed that several distributors and clinics had not paid for their
contraceptives according to the terms of their credit lines. Five with balances that totaled $49,539
were between 300 and 1,600 days overdue. Many of the outstanding debts were carried over from
an earlier USAID-funded contraceptive distribution project. Promeso officials said the accounting
system was already problematic when the project started, and they were concerned that existing
records in it were not accurate.

In addition, although more than 40 training courses had been conducted, only one had its
information entered into the Agency database, TraiNet. This problem occurred because USAID/
Bolivia did not train PROSALUD employees to use TraiNet or give them access to the system.
Further, the mission did not designate anyone from its staff to monitor TraiNet for completeness
and accuracy. Staff reductions and the fact that many mission employees did not know much about
TraiNet contributed to these problems. Although the officials became more aware of the need to enter
data into TraiNet, the information entered to date was still incomplete.

Furthermore, the mission and its implementing partners stopped submitting documents into
USAID’s Development Experience Clearinghouse in recent years because mission staff was
focused on other priorities. As a result, the mission’s progress reports, annual reports, evaluations,
assessments, and research studies for its projects are not in the Agency’s archives.

OIG made ten recommendations. USAID made management decisions on all ten and took final
action on seven.

Audit of USAID/East Africa’s Maternal and Child Health Program in Burundi
Report No. 4-695-13-009-P

In October 2007, USAID/East Africa started the $11.1 million Maternal and Child Health Program
through a cooperative agreement with Pathfinder International. The program’s goals are to increase
the quality of maternal and child health services, prevent and treat childhood illnesses, and
improve maternal and childhood nutrition. The keys to achieving these goals include high-impact
interventions—such as increasing the use of skilled birth attendants during childbirth, providing
immunizations, and distributing vitamin A supplements—that address the major causes of maternal
and child mortality.




6 6	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
OIG found that the program generally was achieving its goals. For instance, children’s nutrition has
improved, as has the percentage of births attended by a skilled birth professional. However, OIG did
note several areas in need of improvement.

The program purchased 14 incubators, costing a total of about $40,000, and distributed them to
seven hospitals in November 2010. However, when the auditors visited in June 2012, two hospitals,
Muyinga and Gashoho, were not using the incubators consistently or at all. Muyinga received four,
and Gashoho Hospital received two. Gashoho Hospital officials said they could not use the incubators
because the health-care providers had not been trained to use them properly. In October 2012, a
Pathfinder official told OIG that training was still not completed because Gashoho did not have
electricity. Negotiations were underway to connect Gashoho to the national power grid.

In addition, when auditors visited
Muyinga Hospital in June 2012,
the newly renovated maternity and
pediatric wards were not being
used. These wards, costing USAID
approximately $35,000, did not
have the beds and mattresses that
were promised by the program.
These problems were not identified
because USAID did not conduct
sufficient, timely site visits to monitor
program activities, and Pathfinder
did not conduct enough supervisory
visits to confirm that the hospitals      This ward in Muyinga Hospital was not being used because a USAID
implemented or incorporated learned funded program did not deliver beds and mattresses on time (photo
                                          by RIG/Pretoria).
practices.

USAID made management decisions on both recommendations.

Audit of USAID/Haiti’s Leadership, Management and Sustainability Project
Report No. 1-521-13-007-P

For years, Haiti’s health-care commodities logistics system worked poorly, and commodities supplied
by the U.S. Government were at risk for loss or mismanagement. In 2007, USAID began controlling
the distribution of commodities from point-of-entry to point-of-use, while providing technical
assistance to improve the Haitian Government’s commodity system. In January 2008, USAID/
Haiti initiated the Leadership, Management and Sustainability program to repair Haiti’s health-care




                                                        USAID OIG Semiannual Report to the Congress 67
commodity management and distribution system and address the shortage of leadership and
management capacity within Haiti’s Ministry of Public Health and Population. This program was
implemented by Management Sciences for Health (MSH).

When the initial program ended, in March 2010 USAID/Haiti issued a new 5-year, $12 million
cooperative agreement to MSH for the Leadership Management and Sustainability Project,
emphasizing the management of reproductive health commodities. The project’s goals are to establish
strong program and management systems and to train and empower Haitian health managers to be
effective leaders with the managerial skills to maintain those systems.

OIG found that Haiti’s Ministry of Public Health and Population has adopted improved methods and
practices; for example, it conducts an annual quantification exercise to forecast inventory stock levels
and the resources needed to distribute family planning commodities. In 2012, the project distributed
USAID commodities to 311 service delivery sites supported by U.S. Government partners, and visited
sites to monitor inventory management and provide on-site training. This effort reduced instances
of the facilities running out of commodities and helped make sure they were stored properly. The
project also trained staff to deliver quality family planning services.

OIG noted certain challenges, including the implementer’s inability to complete all of the work
envisioned in the cooperative agreement. During the project’s first 3 years, USAID cut back or
eliminated planned support for two project areas. However, even with these reductions, MSH had
already spent a significant portion of the agreement’s funds. In addition, MSH had not developed
the required sustainability plan, citing delays following the 2010 earthquake, the cholera epidemic,
and changes in the organization’s leadership. Moreover, USAID did not ensure that the implementer
complied with family planning regulations.

OIG made three recommendations to help USAID make the project more efficient and effective.
USAID has made management decisions on all of them.

Audit of USAID/Iraq’s Primary Health Care Project in Iraq
Report No. 6-267-13-013-P

To support Iraq’s efforts to improve the quality of its health care, in March 2011, USAID/Iraq
awarded University Research Company LLC (URC) a $74.9 million contract to implement the
Primary Health Care Project in Iraq. The objective of the project was to help the Ministry of Health
(MOH) strengthen its primary health-care delivery system so the Iraqi Government can provide
quality primary health care to its citizens.

URC has made progress on the project and has taken steps to address the sustainability of its
activities. The project, in coordination with the MOH, established a national technical advisory group



6 8	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
and brought together multiple ministries and donors to share information on activities that affect the
delivery of primary health care. URC also developed materials to help centers improve the quality of
care and create community partnerships.

However, remaining issues need to be addressed. USAID/Iraq’s oversight of URC contract
administration was weak. The mission failed to identify multiple instances in which URC either did
not comply with contract requirements or did not pay attention to them. In addition, the project had
not finalized performance management or annual work plans. The COR in place through February
2013—who had been a COR for more than 9 years—confirmed that he did not put documentation in
the project files showing that deliverables and reports had received final approval. He acknowledged
that maintaining this documentation would have been helpful to future CORs. In addition,
documents in the project’s electronic files were kept in multiple and redundant folders with no way to
differentiate drafts from finals.

Staff members at some primary health-care centers either did not understand the purpose of
equipment assessments or were unaware that the assessment had been conducted; other centers did
not receive copies of the assessments when they were done. Moreover, although the Iraqi Government
agreed to provide additional funds to the project to provide equipment to the centers, the mission had
not formalized the process for tracking the delivery and use of this equipment.

OIG made nine recommendations to assist the mission in improving its management and oversight.
USAID made management decisions on all nine recommendations and took final action on six.

Audit of USAID/Liberia’s Malaria Interventions
Report No. 7-669-13-002-P

Liberia’s 2011 Malaria Indicator Survey confirmed that malaria continues to be a major health
problem in the country. USAID/Liberia and other stakeholders like the Global Fund work with the
Ministry of Health and Social Welfare’s National Malaria Control Program (NMCP) to implement
the President’s Malaria Initiative (PMI). Since 2005, PMI-related activities have reduced prevalence
among children from 66 percent to 28 percent in 2011. Two implementers, Abt Associates and MSH,
are contributing to this goal with spraying and pharmaceutical projects for a combined total of
$8.5 million.

Abt’s program is on track to meet its goal with over 96,000 structures sprayed. However, MSH’s
program is not because of delays and recommendations that have not been implemented. For
example, some of the training participants said MSH employees told them that rapid diagnostic tests
and artemisinin-based combination therapy (ACT) would be made available to their pharmacies
shortly after the third training session in September 2012. However, as of the end of this audit, they
had still not arrived. This delay negatively affected the competitiveness and profitability of some



                                                      USAID OIG Semiannual Report to the Congress 69
pharmacies associated with this program. In addition, since the pharmacies had not heard from
MSH, they did not know how to proceed with treating malaria patients. Some had discarded their
stocks of chloroquine in anticipation of receiving ACTs from MSH and now turn patients away
because they do not have anything to offer them.

This problem can be attributed to inadequate leadership at MSH to ensure adequate implementation
and monitoring of the program. The chief of party for the program was placed on a performance
improvement plan because of unsatisfactory performance, and he ultimately resigned in August 2012.
The position has not been filled and, at the time of the audit, the program’s staff consisted of two
program associates and a financial officer. Although the auditors were informed that MSH officials
based in the United States provided technical support to the team in Liberia and occasionally visited
the program, this support has clearly been inadequate to ensure successful implementation of the
program.

Another issue concerned branding. Only one of the eight pharmacy technicians interviewed who
took part in training on using ACTs knew that the American people sponsored the program.
In addition, only 1 of the 14 households interviewed about the spraying program knew that it
was sponsored by the American people. NMCP uses the Global Fund to distribute PMI-funded
commodities to various warehouses in the country and, as a result, they are branded with Global
Fund logos, not USAID’s.

Mission officials have said they do not intend to continue funding this activity beyond FY 2013
because of MSH’s nonperformance, consistent with OIG’s suggestion that it be terminated. USAID
made management decisions on all four recommendations.

Procurement Irregularities Discovered

In June 2013, OIG received allegations of fraud involving a USAID-funded maternal and child health
program in Southeast Asia. The allegations involved procurement irregularities and false claims
regarding the purchase of equipment in support of the program. An OIG investigation was opened
and upon consultation with the mission, a financial review was initiated. The review uncovered
mismanagement of USAID funds by the implementer. As a result of the review, the mission denied
a 6-month cost extension requested by the implementer in August 2013. The OIG investigation is
ongoing, in conjunction with the financial review.

Bills for Collection Issued to Guyana NGO

In May 2013, USAID/Dominican Republic issued two bills for collection totaling more than $150,000
to a Guyana NGO, which implemented a USAID HIV/AIDS project. An OIG investigation identified
unlawful profits gained by the NGO since 2007 from an unreported higher currency exchange rate.



70 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
The investigation confirmed that the executive director paid for a university degree with funds gained
from the incorrect exchange rate. He also used these funds to provide himself and his staff with
courses, awards, and holiday parties.

Pharmaceutical Company Settles Drug Investigation for $500 Million

In 2006, OIG joined the Food and Drug Administration (FDA) Office of Criminal Investigation
(OCI) in an investigation of an Asia-based pharmaceutical company that allegedly provided unstable
drugs to African countries. (Funds from the President’s Emergency Plan for AIDS Relief (PEPFAR)
were purportedly used to purchase the drugs.) OIG played a prominent role in a task force that
included the FDA’s OCI and Office of Compliance as well as the Department of Justice Criminal
Division (Maryland), Civil Division (Maryland), and Main Justice’s Office of Consumer Litigation.
The task force members conducted multiple interviews and record reviews, served subpoenas, and
requested and obtained a court ordered motion to compel the target company to turn over U.S.
and international audit reports. In February 2007, the task force executed search warrants on the
company’s facilities, including at its U.S. headquarters in New Jersey.

Evidence obtained through the task force led to the following actions: two referrals to USAID for
suspension and debarment, the issuance of a U.S. import alert (drugs and their active pharmaceutical
ingredients were detained at U.S. borders) for more than 30 generic drugs produced by the company,
issuance of two warning letters (citing the company for deviating from current good manufacturing
practices) to two company pharmaceutical plants, the filing of a consent decree for permanent
injunction (a court order prohibiting the company from selling drugs in the U.S. that were made at
several overseas manufacturing plants until the quality could be verified), and the enforcement of
FDA’s Application Integrity Policy (notification that FDA is deferring substantive scientific review of
one or more of the firm’s applications or is proceeding to withdraw the approved applications).

On May 13, 2013, a settlement was reached between the company’s U.S. subsidiary and the
Department of Justice. On that date, the entity pleaded guilty to felony charges on the manufacture
and distribution of adulterated drugs. The company agreed to pay $150 million in criminal fines
and forfeitures and to settle civil claims for $350 million. The settlement is the largest drug safety
settlement with a generic drug manufacturer to date.




                                                       USAID OIG Semiannual Report to the Congress 71
7 2	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
MANAGEMENT CAPABILITIES




During this reporting period, OIG conducted
three audits of USAID management practices.                SIGNIFICANT FINDINGS AND ACTIVITIES

                                                           • OIG’s Audit of USAID/Afghanistan’s Use of
Audit of USAID/Afghanistan’s Use of Third-
                                                           Third-Country National Employees finds that
Country National Employees                                 the mission did not manage its use of these
Report No. F-306-13-002-P                                  employees in accordance with regulations
                                                           and policies related to recruitment, position
U.S. Government strategy in Afghanistan—as                 classification, and justification of sole-sourcing
in other missions—prioritizes the employment               of contracts.
of nationals from the cooperating country
                                                     • OIG’s Review of USAID/Pakistan’s
over the use of third-country nationals (TCNs)
                                                     International Training Practices finds that
for multiple reasons: integrating the foreign        USAID is not following procedures for
assistance effort in the country, building           documenting training in individual regions
local capacity, and contributing to the local        and that, in most cases, employees attended
economy. In 2003, USAID needed to staff              training worldwide for courses that were
its new Afghanistan mission as quickly as            neither core nor mandatory.
possible with qualified personnel. Faced with a
hiring shortage, USAID implemented policies
to encourage experienced TCNs from other
missions to work in Afghanistan and authorized pay and benefits on par with those of offshore U.S.
personal service contractors.

In addition, like other mission employees, TCNs were allowed to work overtime, receive separate
maintenance allowances, and return home for rest and recuperation with government-funded travel.
From 2004 to 2012, USAID/Afghanistan employed 59 TCNs long-term (for more than 6 months)
and expended $20 million in direct compensation for them. Also, from 2004 to 2012, the mission
brought in 96 TCNs hired for temporary-duty assignments (6 months or less). The mission expended
$4.5 million over 10 years for direct compensation of temporary-duty TCNs.

OIG determined that, although the overall use of TCNs was rare, some TCNs occupied positions
for years. Moreover, the mission did not manage its use of TCN personal services contractors in
accordance with applicable regulations and policies in three areas: justification of TCN recruitment,
classification of positions held by TCNs, and justification of sole-sourcing TCN contracts.



	                                                U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   73
For this audit, OIG selected a sample of 10 TCNs hired for long-term positions under 17 contracts.
In all cases, the mission could not provide documentation on why a TCN was hired over a local or
a U.S. candidate. In addition, 13 of the 17 lacked proper classifications; the files were either missing
or did not contain the correct information. These omissions occurred in part because the mission’s
procedures for managing records were antiquated. The records were kept in hard copy with no
electronic backup, and checklists and other procedures were not consistently followed.

Moreover, the mission’s oversight of the classification and recruitment process was inadequate.
Because positions lacked proper classifications, there was no assurance that positions were properly
valuated, and employees were improperly promoted. Further, it appears that managers in two mission
offices used classification to boost compensation and recruitment.

OIG made six recommendations. USAID made management decisions on all six and took final action
on one.

Audit of the Cost and Security Policies and Procedures for USAID’s Mobile Devices
Report No. A-000-13-005-P

The National Institute of Standards and Technology (NIST) defines mobile devices as portable
computing and communications devices with information storage capability. Small and relatively
inexpensive, these devices can be used for many functions, including sending and receiving
electronic mail, storing documents, delivering presentations, and remotely accessing data.

USAID’s Office of the Chief Information Officer is responsible for administering the Agency’s mobile
devices, which includes establishing policies and procedures for the issuance, use, administration,
and security of the devices. As of September 2012, the Chief Information Officer’s inventory included
1,456 BlackBerry mobile devices, 53 iPads, 167 iPhones, and 36 MiFi devices, which provide mobile
hot spots for users to access the Internet.

NIST reported that, although handheld devices can enhance productivity, they also pose new risks
to an organization’s security. For example, because of their small size and use outside the office, the
devices can be misplaced or stolen, which might allow an unauthorized individual to gain access to
the information stored or accessed remotely. In addition, malware, which can initiate a wide range of
attacks and spread to other devices, could be downloaded to the devices.

OIG conducted this audit to determine whether USAID incurred reasonable costs for its mobile
devices and and whether it had developed policies and procedures for securing its mobile devices
based on an acceptable level of risk to the Agency.




74	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
USAID did not incur reasonable costs because it did not review and determine whether to accept
costs associated with excessive charges. From September through November 2012, an average of
127 users incurred excessive charges totaling more than $118,000. OIG judgmentally selected 12 users
who incurred excessive charges of $48,000 beyond their base rate plans and found that USAID could
not provide evidence that anyone on staff reviewed and accepted their charges. In addition, USAID
did not formalize the review of unused devices. From September through November 2012, USAID
incurred more than $64,000 in expenses for more than 300 mobile devices that were not used for at
least 1 month during that period, representing 11 percent of the total monthly invoices. Further, the
Agency incurred more than $48,000 for 267 devices that were not used during the entire 3-month
period. Although OIG found that USAID had developed numerous policies and procedures for
securing its mobile devices, it was determined they could be improved.

OIG found other items of concern. The Agency did not have a complete mobile device inventory. The
Chief Information Officer did not implement formal written procedures on how the inventory should
be maintained. Moreover, the Agency did not manage mobile device user agreements properly. A
third of the forms were either incomplete or missing, or were approved by the person who had the
device. Lastly, bureaus and offices did not fully reimburse the Chief Information Officer for mobile
devices. As of March 2013, they owed more than $62,000.

OIG made 26 recommendations to help USAID strengthen controls over the cost and security
policies and procedures for its mobile devices and to address other matters of concern. USAID made
management decisions on all 26 recommendations and took final action on 1 of them.

Audit of USAID’s Defense Base Act Insurance Program
Report No. 9-000-13-005-P

The Defense Base Act (DBA) requires federal contractors and subcontractors working outside
the continental United States to provide the equivalent of workers’ compensation insurance to
their employees, and the U.S. Government reimburses DBA insurance carriers for claims paid in
connection with injuries or deaths from war hazards.

According to the Federal Acquisition Regulation, contracting officers must include DBA insurance
in each contract approved or financed under the Foreign Assistance Act of 1961 unless the Secretary
of Labor approves a waiver of coverage. USAID uses a single DBA insurance carrier, Allied World
National Assurance Company, which processes claims through Broadspire Services. USAID policy
requires contracting officers to insert clauses into Agency–approved or –financed contracts that allow
contractors to pass on expenses for DBA insurance to USAID. Although the requirement to purchase
DBA insurance does not apply to cooperative agreement and grant recipients, they are required to
obtain DBA coverage if they award subcontracts to organizations that hire employees under their
assistance instruments.



                                                     USAID OIG Semiannual Report to the Congress 75
OIG found that, except for the costs of the DBA insurance and a lack of controls over refunds—
which occur because premiums are based on estimates—USAID has appropriate internal controls
to administer its DBA insurance program in compliance with federal laws and regulations. In the
sample tested, contracting officers complied with Agency guidance when issuing contracts. In
evaluating Broadspire’s internal controls for processing Allied’s claims, auditors concluded that
controls were suitably designed to provide reasonable assurance that payments processed on claim
files were properly authorized and related to claims. In addition, Labor officials responsible for the
DBA insurance program said that USAID contract or subcontract employees have not lodged any
complaints about not receiving benefits to which they were entitled under DBA.

Nevertheless, OIG found several opportunities to strengthen certain aspects of USAID’s DBA
insurance management, including evaluating cost-effective alternatives to the present system for
complying with DBA insurance requirements. OIG also recommended that USAID determine
the allowability of nearly $6.6 million in ineligible questioned costs arising from DBA insurance
premium refunds. USAID made management decisions on all five OIG recommendations; however,
OIG disagreed with one management decision.

Review of USAID/Pakistan's International Training Practices
Report No. G-391-13-001-S

USAID/Pakistan currently has about 255 employees. Each year, the employees, in consultation with
their supervisors, maintain up-to-date individual development plans identifying areas in which
they would like additional training or experience. Identified training is then added to an employee’s
individual development plan, which the employee’s supervisor approves. Any training taken outside
the region should be allowed only in exceptional circumstances and must be approved by the deputy
mission director. In 2012, the mission budgeted $1.1 million for domestic and international training
events. Of this amount, the mission spent about $715,000 for the international training events. To
reduce that cost, in FY 2012 the mission brought eight training events to the mission, which 150
employees attended.

In this review, OIG found that the mission did not document and approve exceptions for the training
events as required. Training provided in-country or at the Asia Regional Training Center in Bangkok
takes priority over similar courses provided in other locations, but contrary to accepted guidance,
the mission’s management did not comply with the policy. The mission routinely allowed staff to
participate in training events outside Thailand without getting the deputy mission director’s approval
for exceptional circumstances or without conducting a cost-benefit analysis.

In most cases, employees attended training worldwide for courses that were neither core nor
mandatory. During 2012, 113 employees attended international training in Thailand, South Africa,
Canada, Singapore, the United Kingdom, Egypt, Hungary, Ghana, and the United States—including



76	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
Las Vegas, New York, and Washington, D.C. Of those, 35 (31 percent) went to one training event in
Thailand, 42 (37 percent) went to one training event outside of Thailand, and 36 (32 percent) attended
multiple international training events. In one example, the mission spent $14,905 for one employee
to attend two training events in Washington, D.C., for 2 consecutive weeks. These same classes, or
similar ones, could have been taken in Pakistan or Thailand.

OIG made four recommendations; however, the mission disagreed with the recommendation to
implement a plan to conduct a cost-benefit assessment for all international training events. The
mission has stated that it already completes an assessment each year, but despite repeated requests
during and after the review, could not provide proof that it had done one for 2013 when the budget
increased by 35 percent. In addition, the mission continued to send staff on international training
without reviewing for compliance with mission policy, even after receiving a draft of this review. Of
OIG’s recommendations, USAID has made management decisions on three and taken final action on
two.

Review of USAID’s Partner Country and Local Organization Assessments Under Implementation
and Procurement Reform
Report No. 9-000-13-003-S

In August 2010, USAID introduced USAID Forward, its reform agenda to transform the Agency
through new partnerships, innovation, and greater emphasis on results. USAID Forward contains
seven reform initiatives, including implementation and procurement reform (IPR), now known as
“local solutions.” The premise of IPR is that establishing implementation mechanisms to engage
directly with partner governments and civil society is a key factor in achieving permanent and
transformational development results. By 2015, USAID anticipates implementing up to 30 percent of
its program funds through partner-country systems and local organizations. OIG’s review gauged
USAID’s performance in assessing and managing the risks associated with two IPR objectives.
Specifically, it examined USAID’s efforts in assessing public financial management systems of partner
countries to determine the suitability of using those systems for implementing USAID-funded
assistance. The review also assessed the use of USAID’s preaward survey tool to determine whether
local organizations have sufficient financial and managerial capacity to manage USAID funds.

Review of IPR Objective 1: Strengthening partner-country capacity to improve aid effectiveness and
sustainability and increasing use of reliable partner-country systems and institutions.

USAID uses a framework consisting of five stages. Stage 1, Rapid Appraisal, examines country-level
fiduciary risk and political or security factors that exacerbate such risk. Stage 2, Risk Assessment,
identifies fiduciary risk at ministries, departments, agencies, or subnational units of government and,
as appropriate, proposes measures to mitigate those risks.




                                                      USAID OIG Semiannual Report to the Congress 77
OIG found that 23 of 24 rapid appraisals provided a high-level snapshot of fiduciary risks associated
with the use of partner-country public financial management systems and helped inform decisions
on whether to undertake a more rigorous, formal risk assessment. Auditors found, however, that
the risk assessments did not always provide a reasonable basis for deciding whether to use partner-
country systems. Of 34 risk assessments from seven missions that OIG reviewed, 16 of USAID/
Ghana’s assessments and 1 assessment by USAID/Peru did not provide a reasonable basis for
determining whether to use partner-country public financial management systems. The remaining
17 risk assessments from the other five missions did.

OIG found that all seven missions that performed risk assessments had developed risk mitigation
measures. Missions in Peru and Jordan had begun to implement the measures, while the remaining
missions were not yet at the implementation stage.

In reviewing USAID’s implementation of the early stages of the framework, OIG noted two areas
for improvement—oversight, and policy and guidance. With respect to oversight, the review found
that the Chief Financial Officer's (CFO's) Global Partner Country Systems Risk Management Team
exerted little quality control over the rollout of the risk assessment process. As a result, the quality of
risk assessments varied. In terms of policy and guidance, the review found that the CFO’s assessment
guidance did not effectively address three key issues: (1) the relationship between project design and
the assessment process and how these inform one another, (2) consideration of the technical capacity
of the proposed entity to implement the specific type of program, and (3) the appropriate type
and extent of testing in risk assessments, as well as documentation of that testing. As a result, the
assessments did not consistently address those three areas.

Review of Objective 2: Strengthening local civil society and private sector capacity to improve aid
effectiveness and sustainability.

OIG examined the use of the Agency’s Non-U.S. Organization Pre-Award Survey, which was
developed to assess whether a local organization “has the capacity to adequately perform on the
award in accordance with the principles established by USAID and the Office of Management
and Budget” for any organization being considered for a USAID grant or cooperative agreement.
According to Agency guidance, the preaward survey helps determine whether the local organization’s
financial management and internal control systems are adequate to manage, control, account for, and
report on the uses of potential USAID funds, thus protecting the U.S. Government’s interests.

OIG found that all four missions reviewed—Armenia, Philippines, Rwanda, and South Africa—
had conducted preaward surveys in accordance with applicable guidelines and that the surveys
had determined whether local organizations had the capacity to adequately perform the award.
Those who evaluated partner-country systems said the preaward survey tool was generally a useful,




78 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
standardized method for reviewing the adequacy of an organization’s financial and managerial
capacity and making a determination of responsibility.

OIG also found that all four missions had developed risk mitigation measures. Missions in Rwanda
and South Africa had implemented risk mitigation measures, while those in Armenia and the
Philippines were not yet at the implementation stage.

OIG made seven recommendations to address issues raised in this report, and USAID made
management decisions on all of them.




                                                   USAID OIG Semiannual Report to the Congress 79
8 0 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
TABLES: U.S. AGENCY FOR INTERNATIONAL
DEVELOPMENT


              Significant Recommendations Described Previously Without Final Action
                                            USAID
                                  April 1–September 30, 2013

                                                                                                  Management
                                                                    Date of                                             Final Action
     Report Number                    Report Title                                Rec. No.         Decision
                                                                    Report                                              Target Date
                                                                                                     Date
                                                                                       1             11/06/07            06/30/2014
                                                                                       3             11/06/07            06/30/2014
                         Audit of the Adequacy of USAID's                              4             11/06/07            06/30/2014
     9-000-08-001-P                                                11/06/07
                         Antiterrorism Vetting Procedures                              5             03/26/12            06/30/2014
                                                                                       6             11/06/07            06/30/2014
                                                                                       8             11/06/07            06/30/2014
                         Audit of Engender Health’s
                                                                                       2             01/15/09             06/30/15
     1-511-09-004-P      Management of Activities Financed         01/15/09
                                                                                       3             01/15/09             06/30/15
                         by USAID/Bolivia
                         Audit of USAID’s Compliance with
                         the Federal Information Security                               3            11/09/10             12/31/14
     A-000-11-002-P                                                11/09/10
                         Management Act of 2002 for Fiscal                             25            11/09/10             02/28/15
                         Year 2010
                         Audit of USAID’s Financial
     0-000-11-001-C      Statements for Fiscal Years 2010           11/12/10           1             11/12/10             09/30/15
                         and 2009
                         Audit of USAID’S HIV/AIDS
     7-681-11-003-P *                                              02/04/11            2             02/04/11              03/31/14
                         Activities in Côte d’Ivoire
                         Review of USAID/Afghanistan’s
    F-306-11-005-S**                                               08/31/11            7             02/14/12             09/30/15
                         Afghan Civilian Assistance Program
                         Audit of USAID/Pakistan’s Firm
     G-391-12-001-P                                                 11/03/11           5                  -                12/31/13
                         Project

                                                                                      6.1            11/15/11             12/30/13
                                                                                      9.2            11/15/11             12/31/14
                                                                                     13.1            11/15/11             12/31/13
                         Audit of USAID’s Fiscal Year 2011
                                                                                     15.1            11/15/11             10/30/13
                         Compliance With the Federal
     A-000-12-003-P                                                 11/15/11         15.2            11/15/11             10/30/13
                         Information Security Management
                                                                                      23             11/15/11             12/30/14
                         Act of 2002
                                                                                      24             11/15/11             12/31/15
                                                                                      27             11/15/11             12/30/14
                                                                                      29             11/15/11             12/30/13



    *With the Department of Treasury for cross-servicing.
    **
       In appeal with the Procurement Executive.



	                                                           U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   81
            Significant Recommendations Described Previously Without Final Action
                                          USAID
                                April 1–September 30, 2013

                                                                                              Management
                                                                        Date of                            Final Action
  Report Number                        Report Title                                Rec. No.    Decision
                                                                        Report                             Target Date
                                                                                                 Date
                        Audit of USAID/Angola’s
  4-654-12-006-P        Public-Private Partnerships for                 02/27/12      7        08/28/12     01/01/14
                        Development
                        Audit of USAID’s Contracts for
  A-000-12-004-P                                                        04/12/12      3        4/12/2012    11/30/13
                        Cloud Computing Services
                        Audit of USAID/Pakistan’s Support
  G-391-12-006-P        to the Benazir Income Support                   05/21/12      3        05/21/12     12/31/13
                        Program
                        Audit of USAID/Afghanistan’s
                        Internal Controls in the
  F-306-12-003-P                                                        06/25/12      8        03/27/13     12/31/13
                        Administration of the Involuntary
                        Separate Maintenance Allowance
                        Audit of Commodities Funded
  4-615-12-011-P        Under the President’s Malaria                   06/28/12      1        06/28/12     12/02/13
                        Initiative in Kenya
                        Audit of USAID/Peru’s
  1-527-12-008-P                                                        09/19/12     10        09/19/12     11/30/13
                        Environmental Activities
                        Audit of USAID’s Small Business                               3        09/27/12     06/30/14
  9-000-12-005-P                                                        09/27/12
                        Utilization Practices                                         9        09/27/12     09/30/14
                        Audit of USAID/Egypt’s Transition
  6-263-13-002-P                                                        10/22/12      6        10/22/12     03/31/14
                        Support Grants Program
                                                                                      1        11/05/12     11/04/13
                        Audit of USAID/Southern Africa’s                              2        11/05/12     11/04/13
  4-674-13-001-P                                                        11/05/12
                        Tuberculosis Activities                                       3        11/05/12     11/04/13
                                                                                      4        11/05/12     11/04/13
                        Audit of Commodities Funded
  4-611-13-002-P        Under the President’s Malaria                   11/08/12      1        11/08/12     12/31/13
                        Initiative in Zambia




8 2	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
       Significant Recommendations Described Previously Without Final Action
                                     USAID
                           April 1–September 30, 2013

                                                                             Management
                                                       Date of                            Final Action
Report Number               Report Title                          Rec. No.    Decision
                                                       Report                             Target Date
                                                                                Date
                                                                      1       11/14/12     12/31/14
                                                                      2       11/14/12     10/31/13
                                                                      3       11/14/12     11/30/13
                                                                      5       11/14/12     12/30/13
                                                                     6.1      11/14/12     10/30/13
                                                                     6.2      11/14/12     12/31/13
                 Audit of USAID’s Fiscal Year 2012
                                                                     6.5      11/14/12     10/30/13
                 Compliance With the Federal
A-000-13-003-P                                         11/14/12      6.6      11/14/12     12/31/13
                 Information Security Management
                                                                      8       11/14/12     10/31/13
                 Act of 2002
                                                                      9       11/14/12     01/15/14
                                                                     10       11/14/12     12/30/13
                                                                    12.1      11/14/12     10/30/13
                                                                    12.2      11/14/12     10/30/13
                                                                    12.3      11/14/12     12/30/13

                                                                    13        11/14/12     12/20/14
                                                                    14        11/14/12     09/30/14
                                                                    15        11/14/12     12/30/13
                 Audit of USAID’s Fiscal Year 2012
                                                                    16        11/14/12     12/30/13
                 Compliance With the Federal
                                                                    17        11/14/12     10/31/13
                 Information Security Management
                                                                    18        11/14/12     10/31/13
                 Act of 2002 (Continued)
                                                                    20        11/14/12     12/30/13
                                                                    21        11/14/12     12/30/14

                 Audit of USAID-Funded Net                           4        06/25/13     06/14/14
                 Distribution Activities Implemented                 5        06/25/13     12/31/13
4-621-13-003-P   by Mennonite Economic                 11/15/12      6        06/25/13     12/31/13
                 Development Associates in                           7        06/25/13     06/14/14
                 Tanzania                                            8        11/15/12     06/14/14
                                                                     1        11/16/12     09/30/15
                 Audit of USAID’s Financial
                                                                     3        11/16/12     09/30/14
0-000-13-001-C   Statements for Fiscal Years 2012      11/16/12
                                                                     4        11/16/12     12/31/13
                 and 2011
                                                                     6        11/16/12     06/30/14
                 Audit of USAID/West Bank and                        1        11/25/12     10/31/13
6-294-13-003-P                                         11/25/12
                 Gaza’s Civic Participation Program                  3        11/25/12     10/31/13
                 Audit of USAID/Cambodia’s Better                    2        06/05/13     01/31/14
5-442-13-002-P                                         12/07/12
                 Health Services Project                             3        12/07/12     01/31/14
                 Audit of USAID’s Internal
                                                                     1        02/19/13     12/31/13
4-962-13-004-P   Controls Over Prepositioned Food      01/07/13
                                                                     3        02/19/13     07/31/14
                 Assistance for the Horn of Africa




                                                       USAID OIG Semiannual Report to the Congress 83
            Significant Recommendations Described Previously Without Final Action
                                          USAID
                                April 1–September 30, 2013

                                                                                              Management
                                                                        Date of                            Final Action
  Report Number                        Report Title                                Rec. No.    Decision
                                                                        Report                             Target Date
                                                                                                 Date
                        Audit of USAID/Pakistan’s Design
                        for Sustainability in the Jamshoro                            2        01/17/13     12/31/13
  G-391-13-001-P                                                        01/17/13
                        Thermal Power Station Repair and                              3        01/17/13     12/31/13
                        Rehabilitation Project
                                                                                      1        01/30/13     01/30/14
                                                                                      2        01/30/13     01/30/14
                                                                                      3        01/30/13     01/30/14
                                                                                      5        01/30/13     01/30/14
                        Audit of Selected Controls Over                               6        01/30/13     01/30/14
  A-000-13-004-P        USAID Badges Used to Access                     01/30/13      7        01/30/13     01/30/14
                        USAID Facilities                                              8        01/30/13     01/30/14
                                                                                     8.1       01/30/13     01/30/14
                                                                                      9        01/30/13     01/30/14
                                                                                     10        01/30/13     01/30/14
                                                                                     11        01/30/13     01/30/14
                                                                                      4        01/31/13     01/31/14
                        Review of USAID/Jordan’s Cash                                 6        01/31/13     11/30/13
  6-278-13-001-S                                                        01/31/13
                        Transfer Activities                                          10        01/31/13     12/31/13
                                                                                     11        01/31/13     12/31/13
                                                                                      1        02/07/13     10/31/13
                                                                                      2        02/07/13     10/31/13
                        Audit of USAID/West Bank and                                  3        02/07/13     10/31/13
  6-294-13-006-P        Gaza’s Palestinian Community                    02/07/13      4        02/07/13     10/31/13
                        Assistance Program                                            5        02/07/13     10/31/13
                                                                                      6        02/07/13     10/31/13
                                                                                      7        02/07/13     10/31/13
                        Audit of USAID/Egypt’s Education                              1        02/24/13     12/10/13
  6-263-13-008-P                                                        02/24/13
                        Support Program                                               2        02/24/13     10/15/13




8 4	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
       Significant Recommendations Described Previously Without Final Action
                                     USAID
                           April 1–September 30, 2013

                                                                             Management
                                                       Date of                            Final Action
Report Number               Report Title                          Rec. No.    Decision
                                                       Report                             Target Date
                                                                                Date
                                                                     1        02/28/13     12/31/13
                                                                     2        02/28/13     12/31/13
                                                                     3        02/28/13     12/31/13
                                                                     4        02/28/13     12/31/13
                                                                     5        02/28/13     12/31/13
                                                                     6        02/28/13     12/31/13
                                                                     7        02/28/13     12/31/13
                 Audit of USAID/Haiti’s
                                                                     8        02/28/13     12/31/13
1-521-13-001-P   Development Credit Authority          02/28/13
                                                                     9        02/28/13     12/31/13
                 Activities
                                                                    10        02/28/13     12/31/13
                                                                    11        02/28/13     12/31/13
                                                                    12        02/28/13     12/31/13
                                                                    13        02/28/13     12/31/13
                                                                    14        02/28/13     12/31/13
                                                                    15        02/28/13     12/31/13
                                                                    16        02/28/13     12/31/13
                                                                     1        03/05/13     11/30/13
                                                                     2        03/05/13     11/30/13
                                                                     3        03/05/13     11/30/13
                                                                     4        03/05/13     11/30/13
                                                                     5        03/05/13     11/30/13
                                                                     6        03/05/13     11/30/13
                 Audit of USAID/Angola’s HIV/AIDS
4-654-13-006-P                                         03/05/13      7        09/05/13     11/30/13
                 Activities
                                                                     8        03/05/13     11/30/13
                                                                     9        03/05/13     11/30/13
                                                                    10        09/05/13     11/30/13
                                                                    11        03/05/13     11/30/13
                                                                    13        03/05/13     11/30/13
                                                                    14        03/05/13     11/30/13
                 Report on USAID’s Compliance
                                                                     1        03/15/13     12/31/13
                 With the Improper Payments
0-000-13-001-S                                         03/15/13      2        03/15/13     12/31/13
                 Elimination and Recovery Act of
                                                                     3        03/15/13     12/31/13
                 2010
                 Audit of USAID/Egypt’s Trade                        6        03/25/13     10/31/13
6-263-13-009-P                                         03/25/13
                 Facilitation Project                                9        03/25/13     10/31/13
                 Audit of USAID/Philippines’ Private                 3        03/25/13     12/31/13
5-492-13-005-P   Sector Mobilization for Family        03/25/13      4        03/25/13     12/31/13
                 Health Project, Phase II                            5        03/25/13     12/31/13




                                                       USAID OIG Semiannual Report to the Congress 85
             Significant Recommendations Described Previously Without Final Action
                                           USAID
                                 April 1–September 30, 2013

                                                                                                Management
                                                                          Date of                            Final Action
  Report Number                         Report Title                                 Rec. No.    Decision
                                                                          Report                             Target Date
                                                                                                   Date
                                                                                        1        03/27/13     10/15/13
                                                                                        2        03/27/13     10/15/13
                         Audit of USAID/Haiti’s Prevention                              3        03/27/13     10/15/13
  1-521-13-004-P         of Sexual Transmission of HIV/AIDS               03/27/13      4        03/27/13     10/15/13
                         Program                                                        5        06/04/13     10/15/13
                                                                                        7        03/27/13     10/15/13
                                                                                        8        03/27/13     10/15/13
                         Audit of USAID/Pakistan’s Gender
  G-391-13-002-P                                                         03/28/13       2        03/28/13     12/31/13
                         Equity Program




8 6 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
              Incidents in Which OIG Was Refused Assistance or Information
                                          USAID
                                April 1-September 30, 2013


Section 6(b)(2) of the Inspector General Act of 1978 requires an inspector general to report to the head of
the agency whenever requested information or assistance is unreasonably refused or not provided.

During this reporting period, there were no reports of such instances.




                                                          USAID OIG Semiannual Report to the Congress 87
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                              Amt. of
                           Date of                                                                       Type of
  Report Number                                                Report Title                   Findings
                           Report                                                                        Findings
                                                                                               ($000)
                                                       Foreign Government
                                        Financial Audit of USAID/Pakistan Grant
                                        Agreement No. 391-IL-00-08-01111-00, Managed
  G-391-13-019-R          04/04/13                                                              31         QC
                                        by Health Services Academy (HSA), for the
                                        Period From July 1, 2011, to June 30, 2012
                                        Financial Audit of the USAID/Pakistan Program
                                        Agreement No. 391-JAMFARA-003-00, Managed
  G-391-13-026-R          09/13/13
                                        by the Jamshoro Power Company Limited, for the
                                        Year Ended June 30, 2012
                                                   Foreign Based Organizations
                                        Financial Audit of the “Effective Schools
                                        Program,” Cooperative Agreement No. 517-A-
  1-517-13-033-R          04/29/13      00-10-00102-00, Administered by the Pontificia
                                        Universidad Catolica Madre y Maestra (PUCMM),
                                        for the Period From July 1, 2011, to June 30, 2012
                                        Audit of the Agreements No. 532-IL-532-4-ENV-
                                        AA-0007, 532-IL-532-4-ENV-AA-00009, 532-AG-
                                        2010-AA IL No. 2, and 532-IL-ENV-AA-00005,
  1-532-13-034-R          04/30/13      for the “USAID/GOJ Gustav Agricultural                  105        QC
                                        Rehabilitation Project (GARP),” Managed by the
                                        Ministry of Agriculture and Fisheries (MOAF), for
                                        the Period From April 1, 2010, to July 31, 2011
                                        Financial Audit of the Fund Accountability
                                        Statement of the “Civil Society Action for
                                        Improved Public Sector Performance Program,”
                                        Grant Agreement No. 517-A-00-09-00103-00 for
                                        the Period From October 1, 2011 to September
  1-517-13-035-R          05/03/13      30, 2012 and “Formation of Young Leaders of
                                        Political Parties in the Dominican Republic - Phase
                                        II Program,” Grant Agreement No. 517-A-00-09-
                                        00105-00; Managed by Participación Ciudadana
                                        for the Period From October 1, 2011, to July 16,
                                        2012
                                        Audit of the Fund Accountability Statement of
                                        USAID Agreement No. AID-512-A-09-00002-00,
                                        “Clean and Renewable Energy Program,” Managed
  1-512-13-036-R          06/04/13
                                        by Instituto de Desenvolvimento Sustentável e
                                        Energias Renováveis (IDER) for the Period From
                                        January 1, 2012, to December 31, 2012




8 8 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                               Amt. of
                 Date of                                                                  Type of
Report Number                                 Report Title                     Findings
                 Report                                                                   Findings
                                                                                ($000)
                            Audit of Cooperative Agreement No. 518-A-00-
                            07-00056-00, for the “Program for the Protection
                            of Water Resources to Keep the Biodiversity:
                            Financial Mechanisms for the Protection of the
1-518-13-037-R   07/12/13
                            Watersheds of Ecuador,” Managed by Fideicomiso
                            Mercantil Fondo Ambiental Para la Protección
                            de las Cuencas y Agua (FONAG), for the Period
                            From October 1, 2010, to September 30, 2011
                            Audit of the Cooperative Agreement No. 511-
                            A-00-06-00014-00 for the “Strengthening the
                            Institutional Capacity of FDTA-Valles,” Managed
1-511-13-038-R   07/16/13   by Fundación Para el Desarrollo Tecnológico
                            Agropecuario de los Valles (FDTA-Valles),
                            for the Period From December 1, 2005, to
                            September 30, 2012
                            Audit of the “Family Planning and Reproductive
                            Health Services Program,” Under USAID’s
                            Cooperative Agreement No. 511-A-11-00001,
1-511-13-039-R   07/17/13
                            Managed by Center for Research, Education
                            and Services (CIES), for the Period From
                            September 29, 2011, to December 31, 2012
                            Close-out Audit of the Action Plan for
                            Implementing the Single Registry of Participants
                            (SRP) - USAID, Implemented by the Ministry
1-519-13-040-R   07/19/13   of Economy (MINEC) Through the General
                            Directorate for Statistics and Census
                            (DIGESTYC) for the Period From December 1,
                            2011, to June 30, 2012
                            Audit of Cooperative Agreement No. 511-A-
                            11- 00002 for the “Promeso Program,” and
                            Cooperative Agreement 511-A-12-00001 for the
1-511-13-041-R   08/12/13   “Healthy Communities Program,” Managed by
                            Asociación Protección a la Salud (PROSALUD),
                            for the Period From January 1, 2012, to
                            December 31, 2012




                                                     USAID OIG Semiannual Report to the Congress 89
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                           Amt. of
                          Date of                                                                     Type of
  Report Number                                                Report Title                Findings
                          Report                                                                      Findings
                                                                                            ($000)
                                       Audit of the Fund Accountability Statement
                                       of the “Entrepreneurial Competitiveness and
                                       Strengthening Program,” Cooperative Agreement
  1-520-13-042-R          08/12/13     No. 520-A-00-06-00103-00, Managed by the
                                       Asociación Nacional del Café (ANACAFE),
                                       for the Period From January 1, 2012, to
                                       September 30, 2012
                                       Audit of USAID Resources Managed by the
                                       Caribbean Community Secretariat (CARICOM)
                                       Under Regional Strategic Assistance Grant
  1-538-13-043-R          08/12/13
                                       Agreement Number 538-RSAAG-538-2011-001
                                       for the Period From January 1, 2011, to
                                       December 31, 2012
                                       Audit of Cooperative Agreement No. AID-
                                       526-A-10-00003 “Support Governmental
                                       Reform to Improve Management and Policy
  1-526-13-044-R          08/12/13
                                       Making Systems” Managed by Gestion Ambiental
                                       (GEAM), for the Period From January 1 to
                                       December 31, 2012
                                       Close-out Audit of USAID Resources,
                                       Cooperative Agreement No. AID-
                                       517-A-10-00001 for the “Environmental
                                       Management and Conservation Program,” for the
                                       Period From January 1 2011, to May 23, 2012, and       9         QC
  1-517-13-045-R          08/28/13
                                       No. 517-A-00-09-00109-00 for the “Major League         1         UN
                                       Baseball-Dominican Development Alliance USAID
                                       Incentive Fund,” for the Period From January 1,
                                       2011, to September 17, 2012, Managed by Instituto
                                       Dominicano de Desarrollo Integral, Inc. (IDDI)
                                       Close-out Audit of the Cooperative Agreement
                                       No. AID-512-A-09-00001-00, “Ethno-
                                       Environmental Corridors in the Brazilian Amazon
  1-512-13-046-R          08/28/13                                                           18         QC
                                       Program,” Managed by the Instituto Internacional
                                       de Educaçao do Brasil (IEB), for the Period of
                                       January 1st to September 30th, 2012




9 0	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                                 Amt. of
                 Date of                                                                    Type of
Report Number                                  Report Title                      Findings
                 Report                                                                     Findings
                                                                                  ($000)
                            Audit of the Fund Accountability Statement
                            of the Project “Alliance for Child Nutrition”
                            Cooperative Agreement No. 527-A-11-00003,
1-527-13-047-R   08/28/13
                            Managed by Asociación Benefica Prisma
                            (PRISMA), for the Period From May 26, 2011, to
                            December 31, 2012
                            Audit of the Fund Accountability Statement,
                            Agreement No. 511-0660, Managed by the
                            Rural Roads Project (CC.VV.) for the Strategic
                                                                                   54         QC
1-511-13-048-R   08/28/13   Objective Economic Diversification Increasingly
                                                                                   25         UN
                            Sustainable in Coca Leaf-Growing Areas
                            and Associated Areas for the Year Ended
                            December 31, 2012
                            Audit of the “Family Planning and Reproductive
                            Health Services Program,” Under USAID’s
                            Cooperative Agreement No. 511-A-11-00001,
1-511-13-049-R   08/29/13
                            Managed by Center for Research, Education and
                            Services (CIES), for the Period From January 1, to
                            July 15, 2013
                            Audit of the Cooperative Agreement No. 521-A-
                            00-10-00014-00 for the “Promoting Proactive
                            Transparency and Accountability in Haiti,”
1-521-13-050-R   08/29/13                                                           4         QC
                            Managed by La Fondation Héritage Pour Haiti
                            (LFHH), for the Period From May 1, 2011, to
                            April 30, 2012
                            Audit of the Fund Accountability Statement
                            of Cooperative Agreement No. AID-
                            527-A-10-00003 “Promoting Governance in
                            Decentralized Governments Through Civil
1-527-13-051-R   08/30/13                                                          11         QC
                            Society Participation,” Managed by Centro de
                            Estudios Para el Desarrollo y la Participación
                            (CEDEP), for the Period from January 1, 2012, to
                            March 31, 2013
                            Audit of the Cooperative Agreement No.
                            AID-522-A-11-00001 for the “Decentralization
                            Enabling Environment (DEE) Project,” Managed
                                                                                    7         QC
1-522-13-052-R   08/30/13   by the Federation of Non-Governmental
                                                                                    1         UN
                            Organizations for the Development of Honduras
                            (FOPRIDEH), for the Period From January 1, to
                            December 31, 2012



                                                       USAID OIG Semiannual Report to the Congress 91
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                          Amt. of
                          Date of                                                                    Type of
  Report Number                                               Report Title                Findings
                          Report                                                                     Findings
                                                                                           ($000)
                                       Audit of the Program “Supporting Reforms in the
                                       Paraguayan Justice Sector Aimed at Increasing
                                       Transparency and the Rule of Law” No. 526-
  1-526-13-053-R         09/06/13      A-00-01-00005-00; Managed by the Fundación
                                       Comunitaria Centro de Información y Recursos
                                       Para el Desarrollo (CIRD) for the Year Ended
                                       December 31, 2012
                                       Audit of the Fund Accountability Statement
                                       of Cooperative Agreement No. 527-A-00-12-
                                       00002 “Digital Inclusion Program,” Managed by
  1-527-13-054-R         09/06/13
                                       the Information and Education Center for the
                                       Prevention of Drug Abuse (CEDRO), for the
                                       Period From February 29 to December 31, 2012
                                       Audit of the Cooperative Agreement No. 519-
                                       A- 00-06-00033-00, “Strengthening Healthcare
                                       and Basic Education,” Managed by Fundación
  1-519-13-055-R         09/06/13
                                       Empresarial Para el Desarrollo Educativo
                                       (FEPADE), for the Period From January 1, 2012,
                                       to October 15, 2012
                                       Close-Out Audit of USAID Resources “Food
                                       Program Under PL-480 Title II,” Cooperative
                                       Agreements No. FFP-A-00-07-00010-00,
  1-520-13-056-R          09/16/13     DFD-G00-09-00293-00, and AID-                        125        QC
                                       OFDA-G-10-000112, Managed by Asociación
                                       SHARE de Guatemala (SHARE), for the Period
                                       From October 1, 2011, to June 30, 2012
                                       Audit of the Cooperative Agreement No.
                                       519-A-11-00001, “Adopt a School,” Managed
  1-519-13-057-R          09/16/13     by Fundación Empresarial Para el Desarrollo
                                       Educativo (FEPADE), for the Period From
                                       January 1, 2012, to December 31, 2012
                                       Audit of the Cooperative Agreement No. AID-
                                       519-A-12-00003, “Project for Investment in the
  1-519-13-058-R          09/16/13     Future,” Managed by Fundación Empresarial Para
                                       el Desarrollo Educativo (FEPADE), for the Period
                                       From July 13, 2012, to December 31, 2012




9 2	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                                 Amt. of
                 Date of                                                                    Type of
Report Number                                 Report Title                       Findings
                 Report                                                                     Findings
                                                                                  ($000)
                            Close-out Audit of the Fund Accountability
                            Statement of the Project “Development of
                            Technical, Social and Procurement Abilities within
                            the Population of Zaragoza and San Juan Opico
1-519-13-059-R   09/16/13   Municipalities RTI/CVPP,” Donation Grant No.
                            0211537-G-2012-006 Between RTI International
                            and Fundación Empresarial Para el Desarrollo
                            Educativo (FEPADE), for the Period From
                            April 30, 2012, to October 31, 2012
                            Close-out Audit of the Fund Accountability
                            Statement of the Project “Development of
                            Technical and Entrepreneurial Abilities at the
                            Ilopango Municipality, RTI/CVPP,” Donation
1-519-13-060-R   09/18/13
                            Grant No. 211537-G-2012-017-00 Between RTI
                            International and Fundación Empresarial Para el
                            Desarrollo Educativo (FEPADE), for the Period
                            From August 1, 2012, to October 31, 2012
                            Close-out Audit of USAID Resources,
                            Cooperative Agreement No. AID-511-A-11-00003
                            for the “Agricultural Productivity at the Chaco
1-511-13-061-R   09/16/13   through the Management of Basins and the               183        QC
                            Diversification of Earnings Program,” Managed by
                            Fundación Natura Bolivia, for the Period From
                            October 3, 2011, to May 31, 2013
                            Audit of the Fund Accountability Statement of
                            the Project, “Strengthening and Expanding Civil
                            Society Institutional Capacities,” Cooperative
1-526-13-062-R   09/24/13
                            Agreement No. 526-A-10-00004, Managed by
                            Semillas Para la Democracia, for the Period From
                            January 1, 2012, to December 31, 2012
                            Audit of the Cooperative Agreement No.
                            AID-512-A-11-00005 for the “Biodiversity
                            Conservation of Public Lands in the Brazilian
1-512-13-063-R   09/20/13   Amazon Program,” Managed by the Instituto
                            Internacional de Educaçao do Brasil (IEB), for the
                            Period From October 1, 2011, to December 31,
                            2012




                                                      USAID OIG Semiannual Report to the Congress 93
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                           Amt. of
                          Date of                                                                     Type of
  Report Number                                              Report Title                  Findings
                          Report                                                                      Findings
                                                                                            ($000)
                                      Audit of the Cooperative Agreement No.
                                      AID-514-A-09-00004 for the “Strengthen
                                      the Institutional Capacity and Governance of
                                      Colombia’s Protected Areas for Long-Term
                                      Environmental Conservation, Community and
  1-514-13-064-R         09/25/13
                                      Cultural Preservation and Improved Livelihoods,”
                                      Managed by PATRIMONIO NATURAL - (Fondo
                                      para la Biodiversidad y Areas Protegidas), for the
                                      Period From January 1, 2012, to December 31,
                                      2012
                                      Audit of USAID Resources, Cooperative
                                      Agreement No. 517-A-12-00001 for the
                                      “Sustainable Tourism Empowerment Program,”
                                                                                              6         QC
  1-517-13-065-R         09/25/13     Managed by Consorcio Dominicano de
                                                                                              6         UN
                                      Competitividad Turistica, Inc. (CDCT), for the
                                      Period From January 2, 2012, to December 31,
                                      2012
                                      Close-out Audit of the Cooperative Agreement
                                      No. AID-512-A-09-00004 for the “Youth
  1-512-13-066-R         09/25/13     Employability Program,” Managed by Instituto
                                      Empreender, for the Period From January 1, 2012,
                                      to May 31, 2013
                                      Audit of the Cooperative Agreement No. AID-
                                      518-A-11-00003 “Strengthening the Civil Society
  1-518-13-067-R         09/30/13                                                            88         QC
                                      in Ecuador,” Managed by Grupo Faro for the Year
                                      Ended December 31, 2012
                                      Audit of USAID Resources Cooperative
                                      Agreement No. 517-A-12-00002 for the “At Risk
                                                                                              4         QC
  1-517-13-068-R         09/30/13     Youth Activity/Young Alert Program,” Managed
                                                                                              4         UN
                                      by ENTRENA, SRL, for the Period From July 5,
                                      2012, to December 31, 2012
                                      Audit of the Fund Accountability Statement
                                      Grant No. 522-G-00-06-00304-00, Under the
                                      Convention Strategic Objective No. 522-0433,
                                      “More Healthy and Educated People,” and Under
  1-522-13-069-R         09/30/13
                                      Assistance Agreement No. 522-0450, “Health
                                      Activity,” Managed by the Asociación Hondurena
                                      de Planificación Familiar (ASHONPLAFA), for the
                                      Period From January to December 31, 2012




94	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                               Amt. of
                 Date of                                                                  Type of
Report Number                                 Report Title                     Findings
                 Report                                                                   Findings
                                                                                ($000)
                            Audit of the Fund Accountability Statement
                            Under the Assistance Agreement No. 522-
                            0441, for the Community Led Infrastructure
                            and the Educational Infrastructure Programs of
                            the Merida Initiative and the Central American
1-522-13-070-R   09/30/13
                            Regional Security Initiative (MERIDA/CARSI);
                            Managed by the Honduran Social Investment
                            Fund (FHIS) Through the Directorate of Major
                            Infrastructure (DIM), for the Period From
                            January 1 to December 31, 2012
                            Audit of the Agreement No. 522-0433 “Investing
                            in People: Healthier and Better Educated
                            People,” for the Period From October 1, 2011, to
                            December 31, 2012, and Agreement No. 522-
                                                                                 136        QC
1-522-13-071-R   09/30/13   0450 “Assistance for the Health Program” for the
                                                                                  76        UN
                            Period From January 15 to December 31, 2012;
                            Managed by the Honduran Secretariat of Health
                            Through the Unit for Extension of Coverage and
                            Funding (UECF)
                            Audit of Fund Accountability Statement of
                            USAID Resources “Basic Education Program,”
                            Grant Agreement No. 517-A-00-10-00100-
1-517-13-072-R   09/30/13   00, Administered by the American Chamber
                            of Commerce of the Dominican Republic, Inc,
                            (AMCHAMDR), for the Period From January 1,
                            2012, to December 31, 2012
                            Closeout Audit of Foundation “Institute For
                            Information Freedom Development” (FIIFD)
3-118-13-050-R   04/17/13   Under USAID Cooperative Agreement No.
                            118-A-12-00005 for Fiscal Year (FY) Ended
                            December 31, 2012
                            Audit of the Centre for Social and Labor
                            Rights(CSLR) Under USAID Cooperative
3-118-13-051-R   05/20/13
                            Agreement No. 118-A-00-04-00047-00 for Fiscal
                            Year (FY) Ended December 31, 2012
                            Audit of International Memorial Cooperative
3-118-13-052-R   05/01/13   Agreement No. 118-A-11-00010-00 for the Year
                            Ended December 31, 2012




                                                      USAID OIG Semiannual Report to the Congress 95
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                       Amt. of
                          Date of                                                                 Type of
  Report Number                                               Report Title             Findings
                          Report                                                                  Findings
                                                                                        ($000)
                                       Audit of Transparent World Under Agreement
  3-118-13-053-R         04/26/13      No. 118-A-00-10-00088-00 for the Year Ended
                                       December 31, 2012
                                       Audit of Foundation for Independent Radio
  3-118-13-054-R         05/01/13      Broadcasting (FIRB) Under Multiple Agreements
                                       for Year Ended December 31, 2012
                                       Audit of The Fund for Sustainable Development
  3-118-13-055-R         05/03/13      No. 118-A-00-11-00015 for the Year Ended
                                       December 31, 2012
                                       Audit of The Russian Health Care Foundation
  3-118-13-056-R         05/06/13      Under Agreement No. 118-A-11-00016-00 for the
                                       Year Ended December 31, 2012
                                       The Russian Microfinance Center (RMC) Under
                                       Cooperative Agreement No. 118-A-11-000005
  3-118-13-057-R         05/09/13
                                       and ACDI/VOCA Agreement No. J691A for the
                                       Fiscal Year Ended December 31, 2012
                                       Audit of Moscow Helsinki Group Under Multiple
  3-118-13-058-R         05/28/13      Agreements for Fiscal Year Ended December 31,
                                       2012
                                       Closeout Audit of NGO Center for
                                       Environmental Innovations (CEI) Under USAID
  3-118-13-059-R         05/08/13
                                       Cooperative Agreement No. 118-A-00-10-00093
                                       for Fiscal Year (FY) Ended December 31, 2012
                                       Audit of Center for Anti-Corruption Research
                                       and Initiative “Transparency International-R”
  3-118-13-060-R         05/08/13      (TIR) Under USAID Cooperative Agreement No.
                                       118-A-11-00021-00 for Fiscal Year (FY) Ended
                                       December 31, 2012
                                       Audit of Foundation for Democracy “GOLOS”
                                                                                          1         QC
  3-118-13-061-R         05/07/13      Under Agreement No. 118-A-00-10-00070 for
                                                                                          1         UN
                                       the Year Ended December 31, 2012
                                       Closeout Audit of the National Foundation for
                                       the Prevention of Cruelty to Children Under
  3-118-13-062-R          05/16/13     USAID Cooperative Agreement Nos. 118-A-
                                       00-10-00036-00 and 118-A-00-10-00047-00 for
                                       Fiscal Year Ended December 31, 2012




9 6	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                              Amt. of
                 Date of                                                                 Type of
Report Number                                Report Title                     Findings
                 Report                                                                  Findings
                                                                               ($000)
                            Audit of Regional Society of Disabled People
                            Perspektiva Under USAID Cooperative
3-118-13-063-R   05/22/13
                            Agreement No. 118-A-00-03-00085-00 for Fiscal
                            Year Ended December 31, 2012
                            Audit of Agency for Social Information (ASI)
3-118-13-064-R   05/17/13   Under Multiple Agreements for Fiscal Year Ended
                            December 31, 2012
                            Audit of Agency for Technical Cooperation
                            and Development (ACTED) Under Multiple
3-000-13-065-R   05/15/13
                            Agreements for Fiscal Year Ended December 31,
                            2009
                            Closeout Audit of the Center for Fiscal Policy,
3-118-13-066-R   06/12/13   Consulting Group Under Multiple Agreements for
                            Fiscal Year Ended December 31, 2012
                            Closeout Audit of Foundation “Institute
                            for Urban Economics” (IUE) Under USAID
                            Cooperative Agreement No. 118-A-12-00009
3-118-13-067-R   06/18/13
                            and Donation Agreement Under Cooperative
                            Agreement No. 118-A-11-00020 for Fiscal Year
                            (FY) Ended December 31, 2012
                            Audit of Agrarian Markets Development Institute
                            (AMDI) Under USAID Cooperative Agreement
3-121-13-068-R   07/10/13
                            Nos. 121-A-12-00005 and 121-A-12-00002 for
                            Fiscal Year Ended December 31, 2012
                            Audit of GOAL, Multiple Agreements for Fiscal
3-000-13-069-R   07/15/13
                            Year Ended December 31, 2011
                            Audit of Community Development Foundation
                            Mozaik Under USAID Cooperative Agreement,
3-168-13-070-R   07/17/13   Nos. 168-A-00-10-00103-00 and 168-A-00-10-
                            00101-00 for the Period From February 11, 2010,
                            to December 31, 2010
                            Audit of Community Development Foundation
                            Mozaik Under USAID Cooperative Agreement
3-168-13-071-R   07/17/13
                            Nos. 168-A-00-10-00103-00 and 168-A-00-10-
                            00101-00 for Fiscal Year December 31, 2011
                            Audit of the All-Ukrainian Public Organization
                            “Institute for Budgetary and Socio-Economic
3-121-13-072-R   07/19/13
                            Research,” Under Multiple Agreements for Fiscal
                            Year Ending December 31, 2012



                                                     USAID OIG Semiannual Report to the Congress 97
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                           Amt. of
                           Date of                                                                    Type of
  Report Number                                                Report Title                Findings
                           Report                                                                     Findings
                                                                                            ($000)
                                        Audit of Norwegian People’s Aid, Under USAID
  3-000-13-073-R          08/06/13      Multiple Agreements for Fiscal Year Ended            35         QC
                                        December 31, 2010
                                        Audit of the Center for Training and Consultancy
                                        Under USAID Cooperative Agreement No. 114-
  3-114-13-074-R          08/07/13
                                        A-09-0004 and Sub Grant No. 114-A-10-0004 for
                                        Fiscal Year Ended December 31, 2011
                                        Audit of Ukrainian Association of Local
                                        Governments “Association of Ukrainian Cities”
  3-121-13-075-R          08/14/13      (AUG) Cooperative Agreement No. 121-A-00-
                                        10-00703-00 for Fiscal Year Ended December 31,
                                        2012
                                        Audit of the Center for Training and Consultancy
  3-114-13-076-R          08/15/13      (CTC) Under USAID Multiple Agreements for the
                                        Fiscal Year (FY) Ended December 31, 2012
                                        Audit of Microcredit Foundation MI-BOSPO
                                        Under USAID Cooperative Agreement No. 168-
  3-168-13-077-R          08/21/13
                                        A-00-10-00104-00 for Fiscal Year December 31,
                                        2012
                                        Closeout Audit of Civil Society Promotion
                                        Center Under USAID Cooperative Agreement
  3-168-13-078-R          09/03/13
                                        No. 168-A-00-08-00106-00 for the Period From
                                        August 20, 2011, to Closeout as of May 21, 2013
                                        Audit of Rural Development Network
                                        of the Republic of Macedonia, Under
                                                                                              4         QC
  3-165-13-079-R          09/03/13      USAID Cooperating Agreement No. AID-
                                                                                              4         UN
                                        165-A-12-00003 for Fiscal Year Ended
                                        December 31, 2012
                                        Audit of Medair, Under Multiple Agreements for       233        QC
  3-000-13-080-R          09/11/13
                                        Fiscal Year Ended December 31, 2010                  233        UN
                                        Audit Report of Charitable Organization
                                        “Commercial Law Center” (CLC) Under USAID
  3-121-13-081-R          09/12/13      Cooperative Agreement Nos. 121-A-00-08-
                                        00704 and 121-A-00-11-00004 for the Fiscal Year
                                        Ended December 31, 2012
                                        Closeout Audit of Agency for Technical
                                        Cooperation and Development (ACTED) Under
  3-000-13-082-R          09/13/13
                                        Multiple Agreements for Fiscal Year Ended
                                        December 31, 2010



9 8 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                              Amt. of
                 Date of                                                                 Type of
Report Number                                Report Title                     Findings
                 Report                                                                  Findings
                                                                               ($000)
                            Audit of Global Earthquake Model Foundation,
                                                                                86         QC
3-000-13-083-R   09/30/13   Under Agreement No. AID-OFDA-G-11-00209
                                                                                86         UN
                            for Fiscal Year Ended September 30, 2012
                            Audit of International HIV/AIDS Alliance under
3-000-13-084-R   09/27/13   USAID Multiple Agreements for Fiscal Year Ended
                            December 31, 2011
                            Agency Contracted Closeout Audit of USAID
                            Resources Managed by Southern Nations,
                            Nationalities and Peoples Region (SNNPR) Health     22         QC
4-663-13-004-N   04/03/13
                            Bureau Under Implementation Letters IL-663-         21         UN
                            0014.1/2#17 and IL-663-0014.1/2#25 for the
                            Period From January 1, 2007, to March 31, 2010
                            Agency Contracted Closeout Audit of USAID
                            Resources Managed by Relief Society of Tigray
                            (REST) Under Cooperative Agreement No.
4-663-13-005-N   07/15/13
                            663-A-00-02-00366-00 and Audit of Agreement
                            No. FFP-A-00-08-00081 for the Year Ended
                            December 31, 2010
                            Agency Contracted Closeout Audit of USAID
                            Resources Managed by Ministry of Education
                                                                                115        QC
4-663-13-006-N   07/16/13   Under Grant Agreement No. 663-IL-663-
                                                                                114        UN
                            0014.3#27 for the Period From November 25,
                            2009, to June 30, 2011
                            Agency Contracted Closeout Audit of USAID
                            Resources Managed by Agricultural Consultative
                                                                                58         QC
4-611-13-007-N   08/08/13   Forum Under Cooperative Agreement No. 690-
                                                                                56         UN
                            A-00-04-00341-00 for the Period From January 1,
                            2009, to September 30, 2010
                            Audit of USAID Resources Managed by Mulanje
                            Mountain Conservation Trust Under Cooperative        3         QC
4-612-13-032-R   04/02/13
                            Agreement No. 674-A-00-10-00019-00 for the           3         UN
                            Period January 4, 2010, to September 30, 2011
                            Audit of USAID Resources Managed by East
                            African Community (EAC) Under Assistance
                                                                                109        QC
4-623-13-033-R   04/03/13   Agreement No. 623-AA-09-002-00-EAC for
                                                                                 12        UN
                            the 21 Month Period From October 1, 2009, to
                            June 30, 2011




                                                     USAID OIG Semiannual Report to the Congress 99
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                        Amt. of
                          Date of                                                                  Type of
  Report Number                                                Report Title             Findings
                          Report                                                                   Findings
                                                                                         ($000)
                                       Audit of USAID Resources Managed by NEPAD
                                       Business Foundation Under Cooperative
                                                                                          153        QC
  4-674-13-034-R          04/03/13     Agreement No. 674-A-00-11-00047-00
                                                                                          127        UN
                                       (Removing the Barriers Program) for the Period
                                       From June 1, 2011, to March 31, 2012
                                       Audit of USAID Resources Managed by Kenya
                                       Agricultural Research Institute (KARI) Under
                                       Strategic Objective and Development Assistance
                                                                                          67         QC
  4-615-13-035-R          05/02/13     Grant Agreement No. 615-007 (Increased Rural
                                                                                          2          UN
                                       Household Incomes Program) Implementation
                                       Letter 17 for the Period From July 1, 2010, to
                                       June 30, 2012
                                       Audit of USAID Resources Managed by
                                       Wajir South Development Association
                                       (WASDA) Under Cooperative
                                                                                          79         QC
  4-902-13-036-R          05/06/13     Agreements No. DFD-G-00-09-00330-00,
                                                                                          79         UN
                                       AID-OFDA-G-11-00079 and AID-
                                       OFDA-G-11-00079-2 for the Period From
                                       September 7, 2009, to March 3, 2012
                                       Closeout Audit of USAID Resources Managed
                                       by Zimbabwe Lawyers for Human Rights Under
  4-613-13-037-R          05/15/13
                                       Grant Number 674-G-00-09-00129-00 for the
                                       Year Ended September 30, 2012
                                       Audit of USAID Resources Managed by the
                                       Church Alliance for Orphans Trust Under            116        QC
  4-673-13-038-R          05/15/13
                                       Agreement No. 674-A-00-11-00013-00 for the         109        UN
                                       14 Months Ended February 29, 2012
                                       Audit of USAID Resources Managed by Hospice
                                       Palliative Care Association of South Africa
  4-674-13-039-R          05/22/13     (HPCA) Under Cooperative Agreement No. 674-
                                       A-00-10-00023-00 for the Year Ended March 31,
                                       2012
                                       Audit of USAID Resources Managed by Women
                                       in Law and Development in Africa (WILDAF)
  4-621-13-040-R          05/23/13                                                        11         QC
                                       Under Cooperative Agreement No. 621-A-00-10-
                                       00004-00 for the Year Ended December 31, 2011




10 0	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                               Amt. of
                 Date of                                                                  Type of
Report Number                                 Report Title                     Findings
                 Report                                                                   Findings
                                                                                ($000)
                            Recipient Contracted Audit of USAID Resources
                            Managed by Regional Centre for Quality of Health
4-623-13-041-R   05/24/13   Care Under Strategic Objective Agreement No.         24         QC
                            623-SOAG6230011.02-60088 for the Year Ended
                            June 30, 2012
                            Audit of USAID Resources Managed by
                            Counselling Services Unit Under Grant
4-613-13-042-R   06/03/13
                            Agreement No. 613-G-00-01-00244-00 for the
                            Year Ended December 31, 2012
                            Audit of USAID Resources Managed by Mulago-
                            Mbarara Teaching Hospitals’ Joint AIDS Program
4-617-13-043-R   06/03/13   (MJAP) Under Cooperative Agreement No.
                            AID-617-A-09-00006 for the Year Ended
                            September 30, 2012
                            Audit of USAID Resources Managed by
                            African Development Solutions (formerly
                            Horn Relief) Under Grant Agreement Nos.
                                                                                 25         QC
4-902-13-044-R   06/03/13   DFD-G-00-10-00046-00 (Close-out), AID-
                                                                                 25         UN
                            OFDA-G-10-00014, AID-OFDA-G-11-00180
                            and AID-OFDA-G-11-00203 for the Year Ended
                            December 31, 2011
                            Closeout Audit of USAID Resources Managed by
                            Link Community Development Under Agreement
                                                                                 517        QC
4-674-13-045-R   06/04/13   No. 674-A-00-09-000137-00 for the 11 Month
                                                                                 499        UN
                            Period From November 1, 2011, to September 30,
                            2012
                            Audit of USAID Resources Managed by The
                            Ministry of Health and Social Welfare-Kigoma
                            Zonal Training Centre (KZTC) Under Strategic
4-621-13-046-R   06/07/13
                            Objective Grant Agreement No. 621-011.01,
                            Implementation Letter Nos. 30, 35 and 43 for the
                            Year Ended June 30, 2012
                            Audit of USAID Resources Managed by
                            Ministry of Health and Social Welfare-Primary
                            Health Care Institute in lringa Under Strategic
4-621-13-047-R   06/11/13
                            Objective Grant Agreement No. 621-001.01,
                            Implementation Letter Nos. 33 and 44, for the
                            Year Ended June 30, 2012




                                                    USAID OIG Semiannual Report to the Congress 101
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                             Amt. of
                           Date of                                                                      Type of
  Report Number                                                Report Title                  Findings
                           Report                                                                       Findings
                                                                                              ($000)
                                        Audit of USAID Resources Managed by Ministry
                                        of Health and Social Welfare-Centre for
                                        Educational Development in Health in Arusha
  4-621-13-048-R          06/13/13      (CEDHA) Under the Strategic Objective Grant
                                        Agreement No. 621-0011.01, Implementation
                                        Letter Nos. 34 and 42 for the Year Ended June 30,
                                        2012
                                        Closeout Audit of USAID Resources Managed
                                        by Kigezi Diocese Water and Sanitation
  4-617-13-049-R          06/25/13      Program Under Grant Agreement No. AID-
                                        617-G-10-00002 for the Period December 2,
                                        2009, to December 1, 2012
                                        Closeout Audit of USAID Resources Managed by
                                        Egerton University - Tegemeo Institute Under
  4-615-13-050-R          06/25/13      Development Assistance Grant Agreement No.              2         QC
                                        615-007 Implementation Letter No.14 for the
                                        Period July 1, 2010, to April 30, 2012
                                        Audit of USAID Resources Managed by Ministry
                                        of Health and Social Welfare-Zanzibar Malaria
                                        Control Program (ZMCP) Under the Strategic
  4-621-13-051-R          07/01/13
                                        Objective Grant Agreement No. 621-011.01,
                                        Implementation Letter Nos. 31 and 39 for the
                                        Period July 1, 2010, to June 30, 2012
                                        Audit of USAID Resources Managed by Dignitas
                                        International Under Cooperative Agreement               4         QC
  4-612-13-052-R          07/02/13
                                        No. 674-A-00-10-00034-00 for the Year Ended             4         UN
                                        December 31, 2011
                                        Closeout Audit of USAID Resources Managed
                                        by Hamlin Fistula Ethiopia in Respect of Fistula
                                        Identification, Referral and Treatment in Ethiopia
  4-663-13-053-R          07/08/13
                                        Under Grant Agreement No. 663-G-00-00418-
                                        00 for the Period From July 1, 2011, to August 31,
                                        2012
                                        Audit of USAID Resources Managed by African
                                        Medical Research Foundation (AMREF) Kenya for
                                        Aphia Plus Northern Arid Lands Service Delivery
  4-615-13-054-R          07/08/13
                                        (IMARISHA) Under Cooperative Agreement No.
                                        AID-A-12-00015 for the Period March 15, 2012,
                                        to September 30, 2012




10 2	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                                Amt. of
                 Date of                                                                   Type of
Report Number                                 Report Title                      Findings
                 Report                                                                    Findings
                                                                                 ($000)
                            Audit of USAID Resources Managed by East,
                            Central and Southern Africa Health Community
                            (ECSA-HC) Under Strategic Objective
4-623-13-055-R   07/10/13   Agreement No. 6230011.02-60087 and the
                            Human Resources Alliance for Africa (HRAA)
                            Under Strategic Objective No. 690-0020 for the
                            Year Ended June 30, 2012
                            Audit of USAID Resources Managed by The
                            Wildlife and Environment Society of South Africa
                                                                                   7         QC
4-674-13-056-R   07/10/13   Under Cooperative Agreement No. 674-A-00-11-
                                                                                   1         UN
                            00015-00 for the Period From January 17, 2011, to
                            March 31, 2012
                            Audit of USAID Resources Managed by Maasai
                            Women Development Organization Under
                            Grant Agreement No. 621-G-00-07-00005-00
4-621-13-057-R   07/15/13
                            and Cooperative Agreement No. 621-A-00-08-
                            00010-00 for the Two Years Ended December 31,
                            2012
                            Audit of USAID Resources Managed by Anova
                            Health Institute Under Cooperative Agreement
                            No. 674-A-00-08-00009-00 and Johns Hopkins
4-674-13-058-R   07/17/13                                                          2         QC
                            Health and Education in South Africa Under Sub
                            Award No. JHHESA-01-09 for the Year Ended
                            September 30, 2012
                            Audit of USAID Resources Managed by
                            Development Aid from People to People in
                                                                                  154        QC
4-611-13-059-R   08/08/13   Zambia Under Cooperative Agreement No.
                                                                                   6         UN
                            611-A-00-09-00001-00 for the Two Years Ended
                            December 31, 2011




                                                     USAID OIG Semiannual Report to the Congress 103
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                               Amt. of
                           Date of                                                                        Type of
  Report Number                                                 Report Title                   Findings
                           Report                                                                         Findings
                                                                                                ($000)
                                         Audit of USAID Resources Managed by Wits
                                         Health Consortium (Pty) Ltd (WHC) - Wits
                                         Reproductive Health and HIV Institute (WRHI)
                                         Under Cooperative Agreement No. 674-A-00-
                                         08-00005-00; Intervention with Microfinance
                                         for AIDS and Gender Equity (IMAGE) Under
  4-674-13-060-R          08/21/13                                                               59         QC
                                         Cooperative Agreement No. 674-A-12-
                                         00014-00 and Ikwezi - MAMA Monitoring and
                                         Evaluation and Vodacom iKhwezi mHealth
                                         (MAMA) Under Cooperative Agreement No.
                                         AID-674-A-12-00004 for the Year Ended
                                         September 30, 2012
                                         Audit of USAID Resources Managed by Lilongwe
                                         Medical Relief Trust (Safeguard the Family Project)
                                                                                                 23         QC
  4-612-13-061-R          09/04/13       Under Cooperative Agreement No. 612-A-00-
                                                                                                 20         UN
                                         11-00005-00 for the Period From November 1,
                                         2010, to June 30, 2012
                                         Audit of USAID Resources Managed by Nawalife
                                         Trust Under Cooperative Agreement No. 673-
  4-673-13-062-R           09/12/13      A-12-00001, Strengthening HIV Prevention for             3         QC
                                         the General Population of Namibia for the Period
                                         From January 24, 2012, to February 28, 2013
                                         Closeout Audit of USAID Resources Managed
                                         by Ifakara Health Institute Under Cooperative
  4-621-13-063-R           09/16/13
                                         Agreement No. 621-A-00-08-00007-00 for the
                                         Period July 1, 2011, to November 4, 2012
                                         Audit of USAID Resources Managed by
                                         Reproductive Health Uganda Under Cooperative
  4-617-13-064-R           09/17/13                                                               1         QC
                                         Agreement No. AID 617-A-09-00007 for the Year
                                         Ended December 31, 2012




10 4 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                                Amt. of
                 Date of                                                                   Type of
Report Number                                 Report Title                      Findings
                 Report                                                                    Findings
                                                                                 ($000)
                            Audit of USAID Resources Managed by Mothers
                            2 Mothers South Africa Under Cooperative
                            Agreement No. GHH-A-00-07-00019-00, New
                            Partners Initiative (closeout audit); Cooperative
                            Agreement No. AID-623-A-11-00020, Kenya
                            Mentor Mothers Programme; Subagreement
                            UL-00-9-180-02068-0-00, Elizabeth Glaser
                            Pediatrics AIDS Foundation (EGPAF)-Lesotho:            6         QC
4-674-13-065-R   09/18/13
                            Subagreement US-00-9-270-02318-0-00, EGPAF             2         UN
                            -Swaziland; Subagreement P1321A0027, PACT;
                            Subagreement 36521-02. John Snow Inc. (JSI)
                            -Uganda; Subagreement LMS Southern Africa
                            CRTA 10-1, Management Sciences for Health;
                            Subagreements TZA-050-01 and TZA-050-02,
                            Engender Health - Tanzania, for the Year Ended
                            December 31, 2011
                            Financial Audit of USAID Resources Managed by
                            the Department of Health Services, Government
                            of Nepal (GON), Under USAID Strategic
                            Objective Grant Agreement (SOAG) No. 367-             49         QC
5-367-13-002-N   05/31/13
                            011 and Assistance Agreement No. 367-012,             27         UN
                            Implementation Letter Nos. 8, 9 and 3.1, for the
                            Fiscal Years Ended July 15, 2009, 2010, and 2011,
                            respectively
                            Closeout Audit of USAID Resources Managed
                            by the Department of Education-Ministry of
                            Education, Government of Nepal, Under USAID           17         QC
5-367-13-004-N   07/29/13
                            Strategic Objective Grant Agreement Project No.        4         UN
                            367-009, Implementation Letter No. 16 for the
                            Period From July 17, 2011, to July 15, 2012
                            Audit of the Asia’s Regional Response to
                            Endangered Species Trafficking Program, USAID/
                            RDMA Cooperative Agreement No. 486-A-11-
5-486-13-022-R   04/05/13                                                          2         QC
                            00006, Managed by the Freeland Foundation
                            (Freeland), for the Period From April 1, 2011, to
                            December 31, 2011




                                                     USAID OIG Semiannual Report to the Congress 105
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                             Amt. of
                          Date of                                                                       Type of
  Report Number                                                Report Title                  Findings
                          Report                                                                        Findings
                                                                                              ($000)
                                       Financial Audit of the Program “AUCA Moving
                                       Forward,” USAID/Central Asia Republics Grant
                                       Agreement No. AID-176-G-10-00003, Managed               12         QC
  5-176-13-023-R          04/26/13
                                       by American University Central Asia (AUCA), for         2          UN
                                       the Period From September 1, 2010, to July 31,
                                       2012
                                       Closeout Financial Audit of the Innovations in
                                       Family Planning Services III - Uttarakhand, Project
  5-386-13-024-R          04/26/13     No. 386-0527, Managed by Uttarakhand Health
                                       & Family Welfare Society (UKHFWS), for the
                                       Period From April 1, 2011, to March 31, 2012
                                       Financial Audit of the Innovations in Family
                                       Planning Services III (IFPS III) - Uttar Pradesh,
                                       Project No. 386-0527, Managed by State
  5-386-13-025-R          05/08/13
                                       Innovations in Family Planning Services Agency
                                       (SIFPSA), for the Period From April 1, 2011, to
                                       March 31, 2012
                                       Closeout Financial Audit of Subaward Costs of
                                       Bangalore Electricity Supply Company Limited
                                       (BESCOM) Reimbursed by USAID Under Its
                                       Prime Award to Power Finance Corporation
                                       (PFC) to Implement Demonstration Equipment
  5-386-13-026-R          05/31/13     of the Distribution Reform, Upgrades and
                                       Management (DRUM) Component of the
                                       Project Titled “Energy Conservation and
                                       Commercialization” (ECO), USAID/India Project
                                       No. 3860542, for the Period From April 1, 2011,
                                       to March 31, 2012
                                       Closeout Audit of USAID Resources Managed by
  5-386-13-027-R          06/27/13     Voluntary Health Services, for the Period From          98         QC
                                       April 1, 2011, to June 30, 2012




10 6	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                                Amt. of
                 Date of                                                                   Type of
Report Number                                 Report Title                      Findings
                 Report                                                                    Findings
                                                                                 ($000)
                            Closeout Audit of the Project “Operation of
                            the Anti-Human Trafficking Halfway Houses,
                            and Mobilizing and Building Capacity of Multi-
                            Stakeholders in Philippine Southern Backdoors
                            and Other Identified Trafficking Hotpots (PORT       2,122       QC
5-492-13-028-R   07/18/13
                            Project),” USAID/Philippines’ Cooperative            1,812       UN
                            Agreement No. 492-A-00-05-00024-00, Managed
                            by the Visayan Forum Foundation, Inc. (VFFI),
                            for the Period From September 30, 2005, to
                            December 31, 2011
                            Financial Audit of the Project “Integrated Energy
                            Efficiency Approach in Residential Housing of
                            Dushanbe, Tajikistan,” USAID/Central Asian
                            Republics (CAR) Cooperative Agreement No.
5-176-13-029-R   08/29/13
                            AID-176-A-10-00003, Managed by the Regional
                            Environmental Centre for Central Asia (CAREC)
                            for the Period from September 30, 2010, to
                            November 30, 2012
                            Closeout Financial Audit of the Social Marketing
                            Sustainability Program, USAID/Bangladesh
                            Cooperative Agreement No. 388-A-00-08-
5-388-13-030-R   09/17/13
                            00020-00, Managed by the Social Marketing
                            Company (SMC), for the Period From October 1,
                            2011, to September 30, 2012
                            Financial Audit of Ghar Ghar Ma Swasthya
                            (GGMS) Program, USAID/Nepal Cooperative
5-367-13-031-R   09/18/13   Agreement No. AID-367-A-10-00002, Managed
                            by Nepal CRS Company Pvt Ltd (CRS), for the
                            Period From August 1, 2011, to July 31, 2012
                            Financial Audit of Health of the Urban Poor
                            Program, USAID/India Cooperative Agreement
                                                                                  401        QC
5-386-13-032-R   09/24/13   No. 386-A-00-09-00305-00, Managed by
                                                                                   12        UN
                            Population Foundation of India (PFI), for the
                            Period from April 1, 2011, to March 31, 2012
                            Closeout Financial Audit of the Health Policy
                            Development Program, USAID/Philippines
5-492-13-033-R   09/30/13   Cooperative Agreement No. 492-A-00-06-00031,
                            Managed by the UPecon Foundation, Inc., for the
                            Period from January 1, 2012, to March 31, 2013




                                                     USAID OIG Semiannual Report to the Congress 107
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                            Amt. of
                           Date of                                                                     Type of
  Report Number                                                 Report Title                Findings
                           Report                                                                      Findings
                                                                                             ($000)
                                         Financial Audit of the Upscaling Forest
                                         Restoration Efforts in Key Biodiversity Areas
                                         Project, USAID/Philippines Cooperative
                                                                                              14         QC
  5-492-13-034-R          09/30/13       Agreement No. AID-492-A-11-00004, Managed
                                                                                              14         UN
                                         by the Foundation for the Philippine Environment
                                         (FPE) for the Period from July 18, 2011, to
                                         June 30, 2012
                                         Financial Audit of USAID Funds Managed by the
                                         Eurasia Foundation of Central Asia-Kyrgyzstan
  5-116-13-035-R          09/30/13
                                         for the Period from January 1, 2012, to
                                         December 31, 2012
                                         Financial Audit of Government of Egypt’s Dollar
                                         Separate Accounts, Under USAID/Egypt’s Sector
  6-263-13-024-N           04/11/13
                                         Policy Reform Programs, for the Period From
                                         July 1, 2006, to June 30, 2011
                                         Close-out Audit of Locally Incurred Costs
                                         by Community Development Group Under
                                         Numerous Subcontracts with MWH Americas
  6-294-13-027-R          04/10/13       Inc.’s Indefinite Quantity Contract Number
                                         294-I-00-08-00202-00, Task Orders 1 and 2,
                                         Infrastructure Needs Program 1, for the Period
                                         From March 19, 2010, to February 24, 2011
                                         Audit of USAID Resources Managed and
                                         Expenditures Incurred by Horizon Interactive
                                         Studios, Grant Number AID-263-G-11-000024,
  6-263-13-028-R          04/23/13
                                         Increase Political and Civic Participation and
                                         Engagement Project, for the Period From July 27,
                                         2011, to October 31, 2012
                                         Close-out Financial Audit of USAID/Egypt
                                         Resources Managed and Expenditures Incurred by
                                         Human Development Association Under Engage           162        QC
  6-263-13-029-R          04/30/13
                                         and Monitor Project, Grant Number 263-G-00-          137        UN
                                         10-00047-00, for the Period From September 29,
                                         2010, to September 29, 2011
                                         Close-out Audit of Business Development Center,
                                         Tatweer I Program, Cooperative Agreement             61         QC
  6-278-13-030-R           05/12/13
                                         Number 278-A-00-06-00311-00, for the Period          61         UN
                                         From December 1, 2008, to February 28, 2010




10 8 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                               Amt. of
                 Date of                                                                  Type of
Report Number                                 Report Title                     Findings
                 Report                                                                   Findings
                                                                                ($000)
                            Audit of Locally Incurred Costs by
                            Massar, Subcontract No. WBGPACE001
                            Under Prime Chemonics Task Order No.
6-294-13-032-N   05/30/13
                            DFD-I-06-05-00219-00, Palestinian Authority
                            Capacity Enhancement Project, From
                            September 26, 2008, to June 30, 2009
                            Audit of the USAID Resources Managed by
                            Windows-Channels for Communication Under
                                                                                  8         QC
6-294-13-032-R   05/13/13   Cooperative Agreement Number 294-A-00-10-
                                                                                  8         UN
                            00108-00, Youth Media Program, for the Period
                            From May 6, 2010, to September 30, 2011
                            Close-out Audit of the Cost Representation
                            Statement of USAID Resources Managed by Al
                            Nasher Technical Services Company, Jordan
6-278-13-033-N   09/15/13   Communication and Outreach Campaign,
                            Contract Number 278-C-00-06-00331-00, for
                            the Period From October 12, 2006, to January 12,
                            2008
                            Audit of USAID Resources Managed and
                            Expenditures Incurred by Al Gora Community
                            Development Association, Grant Number 263-
6-263-13-033-R   05/22/13   G-00-08-0000-00, Promoting Civic Participation
                            Among Students in North Sinai Project, for the
                            Period From January 1, 2010, to December 31,
                            2012
                            Audit of USAID Resources Managed by CH2M
                            HILL Under USAID Contract Number 294-C-
6-294-13-034-N   09/19/13   00-00-00063-00, Water Resources Program-             656        QC
                            Phase III, for the Period From July 1, 2006, to
                            September 30, 2007
                            Audit of USAID Resources Managed by School for
                            Peace-Neve Shalom/Wahat Al-Salam, Subgrant
                            Under Prime American Friends of Neve Shalom/
6-294-13-034-R   05/22/13   Wahat Al-Salam, Cooperative Agreement
                            Number 294-A-00-10-00109-00, Creating
                            Change Agents Program, for the Period From
                            July 27, 2010, to September 30, 2011




                                                    USAID OIG Semiannual Report to the Congress 109
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                           Amt. of
                          Date of                                                                     Type of
  Report Number                                                Report Title                Findings
                          Report                                                                      Findings
                                                                                            ($000)
                                       Audit of the Fund Accountability Statement of
                                       Royal Society for the Conservation of Nature,
                                       Eco-Tourism Project, Under USAID Cooperative
  6-278-13-035-R          05/22/13
                                       Agreement Number 278-A-00-08-00320-
                                       00, for the Period From October 1, 2008, to
                                       December 31, 2009
                                       Audit of the Fund Accountability Statement of
                                       Royal Society for the Conservation of Nature,
                                       Eco-Tourism Project, Under USAID Cooperative
  6-278-13-036-R          05/22/13
                                       Agreement Number 278-A-00-08-00320-00, for
                                       the Period From January 1, 2010, to December 31,
                                       2010
                                       Audit of the Fund Accountability Statement
                                       of INJAZ Company for Creation of Economic
                                       Opportunities for Jordanian Youth, Youth
  6-278-13-038-R          06/05/13     Education Program for Jordan (INJAZ III),
                                       Cooperative Agreement Number 278-A-00-09-
                                       00309-00, for the Period From July 1, 2009, to
                                       June 30, 2010
                                       Audit of the Fund Accountability Statement
                                       of INJAZ Company for Creation of Economic
                                       Opportunities for Jordanian Youth,Youth
  6-278-13-039-R          06/05/13     Education Program for Jordan (NJAZ III),
                                       Cooperative Agreement Number 278-A-00-09-
                                       00309-00, for the Period From July 1, 2010, to
                                       June 30, 2011
                                       Audit of the Fund Accountability Statements of
                                       USAID Resources Managed by Transparency
                                       International e. V., Berlin, Germany, Award
  6-263-13-040-R          06/05/13     Number 263-G-00-07-00103-00, for the Period
                                       From January 1, 2011, to June 30, 2011, and Award
                                       Number 263-A-00-10-00076-00, for the Period
                                       From January 1, 2011, to December 31, 2011
                                       Close out Audit of USAID Resources Managed
                                       and Expenditures Incurred by Media-Arts for
  6-263-13-044-R          06/20/13     Development, Eagle In You Project, Grant
                                       Agreement No. 263-G-00-08-00006-00, for the
                                       Period From March 3, 2009, to April 30, 2012




110	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                               Amt. of
                 Date of                                                                  Type of
Report Number                                 Report Title                     Findings
                 Report                                                                   Findings
                                                                                ($000)
                            Close-out Examination of Ocean Infrastructure
                            and Investment Co. Ltd Compliance With Terms
                            and Conditions of its Sub-Fixed Price Contract,
6-294-13-045-O   04/09/13   Under International Relief and Development Task
                            Order Number 3, Indefinite Quantity Contract
                            Number 294-I-00-08-00217-00, for the Period
                            From October 20, 2008, to August 14, 2009
                            Examination of Saqqa and Khoudary General
                            Contracting Co. Ltd.’s Compliance With the
                            Terms and Conditions of Three Sub-Fixed Price
                            Contracts With American Intercontinental
6-294-13-047-O   04/11/13
                            Constructors LLC, Indefinite Quantity Contract
                            Number 294-I-00-08-00215-00, Infrastructure
                            Needs Program, for the Period From October 5,
                            2008, to November 7, 2010
                            Close-out Audit of the Fund Accountability
                            Statement of USAID Resources Managed by
                            Sharek Youth Forum Under Subgrant Number
                            LDR-10-001-24018-10-WB-SG001, Under Prime
6-294-13-047-R   08/25/13
                            CHF International, Cooperative Agreement
                            Number 294-A-00-05-00242-00, Local
                            Democratic Reform, for the Period From April 1,
                            2010, to October 20, 2011
                            Close-out Examination of Al Amjad Al Arabia
                            for Contracting & General Construction’s
                            Compliance With Terms and Conditions of
                            Sub-Fixed Price Contract Under Prime Apco-
6-294-13-048-O   05/21/13
                            Arcon, Task Order Number 23 Under Indefinite
                            Quantity Contract Number 294-I-00-08-00221-
                            00, Infrastructure Needs Program, for the Period
                            From November 14, 2009, to June 2, 2010
                            Close-out Examination of Roots’ Compliance
                            With Terms and Conditions of Sub-Fixed Price
                            Contract Under Prime Apco Arcon, Contract
6-294-13-049-O   05/22/13
                            Number 294-I-00-08-00221-00, Infrastructure
                            Needs Program, for the Period From April 1,
                            2009, to April 30, 2009




                                                     USAID OIG Semiannual Report to the Congress 111
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                        Amt. of
                          Date of                                                                  Type of
  Report Number                                                Report Title             Findings
                          Report                                                                   Findings
                                                                                         ($000)
                                       Close-out Examination of Al Azzam General
                                       Contracting Co.’s Compliance With Terms
                                       and Conditions of Subcontract Number 2010-
                                       0006, Under Prime International Relief and
  6-294-13-051-O          06/26/13     Development, Indefinite Quantity Contract
                                       Number 294-I-00-08-00217-00, Task Order
                                       Number 48, Infrastructure Needs Program I, for
                                       the Period From October 30, 2010, to May 8,
                                       2011
                                       Close-out Examination of Brothers Contracting
                                       Company’s Compliance With Terms and
                                       Conditions of Subcontract Number 2010-
                                       0010, Under Prime International Relief and
  6-294-13-052-O          06/26/13     Development, Indefinite Quantity Contract
                                       Number 294-I-00-08-00217-00, Task Order
                                       Number 50, Infrastructure Needs Program I, for
                                       the Period From October 26, 2010, to June 29,
                                       2011
                                       Audit of USAID Resources Managed by Engineers
                                       Association Jerusalem Center, Subgrant
                                       Agreement Number 24043-11-WB-SG001 Under
                                       Prime Cooperative Housing Foundation’s (CHF
  6-294-13-052-R          09/18/13
                                       International) Cooperative Agreement Number
                                       294-A-00-10-00211-00, Local Government and
                                       Infrastructure Program, for the Period From
                                       December 1, 2010, to September 30, 2012
                                       Close-out Examination of Ocean Infrastructure
                                       and Investment Co. Ltd.’s Compliance With
                                       Terms and Conditions of Subcontract Number
                                       2010-0005, Under Prime International Relief
 6-294-13-054-O           06/26/13     and Development, Indefinite Quantity Contract
                                       Number 294-I-00-08-00217-00, Task Order
                                       Number 48, Infrastructure Needs Program I, for
                                       the Period From December 4, 2010, to June 20,
                                       2011




112 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                               Amt. of
                 Date of                                                                  Type of
Report Number                                 Report Title                     Findings
                 Report                                                                   Findings
                                                                                ($000)
                            Close-out Examination of Al Saaideh General
                            Contracting Co.’s Compliance With Terms
                            and Conditions of Subcontract Number 2010-
                            0008, Under Prime International Relief and
6-294-13-055-O   06/26/13   Development, Indefinite Quantity Contract
                            Number 294-I-00-08-00217-00, Task Order
                            Number 48, Infrastructure Needs Program I, for
                            the Period From October 30, 2010, to May 9,
                            2011
                            Close-out Examination of Technical Group
                            Company for General Contracting’s Compliance
6-294-13-056-O   06/27/13   with Terms and Conditions of the Subcontracts
                            Under Prime International Relief and
                            Development
                            Close-out Examination of United Newland for
                            Investments LTD’s Compliance With Terms
6-294-13-057-O   06/27/13
                            and Conditions of Subcontracts Under Prime
                            International Relief and Development
                            Close-out Examination of Site Group for Services
                            and Well Drilling Ltd. Co.’s Compliance With
                            Terms and Conditions of Subcontract Number
                            2009-Water TO-43, Under Prime International
6-294-13-058-O   06/27/13   Relief and Development, Indefinite Quantity
                            Contract Number 294-I-00-08-00217-00, Task
                            Order Number 43, Infrastructure Needs Program
                            I, for the Period From September 26, 2011, to
                            May 31, 2012
                            Close-out Examination of Al-Khaisi for Industry
                            General Trading and Contracting Compliance
6-294-13-060-O   07/31/13
                            With Terms and Conditions of Subcontracts
                            Under Prime ANERA
                            Close-out Examination of Amer Brothers
                            Company for Trading and General Contracts
                            Compliance With Terms and Conditions of
                            Subcontract Number EO2-SA-GS-085, Under
6-294-13-061-O   07/31/13
                            Prime ANERA, Cooperative Agreement Number
                            294-A-00-08-00219-00, Emergency Water
                            and Sanitation Program II, for the Period From
                            February 15, 2011, to August 22, 2011




                                                    USAID OIG Semiannual Report to the Congress 113
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                        Amt. of
                          Date of                                                                  Type of
  Report Number                                                Report Title             Findings
                          Report                                                                   Findings
                                                                                         ($000)
                                       Close-out Examination of Arrawaq for
                                       Contracting and General Trading Compliance
                                       With Terms and Conditions of Subcontract
                                       Number EO2-SA-GS-086 Under Prime ANERA,
  6-294-13-062-O          07/31/13
                                       Cooperative Agreement Number 294-A-00-
                                       08-00219-00, Emergency Water and Sanitation
                                       Program II, for the Period From February 27,
                                       2011, to October 16, 2011
                                       Close-out Examination of Eastward Palestinian
                                       Co. for Industrial Trading and Contracting Ltd
                                       Compliance With Terms and Conditions of
                                       Subcontract Number EO2-SA-GS-083 Under
 6-294-13-063-O           07/31/13
                                       Prime ANERA, Cooperative Agreement Number
                                       294-A-00-08-00219-00, Emergency Water
                                       and Sanitation Program II, for the Period From
                                       February 16, 2011, to October 16, 2011
                                       Close-out Examination of Al-Petra for
                                       Excavations’ Compliance With Terms and
                                       Conditions of Subcontract Number EO2-WSO-
                                       SW-077, Under Prime ANERA, Cooperative
 6-294-13-064-O           07/31/13
                                       Agreement Number 294-A-00-08-00219-00,
                                       Emergency Water and Sanitation Program II, for
                                       the Period From April 28, 2011, to January 28,
                                       2012
                                       Close-out Examination of Ali Abu Safieh and
                                       Partners for General Contracting’s Compliance
                                       With Terms and Conditions of Subcontract
                                       Number EO3-WSO-SW-102, Under Prime
 6-294-13-065-O           07/31/13
                                       ANERA, Cooperative Agreement Number
                                       294-A-00-08-00219-00, Emergency Water
                                       and Sanitation Program II, for the Period From
                                       June 20, 2011, to March 20, 2012
                                       Close-out Examination of Abu Haniyeh for
                                       Construction and Development’s Compliance
                                       With Terms and Conditions of Subcontract
                                       Number EO2-WSO-NW-075 Under Prime
 6-294-13-066-O           07/31/13
                                       ANERA, Cooperative Agreement Number
                                       294-A-00-08-00219-00, Emergency Water
                                       and Sanitation Program II, for the Period From
                                       December 23, 2010, to February 28, 2012




114	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                               Amt. of
                 Date of                                                                  Type of
Report Number                                 Report Title                     Findings
                 Report                                                                   Findings
                                                                                ($000)
                            Close-out Examination of Abu Shammala &
                            Abu Dan Co. General Trade and Contracting
                            Ltd. Compliance With Terms and Conditions of
                            Subcontract Number EO2-SA-GS-081, Under
6-294-13-067-O   07/31/13
                            Prime ANERA, Cooperative Agreement Number
                            294-A-00-08-00219-00, Emergency Water
                            and Sanitation Program II, for the Period From
                            February 7, 2011, to September 15, 2011
                            Close-out Examination of Arab Brothers for
                            Precast Industries and Contracting’s Compliance
                            With Terms and Conditions of Sub-Fixed Unit
                            Price Contract Number TO-24-ABC, Under
6-294-13-068-O   08/25/13
                            Prime APCO/Arcon, Indefinite Quantity Contract
                            Number 294-I-00-08-00221-00, Task Order
                            Number 24, Infrastructure Needs Program I, for
                            the Period From April 3, 2010, to March 31, 2011
                            Close-out Examination of Al Amarah Company
                            for Contracting’s Compliance With Terms
                            and Conditions of Subcontract Number
                            24018-11-WB-SA004 Under Cooperative Housing
6-294-13-069-O   09/17/13   Foundation (CHF International), Cooperative
                            Agreement Number 294-A-00-05-00242-00,
                            Local Democratic Reform Program, for the
                            Period From February 21, 2011, to September 15,
                            2011
                            Close-out Examination of State Company
                            for General Contracting’s Compliance with
                            Terms and Conditions of Subcontracts Under
                            Cooperative Housing Foundation (CHF
6-294-13-070-O   09/17/13
                            International), Cooperative Agreement Number
                            294-A-00-07-00213-00, Emergency Jobs Program,
                            for the Period From June 7, 2010, to October 5,
                            2010
                            Close-out Examination of Center for Engineering
                            and Planning’s Compliance With Terms and
                            Conditions of Subcontracts Under Cooperative
                            Housing Foundation (CHF International),
6-294-13-071-O   09/17/13
                            Cooperative Agreement Number 294-A-00-05-
                            00242-00, Local Democratic Reform Program,
                            for the Period From October 1, 2010, to
                            December 30, 2011



                                                    USAID OIG Semiannual Report to the Congress 115
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                          Amt. of
                          Date of                                                                    Type of
  Report Number                                               Report Title                Findings
                          Report                                                                     Findings
                                                                                           ($000)
                                       Close-out Examination of Abu Al Samn Company
                                       for Contracting and Investment’s Compliance
                                       With Terms and Conditions of Subcontract
                                       Number 24043-11-NW-SA015 Under Prime
  6-294-13-072-O          09/17/13     Cooperative Housing Foundation (CHF
                                       International), Cooperative Agreement Number
                                       294-A-00-10-00211-00, Local Government and
                                       Infrastructure Program, for the Period From
                                       July 14, 2011, to October 7, 2011
                                       Close-out Examination of Al Asmar Company
                                       for Construction’s Compliance With Terms and
                                       Conditions of Subcontracts With Cooperative
                                       Housing Foundation (CHF International),
 6-294-13-073-O           09/17/13
                                       Cooperative Agreement Number 294-A-00-10-
                                       00211-00, Local Government and Infrastructure
                                       Program, for the Period From June 16, 2011, to
                                       March 30, 2012
                                       Close-out Examination of Al Salfeeti Contracting
                                       Establishment’s Compliance With Terms and
                                       Conditions of Subcontracts Under Cooperative
                                       Housing Foundation (CHF International),
  6-294-13-074-O          09/17/13
                                       Cooperative Agreement Number 294-A-00-10-
                                       00211-00, Local Government and Infrastructure
                                       Program, for the Period From July 11, 2011, to
                                       February 10, 2012
                                       Close-out Examination of Al Tamayouz for
                                       General Contracting’s Compliance With
                                       Terms and Conditions of Subcontracts Under
                                       Cooperative Housing Foundation (CHF
 6-294-13-075-O           09/17/13
                                       International), Cooperative Agreement Number
                                       294-A-00-10-00211-00, Local Government and
                                       Infrastructure Program, for the Period From
                                       July 6, 2011, to December 5, 2011
                                       Close-out Examination of Shaltaf Company for
                                       General Contracting’s Compliance With Terms
                                       and Conditions of Fixed Price Subcontracts
                                       Under Prime APCO/ArCon, Indefinite Quantity
  6-294-13-076-O         09/26/13
                                       Contract Number 294-I-00-08-00221-00,
                                       Infrastructure Needs Program I, Task Order
                                       Numbers 49 and 51, for the Period From
                                       November 27, 2010, to October 19, 2011



116	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                               Amt. of
                 Date of                                                                  Type of
Report Number                                 Report Title                     Findings
                 Report                                                                   Findings
                                                                                ($000)
                            Close-out Examination of Al Hamdeyah Company
                            for General Contracts’ Compliance With
                            Terms and Conditions of Subcontract Number
                            24043-11-NW-SA022 Under Cooperative
6-294-13-077-O   09/26/13   Housing Foundation (CHF International),
                            Cooperative Agreement Number 294-A-00-10-
                            00211-00, Local Government and Infrastructure
                            Program, for the Period From September 25,
                            2011, to April 20, 2012
                            Recipient-Contracted Audit of USAID Resources
                            Managed by Society for Family Health Under the
                                                                                  3         QC
7-620-13-003-R   07/30/13   Expanded Social Marketing Project in Nigeria
                                                                                  1         UN
                            (Cooperative Agreement No. 620-A-11-0001) for
                            the Period April 5, 2011, to December 31, 2011
                            Close-out Audit of USAID Resources Managed
                            by Cooperazione Internazionale Under the
                            Psychosocial Support and Reintegration of
                            Survivors of Sexual and Gender-Based Violence
7-623-13-004-R   07/31/13
                            Program in Eastern Democratic Republic of
                            Congo (Cooperative Agreement No. 623-A-00-
                            09-00009-00) for the Period January 1, 2011, to
                            April 30, 2012
                            Recipient-Contracted Audit of USAID
                            Resources Managed by EQUIP Liberia Under
                            the Malaria Prevention and Control Program
                            (Grant No. GHS-A-00-08-00003-00) for the
                            Period September 30, 2010, to December 31,
                            2011; the Disaster Declaration for the Influx of
7-669-13-005-R   07/31/13                                                        85         QC
                            Ivorian Refugees Program (Grant No. 669-G-
                            00-11-00032) for the Period January 7, 2011, to
                            April 7, 2011; and the OFDA Emergency Health
                            and Protection Program (Grant No. AID-
                            OFDA-G-11-00095) for the Period March 26,
                            2011, to March 25, 2012
                            Recipient-Contracted Audit of USAID Resources
                            Managed by the Gembu Centre for HIV/AIDS
                            Advocacy Nigeria (GECHAAN) Under the New
7-620-13-006-R   08/29/13                                                        14         QC
                            Tomorrows Project (Cooperative Agreement No.
                            620-A-00-08-00076-00) for the Period January 1,
                            2011, to December 31, 2011




                                                    USAID OIG Semiannual Report to the Congress 117
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                           Amt. of
                          Date of                                                                     Type of
  Report Number                                                Report Title                Findings
                          Report                                                                      Findings
                                                                                            ($000)
                                       Recipient-Contracted Audit of USAID Resources
                                       Managed by the Women Farmers Advancement
                                       Network (WOFAN) Under the Access to Safe
  7-620-13-007-R          09/30/13     Drinking Water, Sanitation and Hygiene Project
                                       (WASH) (Cooperative Agreement No. 620-A-
                                       00-09-00017-00) for the Period January 1, 2012,
                                       to December 31, 2012
                                       Consolidated Audit of USAID and Other Donor
                                       Resources Granted to the Permanent Interstate
                                                                                              1         QC
  7-624-13-008-R          09/30/13     Committee for Drought Control in the Sahel
                                                                                              1         UN
                                       (CILSS) for the Period January 1, 2011, to
                                       December 31, 2011
                                       Recipient Contracted Audit of USAID Resources
                                       Managed by the West and Central African Council
                                       for Agricultural Research and Development             100        QC
  7-624-13-009-R          09/30/13
                                       (CORAF/WECARD) (Grant Agreement No. 624-               17        UN
                                       A-00-07-00046) for the Period January 1, 2011, to
                                       December 31, 2011
                                       Financial Audit of the Program “Building
                                       Livelihood and Trade,” USAID/Afghanistan
                                       Cooperative Agreement No. 306-A-00-09-
  F-306-13-002-R          09/25/13
                                       00503-00, Managed by the Turquoise Mountain
                                       Trust (TMT), for the Period From January 1, 2012,
                                       to December 31, 2012
                                       Financial Audit of USAID Resources Managed
                                       by the Government of the Islamic Republic of
                                       Afghanistan Through the Ministry of Finance
 F-306-13-006-N           04/30/13     Under the Civilian Technical Assistance Program,
                                       Grant Agreement No. 306-09-CTAP-0001 for
                                       the Period From October 1, 2010, to March 20,
                                       2012
                                       Closeout Audit of the USAID Resources Managed
                                       by Aga Khan Trust for Culture Under Urban
                                                                                             123        QC
 F-306-13-008-N           05/23/13     Revitalization Program, Grant Agreement No.
                                                                                              53        UN
                                       306-G-00-10-00529-00 From June 23, 2010, to
                                       October 31, 2011




118 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                               Amt. of
                 Date of                                                                  Type of
Report Number                                 Report Title                     Findings
                 Report                                                                   Findings
                                                                                ($000)
                            Closeout Audit of USAID Resources Managed
                            by Ministry of Communications and Information
                            Technology to Implement Policy Capacity
F-306-13-012-N   06/27/13
                            Initiative Activity, Implementation Letter No.
                            306-IL-09-12-0004.00 for the Period From
                            October 1, 2010, to March 31, 2011
                            Closeout Audit of the Fund Accountability
                            Statement of USAID Resources Managed by
                            the Islamic Republic of Afghanistan Through the
F-306-13-015-N   08/31/13   Ministry of Transport and Civil Aviation Under
                            the Regional Airports Project, Implementation
                            Letter No. 306MlLMIIM05-17 for the Period From
                            January 9, 2011, to July 31, 2012
                            Financial Audit of USAID Resources Managed
                            By the Independent Directorate of Local
                                                                                1,884       QC
F-306-13-017-N   09/30/13   Governance under the District Delivery Program,
                                                                                1,722       UN
                            Implementation Letter No. 306-IL-10-04-01 for
                            the Period April 1, 2010, to March 20, 2012
                            Financial Audit of the Program Titled:
                            “Accelerated Capacity Building of Provincial
                            Reconstruction, Rehabilitation and Settlement
                            Authority/Provincial Disaster Management
G-391-13-001-N   05/17/13
                            Authority,” USAID/Pakistan Contract no. 391-
                            C-00-10-01144-00, Managed by KPMG Taseer
                            Hadi & Co., for the Period February 16, 2010, to
                            January 31, 2012
                            Financial Audit of the Program Titled “Anti-
                            Corruption Program Pakistan,” USAID/Pakistan
                            Cooperative Agreement No. 391-A-00-09-
                            01117-00, for the Project Ended December 31,
G-391-13-018-R   04/01/13   2011, and Program Titled “Anti-Fraud Hotline,”
                            USAID/Pakistan Cooperative Agreement No.
                            391-A-00-10-01194-00, Managed by Transparency
                            International Pakistan, for the Year Ended
                            June 30, 2012




                                                    USAID OIG Semiannual Report to the Congress 119
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                            Amt. of
                           Date of                                                                     Type of
  Report Number                                                Report Title                 Findings
                           Report                                                                      Findings
                                                                                             ($000)
                                        Financial Audit of Projects Managed by
                                        Lahore University of Management Sciences:
                                        Foreign Recipient Contracted Assessment and
                                        Strengthening Program Under Cooperative
  G-391-13-020-R          04/15/13      Agreement # 391-A-00-11-01202-00, and
                                        Subrecipient Contracted Merit and Needs Based
                                        Scholarship Program Under Grant Agreement
                                        # 391-G-00-04-01023-00, for the Year Ended
                                        June 30, 2012
                                        Financial Audit of the Program Titled: “USAID
                                        Agribusiness Project,” USAID/Pakistan
  G-391-13-021-R          05/15/13      Agreement no. AID-391-A-12-00001, Managed by           1         QC
                                        Agribusiness Support Fund, for the Period From
                                        November 10, 2011, to June 30, 2012
                                        Financial Audit of the USAID Resources Managed
  G-391-13-022-R          05/20/13      by National Rural Support Programme, for the          25         QC
                                        Year Ended June 30, 2012
                                        Financial Audit of the Program Titled: “USAID’s
                                        Citizens’ Voice Project,” USAID/Pakistan contract
  G-391-13-023-R          05/23/13      no. AID-391-C-11-00001, Managed by Trust for           1         QC
                                        Democratic Education and Accountability, for the
                                        Period May 27, 2011, to June 30, 2012
                                        Financial Audit of the Project Titled “Monitoring
                                        and Evaluation Project,” USAID/Pakistan Contract
                                        No. 391-C-00-10-01138-00, and Program Titled
                                        “Assessment and Strengthening Program,”
  G-391-13-024-R          05/29/13                                                            66         QC
                                        USAID/Pakistan Cooperative Agreement No.
                                        391-A-00-11-01203-00, Managed by Associates
                                        in Development (Private) Limited, for the Year
                                        Ended June 30, 2012
                                        Financial Audit of the Program Titled: “Gender
                                        Equity Program,” USAID/Pakistan Agreement
                                                                                              220        QC
  G-391-13-025-R          06/18/13      No. 391-A-00-10-01162-00, Managed by Aurat
                                                                                              220        UN
                                        Publication and Information Service Foundation,
                                        for the Year Ended June 30, 2012
                                                   Local Currency Trust Fund
                                        Financial Audit of USAID/Philippines’ Peso Trust
  5-492-13-003-N          06/26/13      Fund for Operating Expenses, for the Period from
                                        January 1, 2012, to December 31, 2012




12 0 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                               Amt. of
                 Date of                                                                  Type of
Report Number                                 Report Title                     Findings
                 Report                                                                   Findings
                                                                                ($000)
                                         U.S.-Based Contractors
                            TCG International, Inc. Report on Incurred Costs    2,009       QC
3-000-13-001-I   09/17/13
                            for Fiscal Year (FY) Ended December 31, 2003        2,009       UN
                            TCG International, LLC Report on Incurred Costs     1,330       QC
3-000-13-002-I   09/18/13
                            for Fiscal Year (FY) Ended December 31, 2004        1,330       UN
                            TCG International, LLC Report on Incurred Costs     1,810       QC
3-000-13-003-I   09/18/13
                            for Fiscal Year (FY) Ended December 31, 2005        1,810       UN
                            TCG International, LLC Report on Incurred Costs     2,047       QC
3-000-13-004-I   09/18/13
                            for Fiscal Year (FY) Ended December 31, 2006        2,047       UN
                            TCG International, LLC Report on Incurred Costs     2,223       QC
3-000-13-005-I   09/24/13
                            for Fiscal Year (FY) Ended December 31, 2007        2,223       UN
                            TCG International, LLC Report on Incurred Costs     1,833       QC
3-000-13-006-I   09/24/13
                            for Fiscal Year (FY) Ended December 31, 2008        1,833       UN
                            TCG International, LLC Report on Incurred Costs     1,883       QC
3-000-13-007-I   09/23/13
                            for Fiscal Year (FY) Ended December 31, 2009        1,883       UN
                            TCG International, LLC Report on Incurred Costs     2,076       QC
3-000-13-008-I   09/23/13
                            for Fiscal Year (FY) Ended December 31, 2010        2,076       UN
                            Democracy International, Inc. Report on Incurred
3-000-13-009-I   09/24/13   Costs for Fiscal Year (FY) Ended December 31,
                            2006
                            Democracy International, Inc. Report on Incurred
3-000-13-010-I   09/24/13   Costs for Fiscal Year (FY) Ended December 31,         3         QC
                            2007
                            Democracy International, Inc. Report on Incurred
3-000-13-011-I   09/24/13   Costs for Fiscal Year (FY) Ended December 31,
                            2008
                            Democracy International, Inc. Report on Incurred
3-000-13-012-I   09/26/13   Costs for Fiscal Year (FY) Ended December 31,
                            2009
                            Nextant, Inc. (Nexant) Report on Audit of
3-000-13-015-D   04/26/13   Revised Cost Accounting Standards (CAS)
                            Disclosure Statement
                            Fintrac, Incorporated Report on Incurred Costs
3-000-13-016-D   04/24/13
                            for Fiscal Year (FY) Ended December 31, 2004
                            Fintrac, Incorporated Report on Incurred Costs
3-000-13-017-D   04/24/13
                            for Fiscal Year (FY) Ended December 31, 2005




                                                    USAID OIG Semiannual Report to the Congress 121
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                          Amt. of
                           Date of                                                                   Type of
  Report Number                                                Report Title               Findings
                           Report                                                                    Findings
                                                                                           ($000)
                                        Desk Review of Development Alternatives, Inc.
                                                                                            70         QC
  3-000-13-018-D          04/24/13      DCAA Incurred Cost Audit for the Fiscal Year
                                                                                            70         UN
                                        Ended December 31, 1999
                                        Black and Veatch Special Project Corp. (BVSPC)
                                        Report on Timekeeping Policies and Procedures,
  3-000-13-019-D          04/23/13
                                        Labor Floor Check and Petty Cash Policies and
                                        Procedures
                                        PA Government Services, Inc. Report on Audit
 3-000-13-020-D           04/24/13      of Adequacy and Compliance of the Revised
                                        Disclosure Statement, Effective January 1, 2007
                                        Initiatives, Inc. Report on Incurred Costs for
                                                                                             4         QC
  3-000-13-021-D          04/26/13      Fiscal Years (FY) Ended December 31, 2004, and
                                                                                             4         UN
                                        December 31, 2005
                                        Casals & Associates, Inc. Report on Incurred
 3-000-13-022-D           05/01/13      Costs for Fiscal Year (FY) Ended December 31,
                                        2007
                                        International Resource Group, Ltd Report
 3-000-13-023-D           05/02/13      on Incurred Costs for Fiscal Year (FY) Ended         7         QC
                                        December 31, 2005
                                        Carana Corporation Report on Incurred Costs
 3-000-13-024-D           05/02/13
                                        for Fiscal Year (FY) Ended December 31, 2003
                                        The Mitchell Group, Inc. Report on Incurred
 3-000-13-025-D           05/03/13      Costs for Fiscal Year (FY) Ended December 31,
                                        2003
                                        Planning and Development Collaborative
                                        International, Inc. Report on Direct Incurred
 3-000-13-026-D           05/06/13
                                        and Billed Costs for Fiscal Year (FY) Ended
                                        September 30, 2006
                                        Tetra Tech ES, Inc. Report on Audit of Adequacy
  3-000-13-027-D          06/03/13
                                        Review of Disclosure Statement of DCAA Audit
                                        Louis Berger Group, Inc. (LBGI) Report on Audit
 3-000-13-028-D           06/13/13      of Cost Accounting Standards (CAS) Disclosure
                                        Statement Revision 1, Effective July 1, 2008
                                        Medical Service Corporation International, Inc.
 3-000-13-029-D           07/03/13      Report on Incurred Costs for Fiscal Year (FY)
                                        Ended December 31, 2002.
                                        Desk Review of the DCAA Audit of Incurred
 3-000-13-030-D           06/20/13
                                        Cost for FY 2005 of The Manoff Group Inc.




12 2	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                                  Amt. of
                 Date of                                                                     Type of
Report Number                                  Report Title                       Findings
                 Report                                                                      Findings
                                                                                   ($000)
                            The Manoff Group, Inc. Report on Incurred Costs
3-000-13-031-D   07/01/13
                            for Fiscal Year (FY) Ended December 31, 2006
                            Carana Corporation Report on Incurred Costs
3-000-13-032-D   07/01/13
                            for Fiscal Year (FY) Ended December 31, 2004
                            Medical Service Corporation International, Inc.
3-000-13-033-D   07/03/13   Report on Incurred Costs for Fiscal Year (FY)
                            Ended December 31, 2003
                            The Mitchell Group, Inc. Report on Incurred
3-000-13-034-D   07/02/13   Costs for Fiscal Year (FY) Ended December 31,
                            2004
                            International Resource Group, Ltd Report
3-000-13-035-D   07/02/13   on Incurred Costs for Fiscal Year (FY) Ended            38         QC
                            December 31, 2006
                            The Mitchell Group, Inc. Report on Incurred
3-000-13-036-D   07/03/13   Costs for Fiscal Year (FY) Ended December 31,
                            2005
                            Medical Services Corporation International, Inc.
3-000-13-037-D   07/10/13   Report on Incurred Costs for Fiscal Year (FY)
                            Ended December 31, 2004
                            Mendez England and Associates, Inc. (ME&A)
3-000-13-038-D   07/10/13   Report on Incurred Costs for Fiscal Year (FY)
                            Ended December 31, 2002
                            Casals & Associates, Inc. Report on Incurred
                                                                                    19         QC
3-000-13-039-D   07/10/13   Costs for Fiscal Year (FY) Ended December 31,
                                                                                    19         UN
                            2005
                            Medical Service Corporation International, Inc.
                                                                                     7         QC
3-000-13-040-D   07/24/13   (MSCI)Report on Incurred Costs for Fiscal Year
                                                                                     7         UN
                            (FY) Ended December 31, 2005
                            Abt Associates, Inc. (AAI) Report on Audit of
3-000-13-041-D   07/24/13   Disclosure Statement Revision 9, Effective April 1,
                            2009
                            Berger Group Holdings, Inc. (BGHI) Report
                            on Audit of Cost Accounting Standards (CAS)
3-000-13-042-D   08/06/13
                            Disclosure Statement Revisions 2 and 3, Both
                            Effective July 1, 2012
                            The Manoff Group, LLC Report on Incurred
3-000-13-043-D   08/27/13   Costs for Fiscal Year (FY) Ended December 31,
                            2007




                                                      USAID OIG Semiannual Report to the Congress 123
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                              Amt. of
                           Date of                                                                       Type of
  Report Number                                                Report Title                   Findings
                           Report                                                                        Findings
                                                                                               ($000)
                                        Mendez England and Associates, Inc. (ME&A)
 3-000-13-044-D           09/03/13      Report on Incurred Costs for Fiscal Year (FY)
                                        Ended December 31, 2004
                                        Mendez England and Associates, Inc. Report
 3-000-13-045-D           09/04/13      on Incurred Costs for Fiscal Year (FY) Ended
                                        December 31, 2003
                                        Mendez England and Associates, Inc. (ME&A)
 3-000-13-046-D           09/04/13      Report on Incurred Costs for Fiscal Year (FY)
                                        Ended December 31, 2005
                                        Checchi and Company Consulting, Inc. Report
                                                                                                 7         QC
  3-000-13-047-D          09/04/13      on Incurred Costs for Fiscal Years (FY) Ended
                                                                                                 7         UN
                                        June 30, 2005 and 2006
                                        AMEX International, Inc. Report on Incurred             335        QC
 3-000-13-048-D           09/09/13
                                        Costs for Fiscal Years (FY) 2002, 2003 and 2004         287        UN
                                        Carana Corporation Report on Incurred Costs
 3-000-13-049-D           09/10/13
                                        for Fiscal Year (FY) Ended December 31, 2005
                                        Abt Associates, Inc. Report on Labor Floor
 3-000-13-050-D           09/13/13
                                        Check for Fiscal Year (FY) 2012
                                        Independent Audit of AECOM International
                                        Development, Inc., Costs Incurred and Billed
  6-267-13-005-D          06/16/13      Under USAID Contract Number 267-I-021-06-
                                        0015, for the Period From October 1, 2010, to
                                        January 6, 2012
                                        Independent Audit of Management System
                                        International, Inc., Costs Incurred and
  6-267-13-008-D          06/26/13      Billed Under USAID Contract Number
                                        DFD-I-00-05-00221, for the Period From
                                        October 1, 2008, to July 31, 2011
                                        Independent Audit Report of Management
                                        Systems International, Inc.’s ((MSI) Costs Incurred
  6-267-13-009-D          09/16/13      and Billed Under USAID Contract Number                  923        QC
                                        DFD-I-00-05-00221-00, for the Period of
                                        October 1, 2007, to September 30, 2008
                                        Independent Report on the Application of
                                        Agreed-Upon Procedures for Sallyport Global
  6-267-13-010-D          09/26/13      Services, Life Support and Personal Security
                                        Detail Invoices Billed to USAID Time & Material
                                        Contracts, Al-Mansour District, Baghdad, Iraq




12 4 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                              Amt. of
                 Date of                                                                 Type of
Report Number                                Report Title                     Findings
                 Report                                                                  Findings
                                                                               ($000)
                            Close-out Audit of the Cost Representation
                            Statement of Local Costs Incurred by Camp,
                            Dresser, and Mckee International Under USAID
6-294-13-025-N   04/24/13   Contract Number GHA-I-01-04-00006-00,                7         QC
                            Small Water Infrastructure Fast Track Phase
                            II, for the Period From September 21, 2005, to
                            September 20, 2006
                            Audit of the Cost Representation Statement
                            of Locally Incurred Costs of USAID Resources
                            Managed by Management Systems International,
6-267-13-027-N   04/29/13                                                        9         QC
                            Under Contract Number AID-267-C-11-00005,
                            Iraq Administrative Reform Project-Tarabot, for
                            the Period From June 5, 2011, to March 31, 2012
                            Close-out Audit of the Cost Representation
                            Statement of USAID Resources Managed by
                            Development Alternative Inc., Contract Number
6-267-13-028-N   04/30/13
                            267-C-00-07-00505-00, Iraq Rapid Assistance
                            Program, for the Period From October 1, 2009,
                            to September 30, 2010
                            Audit of the Cost Representation Statement of
                            Locally Incurred Costs by The Service Group,
                            Subcontract Number GG477A-2007-001, Under
6-294-13-035-N   09/23/13
                            Prime Louis Berger Group, Contract Number
                            294-GEG-I-00-04-00003-00, for the Period From
                            October 1, 2007, to June 30, 2009
                            Audit of the Cost Representation Statement of
                            Locally Incurred Costs by University Research
                            Co. LLC Under Contract Number AID-
6-267-13-036-N   09/26/13
                            267-C-11-00004, Primary Health Care Program,
                            for the Period From March 4, 2011, to March 31,
                            2012
                            Audit of the Cost Representation Statement
                            of Local Costs Incurred by Metcalf and Eddy,
                            International, Under Contract Number 294-           76         QC
6-294-13-037-N   09/26/13
                            C-00-99-00038-00, Gaza Coastal Aquifer              67         UN
                            Management Program, for the Period From
                            October 1, 2002, to August 31, 2007




                                                    USAID OIG Semiannual Report to the Congress 125
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                             Amt. of
                           Date of                                                                      Type of
  Report Number                                                 Report Title                 Findings
                           Report                                                                       Findings
                                                                                              ($000)
                                         Audit of Locally Incurred Costs of USAID
                                         Resources Managed by Tetra Tech ARD, Under
  6-294-13-037-R          05/29/13       Contract Number DFD-I-04-05-00218-00, Civic
                                         Engagement Program II, for the Period From
                                         September 29, 2008, to March 30, 2012
                                         Close-out Audit of the Cost Representation
                                         Statement of Local Costs Incurred by Metcalf
                                         and Eddy, International, Under Contract Number
  6-294-13-038-N          09/26/13
                                         294-C-00-99-00038-00, Gaza Coastal Aquifer
                                         Management Program, for the Period From
                                         September 1, 2007, to December 31, 2008
                                         Close-out Examination Procedures Related to
                                         Interbuilmat Inc. Compliance With Terms and
 6-294-13-046-O           04/09/13       Conditions of Contract Number 294-C-00-08-
                                         00203-00, for the Period From February 11, 2008,
                                         to August 31, 2008
                                         Audit of Locally Incurred Costs of USAID
                                         Resources Managed by Development Alternatives,
                                         Inc., Under USAID Contract Number AID-
  6-294-13-046-R          07/30/13
                                         294-C-12-00001, the Competitiveness Project,
                                         for the Period From December 30, 2011, to
                                         September 30, 2012
                                         Close-out Audit of the Cost Representation
                                         Statement of USAID Resources Managed by
                                         Health Strategies International, LLC, Subcontract
  6-294-13-049-R           09/17/13      Number 294-C-00-08-00225-00-HSI Under
                                         Prime Chemonics, Contract Number 294-C-00-
                                         08-00225-00, Flagship Project, for the Period
                                         From October 1, 2009, to November 17, 2011
                                         Close-out Examination of International Relief
                                         and Development Compliance With Terms and
  6-294-13-050-O          06/26/13       Conditions of USAID Task Orders, Infrastructure
                                         Needs Program I, for the Period From
                                         December 8, 2009, to May 31, 2012




12 6 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                               Amt. of
                 Date of                                                                  Type of
Report Number                                 Report Title                     Findings
                 Report                                                                   Findings
                                                                                ($000)
                            Close-out Audit of the Cost Representation
                            Statement of USAID Resources Managed by Loma
                            Linda University, Subcontract Number 294-C-
6-294-13-051-R   09/18/13   00-08- 00225-00-LLU, Under Prime Chemonics,
                            Contract Number 294-C-00-08-00225-00,
                            Flagship Project, for the Period From October 1,
                            2009, to September 30, 2011
                            Close-out Examination of InterBuilMat Inc.’s
                            Compliance With Terms and Conditions
                            of Subcontract Number 1, Under Prime
                            International Relief and Development, Indefinite
6-294-13-053-O   06/26/13
                            Quantity Contract Number 294-I-00-08-00217-
                            00, Task Order Number 42, Infrastructure Needs
                            Program I, for the Period From October 28,
                            2009, to November 7, 2010
                            Close-out Audit of the Cost Representation
                            Statement of USAID Resources Managed by
                            IntraHealth International, Inc., Subcontract
                            Number 294-C-00-08-00225-00-IntraHealth
6-294-13-053-R   09/18/13
                            Under Prime Chemonics, Contract Number
                            294-C-00-08-00225-00, Flagship Project, for the
                            Period From October 01, 2009, to September 30,
                            2011
                            Examination of Dimensions Healthcare’s
                            Compliance With Terms and Conditions of
                            Fixed Price Subcontract Number 294-C-00-08-
                            00225-00-07, Under Prime Chemonics, Contract
6-294-13-059-O   07/30/13
                            Number 294-C-00-08-00225-00, Palestinian
                            Health Sector Reform and Development Project,
                            for the Period From January 22, 2010, to
                            January 20, 2012
                            Supplemental Audit of Direct Costs Incurred
                            and Billed by Black & Veatch Special Projects
                                                                                2,245       QC
F-306-13-001-D   07/16/13   Corporation Under Contract No. 306-I-
                                                                                2,245       UN
                            00-06-00517-00 From August 25, 2006, to
                            September 30, 2008




                                                    USAID OIG Semiannual Report to the Congress 127
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                               Amt. of
                           Date of                                                                        Type of
  Report Number                                                 Report Title                   Findings
                           Report                                                                         Findings
                                                                                                ($000)
                                         Audit of Direct Costs Incurred and Billed by Black
                                         & Veatch Special Projects Corporation Under
                                         the Afghanistan Infrastructure & Rehabilitation       16,987       QC
  F-306-13-002-D          09/24/13
                                         Program, Contract No. 306-1-00-06-00517-00            16,987       UN
                                         for the Period October 1, 2008, to September 30,
                                         2012
                                         Audit of the Costs Incurred in Afghanistan by
                                         Chemonics International Inc. Under the Trade
                                         Accession and Facilitation for Afghanistan Project,    4,120       QC
  F-306-13-010-N           06/13/13
                                         Contract No. 306-C-00-09-00S29-00 for the              3,944       UN
                                         Period From November 18, 2009, Through
                                         November 15, 2012
                                         Financial Audit of Costs Incurred in Afghanistan
                                         under the USAID Contract No. 306-1-00-06-
                                                                                               12,069       QC
  F-306-13-011-N          06/26/13       00517 with the Joint Venture Louis Berger Group,
                                                                                               11,697       UN
                                         Inc./Black & Veatch Special Projects Corp. for the
                                         Period October 1, 2010, to September 30, 2011
                                         Audit of the Costs Incurred in Afghanistan by
                                         Chemonics International Under The Regional
                                         Afghan Municipalities Program for Urban                6,347       QC
  F-306-13-014-N          07/30/13
                                         Populations (RAMPUP) in RC-South, Contract             6,346       UN
                                         No. 306-C-00-10-00527-00, for the Period
                                         June 10, 2010, to December 31, 2011
                                                        U.S.-Based Grantees
  3-000-13-001-L          09/30/13       Limited Scope Review of Africare FYs 2010 & 2011
                                         Report on Financial Closeout Audit of USAID
                                         Resources Managed by the Rural Justice Center
                                                                                                 494        QC
  3-521-13-001-N           09/16/13      Field Office in Haiti Under Grant Agreement No.
                                                                                                 201        UN
                                         S21-G-00-09-00028-00 From June 9, 2009, to
                                         August 9, 2010
                                         Desk Review of the Audit Report for the Albania-
  3-000-13-013-E           04/17/13      American Enterprise Fund for the Year Ending
                                         September 30, 2010




12 8 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                                Amt. of
                 Date of                                                                   Type of
Report Number                                 Report Title                      Findings
                 Report                                                                    Findings
                                                                                 ($000)
                            Desk Review of the Audit Report for the Albania-
3-000-13-014-E   04/17/13   American Enterprise Fund for the Year Ending
                            September 30, 2011
                            Desk Review of the Audit Report for the Polish-
3-000-13-015-E   04/17/13   American Enterprise Fund for the Year Ending
                            December 31, 2011
                            ACDI/VOCA, OMB Circular A-133 Audit Report
3-000-13-026-T   05/22/13
                            for Fiscal Year Ended December 31, 2011
                            Christian Mission Aid United States of America,
3-000-13-027-T   05/22/13   OMB Circular A-133 Audit Report for Fiscal Year
                            Ended June 30, 2012
                            American Near East Refugee Aid, Inc., OMB
3-000-13-028-T   05/24/13   Circular A-133 Audit Report for Fiscal Year Ended
                            May 31, 2012
                            Desk Review of Management Sciences for Health,
3-000-13-029-T   06/03/13
                            Inc. FY12 A-133 Audit Report
                            Medical Care Development, Inc., OMB Circular
3-000-13-030-T   06/06/13   A-133 Audit Report for Fiscal Year Ended
                            December 31, 2011
                            GSMA Foundation, Inc., OMB Circular A-133
3-000-13-031-T   06/03/13   Audit Report for Fiscal Year Ended March 31,
                            2012
                            Internews Network, OMB Circular A-133 Audit
3-000-13-032-T   06/03/13
                            Report for Fiscal Year Ended December 31, 2011
                            Save the Children Federation, Inc. OMB Circular
3-000-13-033-T   06/07/13   A-133 Audit Report for Fiscal Year Ended              36         QC
                            December 31, 2011
                            Desk Review of The Population Council, Inc. FY11
3-000-13-034-T   06/03/13
                            A-133 Audit Report
                            Childfund International USA, OMB Circular A-133
3-000-13-035-T   06/07/13   Audit Report for Fiscal Year (FY) Ended June 30,
                            2012
                            Catholic Relief Services-U.S. Conference of
3-000-13-036-T   06/07/13   Catholic Bishops, OMB Circular A-133 Audit            181        QC
                            Report for Fiscal Year Ended September 30, 2012
                            The Asia Foundation (TAF), OMB Circular A-133
3-000-13-037-T   06/13/13   Audit Report for Fiscal Year Ended September 30,
                            2012




                                                     USAID OIG Semiannual Report to the Congress 129
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                            Amt. of
                           Date of                                                                     Type of
  Report Number                                                Report Title                 Findings
                           Report                                                                      Findings
                                                                                             ($000)
                                        Desk Review of CHF International and Related
  3-000-13-038-T          07/11/13      Entities OMB Circular A-133 Audit Report For
                                        Fiscal Year Ended September 30, FY 2012
                                        Desk Review of Food For The Hungry OMB
  3-000-13-039-T          07/12/13      Circular A-133 Audit Report For Fiscal Year
                                        Ended September 30, (FY) 2012
                                        Review of International Foundation For Electoral
  3-000-13-040-T          07/24/13      Systems A-133 Audit Report for Fiscal Year Ended
                                        September 30, 2012
                                        CARE USA A-133 Audit Report for Fiscal Year
  3-000-13-041-T          08/06/13                                                            80         QC
                                        Ended June 30, 2012
                                        Review of Consortium for Elections and Political
  3-000-13-042-T          07/25/13      Process Strengthening A-133 Audit Report For
                                        Fiscal Year Ended September 30, 2012
                                        Desk Review of A-133 Audit Report for Pact, Inc.,
  3-000-13-043-T          08/06/13
                                        for the Fiscal Year Ended September 30, 2012
                                        Desk Review of A-133 Audit Report for Viet-Nam
  3-000-13-044-T          08/07/13      Assistance for the Handicapped for the Fiscal
                                        Year Ended June 30, 2012
                                        Review of American Council on Education
  3-000-13-045-T          08/08/13      A-133 Audit Report For Fiscal Year Ended
                                        September 30, 2012
                                        Review of PACT, Inc. and Affiliate A-133 Audit
  3-000-13-046-T          08/13/13
                                        Report For Fiscal Year Ended September 30, 2011
                                        Cure International, Inc. OMB Circular A-133
  3-000-13-047-T          08/15/13      Audit Report for Fiscal Year (FY) Ended June 30,
                                        2012
                                        Review of FY 2012 ACDI/VOCA International
  3-000-13-048-T          08/23/13      OMB Circular A-133 Audit Report For The Fiscal
                                        Year Ended December 31, 2012
                                        Review of The Population Council, Inc. OMB
  3-000-13-049-T          08/27/13      Circular A-133 Audit Report For The Fiscal Year
                                        Ended December 31, 2012
                                        Public Health Institute, OMB Circular A-133 Audit
  3-000-13-050-T          09/10/13      Report for Fiscal Year (FY) Ended December 31,
                                        2012
                                        Desk Review of Medical Care Development, Inc.
  3-000-13-051-T          08/29/13
                                        FY 12 A-133 Audit Report




13 0 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                                Amt. of
                 Date of                                                                   Type of
Report Number                                 Report Title                      Findings
                 Report                                                                    Findings
                                                                                 ($000)
                            Independent Audit of International Foundation
                            for Election Systems, IFES, Inc., Consortium for
                            Election and Political Process Strengthening,
6-267-13-006-D   06/16/13                                                         11         QC
                            Costs Incurred and Billed Under Cooperative
                            Agreement Number 267-A-00-04-00405-00,
                            From July 1, 2009, to February 29, 2012
                            Independent Audit of Garda World Consulting
                            Inc., Subaward Number 267-A-00-04-00405-
                            00, Under International Foundation for Election
                                                                                  514        QC
6-267-13-007-D   06/26/13   Systems/Consortium for Election and Political
                                                                                  514        UN
                            Process Strengthening, Agreement Number
                            DGC-A-00-01-00004-00, for the Period From
                            July 1, 2007, to September 30, 2011
                            Close-out Audit of Locally Incurred Costs by
                            Young Men’s Christian Association Under Sub-
                            Grant Agreement Number SC/TVET 001, With
                            Save the Children, Cooperative Agreement
6-294-13-023-N   04/10/13
                            Number 294-A-00-07-00210-00, Technical and
                            Vocational Education and Training Program in the
                            West Bank, for the Period From October 1, 2007,
                            to September 30, 2008
                            Close-out Audit of the Funds Accountability
                            Statement of Locally Incurred Costs by Search for
                            Common Ground Under Cooperative Agreement
6-294-13-026-N   04/28/13   Number 294-A-00-09-00215-00, Promoting
                            “Common Ground” Print and Broadcast News In
                            Israel, the West Bank and Gaza Program, for the
                            Period From July 1, 2010, to September 30, 2011
                            Audit of Fund Accountability Statement of Local
                            Costs Incurred, Under Cooperative Agreement
                            Number 267-A-00-08-00504-00, Managed
                            by Agricultural Cooperative Development
6-267-13-029-N   05/15/13
                            International/Volunteers in Overseas Cooperative
                            Assistance, Community Action Program III,
                            for the Period From October 1, 2010, to
                            September 30, 2011




                                                     USAID OIG Semiannual Report to the Congress 131
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                          Amt. of
                          Date of                                                                    Type of
  Report Number                                                Report Title               Findings
                          Report                                                                     Findings
                                                                                           ($000)
                                       Audit of the Fund Accountability Statement of
                                       USAID Resources Managed by International Relief
                                       and Development Under Cooperative Agreement         2,103       QC
  6-267-13-030-N          05/30/13
                                       Number 267-A-00-08-00506, Community                 2,103       UN
                                       Action Program (ICAPIII), for the Period From
                                       October 1, 2008, to September 30, 2010
                                       Audit of the Fund Accountability Statement of
                                       USAID Resources Managed by International Relief
                                       and Development Under Cooperative Agreement          159        QC
  6-267-13-031-N          05/30/13
                                       Number 267-A-00-08-00506, Community                  159        UN
                                       Action Program (ICAPIII), for the Period From
                                       October 1, 2010, to September 30, 2011
                                       Close-out Audit of Fund Accountability Statement
                                       of Local Costs Incurred by International
                                       Orthodox Christian Charities, Subaward Number
  6-294-13-031-R          05/13/13     ARDWBG465, Under Prime Tetra Tech ARD,                1         QC
                                       Task Order Number DFD-I-04-05-00218-00 for
                                       the Period From January 15, 2010, to June 15,
                                       2011
                                       Close-out Audit of Locally Incurred Costs
                                       Managed by Family Health International (FHI
                                       360), Under Cooperative Agreement Number
  6-294-13-041-R          06/16/13
                                       294-A-00-08-00222-00, Expanded and Sustained
                                       to Financial Services, for the Period From
                                       October 1, 2011, to December 31, 2012
                                       Audit of the Fund Accountability Statement
                                       of USAID Resources Managed by Internews
                                       Network Under Award Number 294-A-00-10-
  6-294-13-042-R          06/16/13
                                       00207-00, Enhancing Palestinian Independent
                                       Media Program, for the Period From
                                       September 30, 2010, to September 30, 2011
                                       Close-out Audit of the Fund Accountability
                                       Statement of USAID Resources Managed by Just
                                       Vision, Under Grant Number 294-G-00-09-
  6-294-13-043-R          06/16/13
                                       00213-00, Multi Media Education and Outreach,
                                       for the Period From October 1, 2011, to
                                       September 25, 2012




132 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                                Amt. of
                 Date of                                                                   Type of
Report Number                                 Report Title                      Findings
                 Report                                                                    Findings
                                                                                 ($000)
                            Audit of Locally Incurred Costs of USAID
                            Resources Managed by Mercy Corps Under
                            Cooperative Agreement Number 294-A-00-10-
6-294-13-045-R   06/20/13
                            00210-00, Palestinian Community Assistance
                            Program, for the Period From October 1, 2011, to
                            September 30, 2012
                            Close-out Audit of Locally Incurred Costs of
                            USAID Resources Managed by Save the Children
                            Federation, Inc. Under Cooperative Agreement
6-294-13-048-R   09/15/13
                            Number 294-A-00-07-00210-00, Vocational
                            Training and Education Development Program, for
                            the Period From July 1, 2010, to October 31, 2011
                            Audit of the Fund Accountability Statement
                            of Locally Incurred Costs by Cooperative
                            Housing Foundation (CHF International), Under
6-294-13-050-R   09/17/13   Cooperative Agreement Number 294-A-00-10-
                            00211-00, Local Government and Infrastructure
                            Program, for the Period From October 1, 2011, to
                            September 30, 2012
                            Financial Audit of Costs Incurred in Afghanistan
                            by Roots of Peace Under the Commercial
                            Horticulture and Agriculture Marketing Program,      1,828       QC
F-306-13-007-N   05/14/13
                            Cooperative Agreement No. 306-A-00-10-                864        UN
                            00512 for the Period From February 1, 2010, to
                            December 31, 2011
                            Audit of Costs Incurred in Afghanistan by
                            The Asia Foundation (TAF) Under the Afghan
                                                                                  330        QC
F-306-13-009-N   05/29/13   Public Opinion Surveys Program, Cooperative
                                                                                  125        UN
                            Agreement No. 306-A-00-09-00514-00 for the
                            Period June 23, 2009, to September 30, 2011
                            Close-out Audit of USAID Resources Managed by
                            Creative Associates International Inc. Under the
                                                                                 2,171       QC
F-306-13-013-N   07/24/13   Ambassador’s Small Grants Program, Cooperative
                                                                                 1,925       UN
                            Agreement No. 306-A-00-09-00517-00 for the
                            Period July 2, 2009, to January 31, 2012




                                                     USAID OIG Semiannual Report to the Congress 133
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                         Amt. of
                          Date of                                                                   Type of
  Report Number                                                Report Title              Findings
                          Report                                                                    Findings
                                                                                          ($000)
                                       Close-out Audit of Costs Incurred By Education
                                       Development Center, Inc. to Implement The
                                       Skills Training For Afghan Youth Project Under
  F-306-13-016-N          09/22/13                                                          1         QC
                                       Associate Cooperative Agreement 306-A-00-
                                       10-00524-00 for the Period April 01, 2010, to
                                       December 31, 2011
                                       Report on Financial Review Procedures
                                       Performed on USAID Resources (Local Cost)
                                       Managed by the American Institute of Research,
                                                                                           454        QC
 G-391-13-003-O           04/05/13     USAID Agreement No. 391-A-00-08-01100-00,
                                                                                           454        UN
                                       Program Titled: “Links to Learning: Education
                                       Support to Pakistan Program,” for the Period
                                       From July 1, 2010, to December 31, 2011
                                       Report on Financial Review Procedures
                                       Performed on USAID Resources (Local Cost)
                                       Managed by the Education Development Center
                                                                                           302        QC
 G-391-13-004-O           05/15/13     Inc., USAID Agreement No. 391-A-11-00001,
                                                                                           298        UN
                                       Program Titled: “Pre-Service Teacher Education,
                                       for the Period April 5, 2011, to December 31,
                                       2011




134 	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                               Performance Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                     Amt. of
                 Date of
Report Number                            Report Title                Findings   Type of Findings
                 Report
                                                                      ($000)
                                    Economy and Efficiency
                            Audit of USAID/Bolivia’s Health
1-511-13-003-P   06/20/13
                            Program
                            Audit of USAID/El Salvador’s Municipal
1-519-13-005-P   05/06/13
                            Competitiveness Project
                            Audit of USAID/Mexico’s Global
1-523-13-006-P   06/20/13
                            Climate Change Program
                            Audit of USAID/Haiti’s Leadership,
1-521-13-007-P   08/02/13
                            Management and Sustainability Project
                            Audit of USAID/Haiti’s Integrated
1-521-13-008-P   09/05/13   Financing for Value Chains and
                            Enterprises
                            Audit of USAID’s Regional Program for
                            the Management of Aquatic Resources
1-596-13-009-P   09/24/13
                            and Economic Alternatives in Central
                            America
                            Audit of USAID/South Sudan’s Core          605            QC
4-668-13-008-P   07/11/13
                            Institutional Structures Project            3             UN
                            Audit of USAID/East Africa’s Maternal
4-695-13-009-P   07/26/13
                            and Child Health Program in Burundi
                            Audit of USAID’s Agricultural Programs    2,518           QC
4-612-13-010-P   07/30/13
                            in Malawi                                 2,505           UN
                            Audit of USAID’s Compliance with
4-649-13-011-P   09/17/13   Executive Order 13536 Prohibiting
                            Support to al-Shabaab in Somalia
                            Audit of USAID/Bangladesh’s Promoting
5-388-13-006-P   06/19/13   Democratic Institutions and Practices
                            Program
                            Audit of USAID/Indonesia’s Indonesia
5-497-13-007-P   07/24/13
                            Forest and Climate Support Project
                            Audit of USAID/Cambodia’s Helping
                                                                       83             QC
5-442-13-008-P   08/16/13   Address Rural Vulnerabilities and
                                                                       83             UN
                            Ecosystem Stability Program
                            Audit of USAID/Jordan’s Youth for the
6-278-13-010-P   04/15/13
                            Future Program
                            Audit of USAID/Lebanon’s Developing
6-268-13-011-P   04/28/13   Rehabilitation Assistance to Schools
                            and Teacher Improvement Program



                                                 USAID OIG Semiannual Report to the Congress 135
                                  Performance Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                        USAID
                              April 1–September 30, 2013

                                                                                     Amt. of
                            Date of
  Report Number                                             Report Title             Findings   Type of Findings
                            Report
                                                                                      ($000)
                                           Audit of USAID/West Bank and Gaza’s
  6-294-13-012-P            05/27/13
                                           Compete Project
                                           Audit of USAID/Iraq’s Primary Health
  6-267-13-013-P            06/16/13
                                           Care Project in Iraq
                                           Audit of USAID/Lebanon’s Water and         1,355           QC
  6-268-13-014-P            06/23/13
                                           Wastewater Sector Support Program          1,322           UN
                                           Audit of USAID/Lebanon’s Investment
  6-268-13-015-P            07/17/13
                                           in Microfinance Program
                                           Audit of USAID/West Bank and Gaza’s
  6-294-13-016-P            09/15/13
                                           Peace and Reconciliation Program
                                           Audit of USAID/Liberia’s Malaria
  7-669-13-002-P            05/14/13
                                           Interventions
                                           Audit of USAID/Mali’s Economic
  7-688-13-003-P            05/31/13                                                   54             QC
                                           Growth Activities
                                           Audit of USAID/Ghana’s Partnership
                                                                                       384            QC
  7-641-13-004-P            07/22/13       for Accountable Governance in
                                                                                       384            UN
                                           Education Project
                                           Audit of USAID/Morocco’s Democracy
  7-608-13-005-P            09/30/13
                                           and Governance Program
                                           Audit of USAID/Bosnia-Herzegovina’s
  9-168-13-003-P            05/30/13       Fostering Interventions for Rapid
                                           Market Advancement Project
                                           Audit of USAID’s Albanian Justice
  9-182-13-004-P            09/13/13
                                           Sector Strengthening Project
                                           Audit of USAID’s Defense Base Act
  9-000-13-005-P            09/18/13                                                  6,586           QC
                                           Insurance Program
                                           Audit of the Cost and Security Policies
 A-000-13-005-P             09/17/13       and Procedures for USAID’s Mobile
                                           Devices
                                           Audit of USAID/Afghanistan’s Kandahar
  F-306-13-001-P            09/25/13                                                   164            QC
                                           Helmand Power Project
                                           Audit of USAID/Afghanistan’s Use of
  F-306-13-002-P            08/31/13
                                           Third-Country National Employees
                                           Audit of USAID/Pakistan’s Independent
  G-391-13-003-P            05/22/13                                                  7,065           QC
                                           Monitoring and Evaluation Program
                                           Audit of USAID/Pakistan’s Agribusiness
  G-391-13-004-P            06/12/13
                                           Project




13 6	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                               Performance Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USAID
                           April 1–September 30, 2013

                                                                     Amt. of
                 Date of
Report Number                            Report Title                Findings   Type of Findings
                 Report
                                                                      ($000)
                            Audit of USAID/Pakistan’s Small Grants
G-391-13-005-P   09/17/13
                            Program




                                                 USAID OIG Semiannual Report to the Congress 137
                                  Miscellaneous Reports
      Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                             That Funds Be Put to Better Use
                                          USAID
                               April 1–September 30, 2013

                                                                                                   Amt. of
                          Date of                                                                             Type of
   Report Number                                                   Report Title                    Findings
                          Report                                                                              Findings
                                                                                                    ($000)
                                                 Quality Control Reviews (QCR)
                                      Quality Control Review of PAGS, Close-Out Audit of
                                      the Fund Accountability Statement of USAID Resources
   1-521-13-006-Q         04/18/13    Provided Under Grant No. 521-G-00-10-00003-00
                                      “Medishare Project,” Managed by Medishare for the Period
                                      From February 23, 2010, to August 15, 2010
                                      Quality Control Review of Campusano & Asociados of
                                      Dominican Republic, Regarding the Financial Audit of the
                                      Fund Accountability Statement of the “Civil Society Action
                                      for Improved Public Sector Performance Program,” Grant
                                      Agreement No. 517-A-00-09-00103-00 and “Formation
   1-517-13-007-Q         07/10/13                                                                   228        QC
                                      of Young Leaders of Political Parties in the Dominican
                                      Republic - Phase II Program,” Grant Agreement No. 517-
                                      A-00-09-00105-00; Managed by Participación Ciudadana
                                      for the Period From September 1, 2010, to September 30,
                                      2011
                                      Quality Control Review of Horwath, Sotero Peralta &
                                      Asociados of the Dominican Republic, Regarding the
                                      Financial Audit of Fund Accountability Statement of USAID
                                                                                                      1         QC
   1-517-13-008-Q        07/22/13     Resources, Grant Agreement No. 517-A-00-10-00100-00,
                                                                                                      1         UN
                                      Administered by the American Chamber of Commerce
                                      of the Dominican Republic, Inc., (AMCHAMDR), for the
                                      Period From January 1, 2011, to December 31, 2011
                                      Quality Control Review of BDO - Ortega y Asociados of
                                      the Dominican Republic, Regarding the Financial Audit of
                                      the Effective Schools Program, Cooperative Agreement
   1-517-13-009-Q         07/25/13
                                      No. 517-A-00-10-00102-00, Administered by the Pontificia
                                      Universidad Católica Madre y Maestra (PUCMM), for the
                                      Period From July 1, 2010, to June 30, 2011
                                      Quality Control Review of the Audit Report on the
                                      Financial Audit of the Government of Georgia’s Separate
                                      Dollar Account, U.S. Dollar Related Account and Local
                                      Currency Treasury Single Account Under USAID/
  3-000-13-001-Q 05/28/13
                                      Caucasuss Budgetary Support for the Government of
                                      Georgia Fiscal Year 2009 Period From November 1, 2008,
                                      to February 28, 2009, Conducted by Grant Thornton
                                      CSJC




13 8	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                              Miscellaneous Reports
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                      USAID
                           April 1–September 30, 2013

                                                                                       Amt. of
                Date of                                                                           Type of
Report Number                                    Report Title                          Findings
                Report                                                                            Findings
                                                                                        ($000)
                           Audit Agency for Charitable Organization “Commercial
                           Law Center” (CLC), the USAID Office of Inspector
3-000-13-002-Q 05/28/13    General (OIG) Performed a Quality Control Review
                           (QCR) of the Recipient Contracted Audit Performed by
                           JSC KPMG for the Fiscal Year Ended December 31, 2010
                           Quality Control Review of Gelman Rosenberg &
3-000-13-003-Q 05/27/13    Freedman’s Audit Documentation for Africare’s Single
                           Audit-FYs 2010 & 2011
                           Quality Control Review of Crowe Clark Whitehill LLP
3-000-13-004-
                05/23/13   for Recipient Contracted Audit of MERLIN for Fiscal Year
     Q
                           Ended December 31, 2011
                           Quality Control Review of GVA EURAUDIT Audit of
3-000-13-005-Q 05/21/13
                           GOAL for the Fiscal Year Ended December 31, 2010
                           Quality Control Review of Gelman, Rosenberg
3-000-13-006-              & Freedman Audit of Southern Africa Enterprise
                09/24/13
     Q                     Development Fund (SAEDF) For The Fiscal Year (FY)
                           Ended December 31, 2010 and 2011
                           Quality Control Review of BDO Audit of Population
3-000-13-007-Q 09/10/13    Services International (PSI) For The Fiscal Years (FY)
                           Ended December 31, 2010 and 2011
                           Quality Control Review of USAID Resources Managed
                           by Hospice Palliative Care Association of South Africa
4-674-13-001-Q 05/22/13
                           (HPCA) Under Cooperative Agreement No. 674-A-00-
                           10-00023-00 for the Year Ended March 31, 2012
                           Quality Control Review (QCR) of the Agency Contracted
                           Audit of USAID Resources Managed by Ministry of Health
                           (MoH) Under Implementation Letters 663-IL-663-0014.1/2
4-663-13-002-Q 06/03/13
                           #78, 663-IL-663- 0014.1/2#97, IL663-0014.1/2 #15. IL-663-
                           0014.1/2 #44, IL-663-0014.1/2 #53 and IL-663-0014.1/2
                           #58 for the Period From July 8, 2007, to July 7, 2011
                           Quality Control Review of USAID Resources Managed by
                           Deloitte Consulting Ltd. TUNAJALI Program Under HIV/
                           AIDS Care and Treatment and Rapid Funding Envelope
                           Contract No. 621-C-007-00002-00, Community Care for
4-621-13-003-Q 06/13/13    PLWHA and OVC Cooperative Agreement No. 621-A-00-
                           07-00023-00 and the PEPFAR Mission Support Services
                           Indefinite Quantity Contract (MS5 IOC-II) Contract No.
                           21-1-00-08-00003-00 for the Year Ended December 31,
                           2010




                                                      USAID OIG Semiannual Report to the Congress 139
                                 Miscellaneous Reports
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                         USAID
                              April 1–September 30, 2013

                                                                                                 Amt. of
                        Date of                                                                             Type of
 Report Number                                                   Report Title                    Findings
                        Report                                                                              Findings
                                                                                                  ($000)
                                     Quality Control Review of Audit of USAID Resources
                                     Managed by Joint Clinical Research Centre (JCRC) Under
 4-617-13-004-Q         07/17/13
                                     Cooperative Agreement No. AID-617-A-10-00006 for the
                                     Period June 10, 2010, to June 30, 2011
                                     Quality Control Review of USAID Resources Managed by
                                     Africa Centre for Holistic Management (ACHM) Under
 4-902-13-005-Q 08/08/13
                                     Grant Agreement No. DFD-G-00-10-00084-00 for the
                                     Year Ended December 31, 2011
                                     Quality Control Review of Audit of USAID Resources
                                     Managed by Justice For All-Prison Fellowship Ethiopia
 4-663-13-006-Q 09/25/13
                                     (JFA-PFE) Under Cooperative Agreement No. 663-A-00-
                                     07-00416-00 for the Year Ended December 31, 2011
                                     Quality Control Review of the Audit Report and Audit
                                     Documentation for the Financial Audit Conducted by
                                     KPMG Taseer Hadi & Co. of Program Titled “USAID’s
 G-391-13-002-Q 09/30/13             Citizens' Voice Project,” USAID/Pakistan Contract No.
                                     AID-391-C-11-00001, Managed by Trust for Democratic
                                     Education and Accountability, for the Period From May 27,
                                     2011, to June 30, 2012
                                                             Other
                                     Review Report on a Procurement Issue Related to USAID/
  4-668-13-001-S        07/17/13
                                     South Sudan’s Core Institutional Structures Project
                                     Survey of Security Services Employed by USAID/Iraq’s
  6-267-13-002-S        06/13/13
                                     Contractors and Grantees
                                     Review of Selected Incurred Costs and Internal Controls
  6-294-13-003-S        06/20/13     for Parents Circle-Family Forum for the Period September       3         QC
                                     2011, Through December 2012
                                     Review of USAID’s Partner-Country and Local
 9-000-13-003-S         06/07/13     Organization Assessments Under Implementation and
                                     Procurement Reform
                                     Review of USAID/Pakistan’s International Training
  G-391-13-001-S        04/30/13
                                     Practices




14 0	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                         Reports With Questioned and Unsupported Costs
                                             USAID
                                   April 1-September 30, 2013


                                                           Number of         Questioned Costs         Unsupported
                       Reports
                                                          Audit Reports             ($)                Costs1 ($)


A. For which no management decision had been
                                                                 58             24,436,7222,3         20,206,7562,3
   made as of April 1, 2013

B. Add: Reports issued April 1-September 30,
                                                                119             95,015,5324            73,437,6274
   2013


                       Subtotal                                 177             119,452,254            93,644,383


C. Less: Reports with a management decision
                                                                1015            37,400,8786            24,820,6946
   made April 1-September 30, 2013

      Value of costs disallowed by agency officials                              8,046,018              6,202,389

       Value of costs allowed by agency officials                                29,354,860             18,618,305

D. For which no management decision had been
                                                                 77             82,051,3767            68,823,6897
   made as of September 30, 2013

Unsupported costs, a subcategory of questioned costs, are reported separately as required by the Inspector General
1

Act.

2
 The ending balances on March 31, 2013, for questioned costs totaling $20,657,439 and for unsupported costs totaling
$16,413,278 were increased by $3,779,283 for questioned costs and increased by $3,793,478 for unsupported costs
respectively, to reflect adjustments in recommendations from prior periods.

3
 Amounts include $1,309,250 in questioned costs and $1,304,250 in unsupported costs for audits performed for OIG by
other federal audit agencies.

4
 Amounts include $21,166,031 in questioned costs and $20,138,953 in unsupported costs for audits performed for OIG
by other federal audit agencies.

5
 Unlike the monetary figures in this row, this figure is not being subtracted from the subtotal. Some audit reports
counted here may be counted again in the figure below because some reports have multiple recommendations and fall
into both categories.

6
 Amounts include $3,679,971 in questioned costs and $3,629,661 in unsupported costs for audits performed for OIG by
other federal audit agencies.

Amounts reflect $18,795,310 in questioned costs and $17,813,542 in unsupported costs for audits performed for OIG by
7

other federal audit agencies.




                                                             USAID OIG Semiannual Report to the Congress 141
                  Reports With Recommendations That Funds Be Put to Better Use
                                             USAID
                                   April 1-September 30, 2013


                    Reports                             Number of Audit Reports   Value ($)

 A. For which no management
    decision had been made as of                                       1           76,766
    April 1, 2013

 B. Add: Reports issued
                                                                       0             0
    April 1-September 30, 2013


                    Subtotal                                           1           76,766

 C. Less: Reports with a
    management decision made                                           0             0
    April 1-September 30, 2013
          Value of costs disallowed by
                                                                       0             0
          agency officials
          Value of costs allowed by
                                                                       0             0
          agency officials
 D. For which no management
    decision had been made as of                                       0             0
    September 30, 2013




14 2 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                 Reports Over 6 Months Old With No Management Decision
                                          USAID
                                April 1-September 30, 2013


Report Numbers         Auditee     Issue Date                          Status

                                                Recommendation 5. That USAID/Pakistan
                                                determine the allowability of $1,359,337 in
                                                questioned costs (unsupported) and recover those
                                                costs determined to be unallowable. The Office of
                                                Acquisition and Assistance, the Office of Financial
                                                Managment, and Bureau for Economic Growth,
                                                Education and Environment will investigate the
G-391-12-001-P         Pakistan     11/03/11
                                                unsupported questioned costs of $1,359,337 and
                                                make a decision on those costs. A managment
                                                decision on this recommendation will be reached
                                                when USAID/Pakistan determines whether the
                                                questioned costs are allowed or disallowed; final
                                                action will occur when any disallowed amount is
                                                collected.




                                                USAID OIG Semiannual Report to the Congress 143
                                  Significant Revisions of Management Decisions
                                                      USAID
                                            April 1-September 30, 2013



 Section 5(a)(11) of the Inspector General Act requires a description and explanation of the reasons for any
 significant revised management decisions during the reporting period.

 During this reporting period, USAID did not make any significant revisions of management decisions.




       Significant Management Decisions With Which the Inspector General Disagrees
                                         USAID
                               April 1-September 30, 2013



 Section 5(a)(12) of the Inspector General Act requires semiannual reports to include information concerning
 any significant management decisions with which the inspector general disagrees.

 During this reporting period, there were no instances where the Inspector General disagreed with a significant
 management decision.




14 4 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
            Noncompliance with the Federal Financial Improvement Act of 1996
                                        USAID
                              April 1-September 30, 2013



Section 5(a)(13) of the Inspector General Act requires semiannual reports to include an update on issues
outstanding under a remediation plan required by the Federal Financial Management Improvement Act of 1996
(FFMIA), (Public Law 104-208, Title VIII, codified at 31 U.S.C. 3512 note). FFMIA requires agencies to comply
substantially with (1) federal financial management system requirements, (2) federal accounting standards, and
(3) the U.S. Standard General Ledger at the transaction level. An agency that is not substantially compliant
with FFMIA must prepare a remediation plan.

Under a previously reported audit report, No. A-000-13-003-P, dated November 14, 2012, OIG identified an
instance of substantial noncompliance with FFMIA as required by OMB Bulletin 07-04, "Audit Requirements
for Financial Statements." Specifically, OIG reported that (1) USAID has not established an effective risk
management program to ensure that policies and procedures are assessed and working as intended and (2)
USAID's decentralized management of information technology and information security does not allow the
Agency to implement a process to effectively assess, respond to, and monitor information security risk across
the organization. To address the significant deficiency, USAID has prepared a 3-year corrective action plan,
which is expected to be fully implemented by the end of fiscal year 2015.




                                                         USAID OIG Semiannual Report to the Congress 145
                              Significant Findings From Contract Audit Reports
                                                    USAID
                                          April 1-September 30, 2013



 The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181, Section 845) requires
 inspectors general to submit information on contract audit reports, including grants and cooperative
 agreements, that contain significant audit findings in semiannual reports to the Congress.

 The act defines “significant audit findings” to include unsupported, questioned, or disallowed costs in excess of
 $10 million and other findings that the inspector general determines to be significant.

 On OIG’s behalf, DCAA conducted the “Audit of Direct Costs Incurred and Billed by Black & Veatch Special
 Projects Corporation Under the Afghanistan Infrastructure & Rehabilitation Program, Contract No. 306-
 I-00-06-00517-00 for the Period October 1, 2008, to September 30, 2012” and questioned $16, 986,934 in
 costs incurred and billed by Black & Veatch. The objective of the Afghanistan Infrastructure & Rehabilitation
 Program (AIRP) was to provide USAID/Afghanistan a full range of technical assistance, physical support, and
 infrastructure services to the Government of Afghanistan, the Afghan people, and private the sector in the
 following areas: (1) energy and natural resources, (2) transport, (3) urban development/water sanitation, and
 (4) public buildings. The audit objective was to determine whether the AIRP costs incurred and billed were
 allowable, reasonable, and properly allocated in accordance with the Federal Acquisition Regulation (FAR), cost
 accounting standards, USAID acquisition regulations, and contract provisions.

 OIG questioned $16.5 million in significant subcontractor costs that are not adequately supported in
 accordance with the FAR and subcontract terms, and travel costs totaling $.5 million in excess of the
 lowest standard airfare that are not adequately documented and justified in accordance with the FAR. OIG
 recommended that USAID/Afghanistan determine the allowability and recover as appropriate the unsupported
 questioned costs. Management decisions have not been reached on the two recommendations.




14 6	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
SIGNIFICANT FINDINGS AND
ACTIVITIES: MILLENNIUM CHALLENGE
CORPORATION



MCC forms partnerships with some of the world’s poorest countries and provides large-scale grants
to them when they demonstrate they are committed to good governance, economic freedom, and
investment in their citizens. These grants fund country-led solutions for reducing poverty through
sustainable economic growth.




    Fishermen return from work near an MCC-funded improved fish landing site in Tifnit, Morocco (photo by Jake
    Lyell for MCC).




	                                                     U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   147
14 8	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
FINANCIAL MANAGEMENT



Fund Accountability Statements

OIG reviews and approves fund accountability statement audits of compact funds under recipient
government management. These fund accountability statement audits are conducted by independent
public auditors. Under the terms of MCC compacts, funds expended by a recipient country must
be audited at least annually. The recipient country establishes an accountable entity, usually a
Millennium Challenge Account (MCA), that produces financial statements documenting account
activity. The audit of a fund accountability statement is conducted by an audit firm that OIG has
approved.

The selected audit firm issues an opinion on whether the financial statements present fairly, in all
material respects, the program revenues and costs incurred and reimbursed, in conformity with the
terms of a compact agreement and related supplemental agreements for the period being audited.

In addition, the audit firm is required to employ generally accepted government auditing standards in
performing the audits. All MCA audit reports are reviewed, approved, and issued by OIG.

During this reporting period, OIG issued 14 fund accountability statement audits, which
included 13 recommendations.




	                                               U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   14 9
15 0	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
MANAGEMENT ACCOUNTABILITY



Audit of the Millennium Challenge Corporation’s Fiscal Year 2013 Compliance With the Federal
Information Security Management Act of 2002
Report No. M-000-13-005-P

OIG contracted with the independent certified public accounting firm of CliftonLarsonAllen
LLP (Clifton) to conduct the audit. Clifton was required to conduct the audit in accordance with
generally accepted government auditing standards. The objective of the audit was to determine
whether MCC implemented selected minimum security controls for selected information systems
to meet Federal Information Security Management Act of 2002 (FISMA) requirements to reduce
the risk of data tampering, unauthorized access to and disclosure of sensitive information, and
disruption to MCC’s operations.

To answer the audit objective, Clifton assessed whether MCC implemented selected management,
technical, and operational controls outlined in National Institute of Standards and Technology
Special Publication 800-53, Recommended Security Controls for Federal Information Systems and
Organizations, Revision 3. Clifton performed audit fieldwork at MCC’s headquarters in Washington,
D.C., from March 2013 to July 2013.

The auditors concluded that MCC implemented 116 of 141 selected security controls for selected
information systems in support of FISMA. For example, MCC implemented an effective incident
handling and response program. It also maintained an adequate and effective specialized training
program for employees requiring role-based training.

Although MCC generally had policies for its information security program, its implementation of
those policies was not fully effective in ensuring the preservation of the confidentiality, integrity,
and availability of the Agency’s information and information systems, potentially exposing them to
unauthorized access, use, disclosure, disruption, modification, or destruction.

To address the weaknesses reported in Clifton’s report, OIG made 15 recommendations to MCC’s
management. Four of them asked MCC to reopen recommendations made in the prior year audit.
Although OIG acknowledged MCC's management decisions on each of the 15 recommendations, it
did not agree with MCC’s management decisions for two of the recommendations. Therefore, OIG
encouraged MCC to revisit its management decisions for those recommendations and revise them to
fully address the weaknesses identified in Clifton’s audit report.


	                                                U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   151
Millennium Challenge Account (MCA)-Contract Canceled

The director of a West African-based MCA was found by OIG to have arranged for his brother-
in-law to be hired as an adjudicator between the MCA and one of its construction contractors. The
adjudicator for MCA projects decides whether the MCA or the contractor prevails in claim disputes.
The investigation revealed that this conflict of interest was not disclosed to the contractor as required
by MCC regulations and could have resulted in inappropriate claims being paid. The adjudicator
subsequently resigned, the director was terminated, and the contract was rescinded by the MCA.




152 	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
TABLES: MILLENNIUM CHALLENGE
CORPORATION




           Significant Recommendations Described Previously Without Final Action
                                          MCC
                               April 1–September 30, 2013

                                                                                                                       Final
                                                                  Date of         Rec.       Management               Action
    Report Number                 Report Title
                                                                  Report          No.        Decision Date            Target
                                                                                                                       Date
                     The Risk Assessment of the Millennium
                                                                                    3            09/01/11            03/10/14
                     Challenge Corporation’s Information
    M-000-11-001-O                                                06/01/11          4            09/01/11            03/01/14
                     Technology Governance Over Its
                                                                                    13           09/01/11            11/06/13
                     Information Technology Investments
                     Follow-up Audit of the Millennium
                                                                                     7           03/30/12            11/01/13
                     Challenge Corporation’s
                                                                                     8           03/30/12            11/01/13
    M-000-12-002-P   Implementation of Key Components of          03/30/12
                                                                                     9           03/30/12            11/01/13
                     a Privacy Program for its Information
                                                                                    22           03/30/12            11/01/13
                     Technology Systems

                                                                                     4           11/06/12            11/06/13
                     Audit of the Millennium Challenge                               5           11/06/12            11/06/13
                     Corporation’s Fiscal Year 2012                                  6           11/06/12            11/06/13
    M-000-13-001-P   Compliance With the Federal                  11/06/12          11           11/06/12            11/06/13
                     Information Security Management Act                            12           11/06/12            11/06/13
                     of 2002                                                        13           11/06/12            11/06/13
                                                                                    18           11/06/12            11/06/13




	                                                   U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   153
            Significant Recommendations Described Previously Without Final Action
                                           MCC
                                April 1–September 30, 2013

                                                                                                                   Final
                                                                                Date of    Rec.   Management      Action
  Report Number                            Report Title
                                                                                Report     No.    Decision Date   Target
                                                                                                                   Date
                                                                                            1       11/13/12      11/15/13
                                                                                            2       11/13/12      11/15/13
                                                                                            3       11/13/12      11/15/13
                                                                                            4       11/13/12      11/15/13
                                                                                            5       11/13/12      11/15/13
                                                                                            6       11/13/12      11/15/13
                                                                                            7       11/13/12      11/15/13
                                                                                            8       11/13/12      11/15/13
                                                                                            9       11/13/12      11/15/13
                         Audit of the Millennium Challenge
                                                                                           10       11/13/12      11/15/13
                         Corporation’s Financial Statements,
                                                                                           11       11/13/12      11/15/13
  M-000-13-001-C         Internal Controls, and Compliance for                  11/15/12
                                                                                           12       11/13/12      11/15/13
                         the Period Ending September 30, 2012
                                                                                           13       11/13/12      11/15/13
                         and 2011
                                                                                           14       11/13/12      11/15/13
                                                                                           15       11/13/12      11/15/13
                                                                                           16       11/13/12      11/15/13
                                                                                           17       11/13/12      11/15/13
                                                                                           18       11/13/12      11/15/13
                                                                                           19       11/13/12      11/15/13
                                                                                           20       11/13/12      11/15/13
                                                                                           21       11/13/12      11/15/13
                                                                                           22       11/13/12      11/15/13
                Audit of the Millennium Challenge
                Corporation (MCC) Resources Managed
                by Millennium Development Authority
 M-000-13-003-N                                                                 11/21/12    1       05/16/13      11/21/13
                (MiDA) Under the Agricultural Credit
                Program (ACP) in Ghana from May 1,
                2008, to September 30, 2011
                                                                                            1       12/06/12      12/06/13
                                                                                            2       12/06/12      12/06/13
                         Audit of the Millennium Challenge
  M-000-13-002-P                                                                12/06/12    3       12/06/12      12/06/13
                         Corporation’s Resettlement Activities
                                                                                            4       12/06/12      12/06/13
                                                                                            5       12/06/12      12/06/13




15 4	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
        Significant Recommendations Described Previously Without Final Action
                                       MCC
                            April 1–September 30, 2013

                                                                                               Final
                                                            Date of    Rec.   Management      Action
Report Number                   Report Title
                                                            Report     No.    Decision Date   Target
                                                                                               Date
               Fund Accountability Statement (FAS)
               and Close-Out Audit of the Millennium
               Challenge Corporation (MCC)
               Resources Managed by the Millennium
               Challenge Georgia Fund (MCG) Under
M-000-13-008-N                                              01/08/13    1       08/06/13      09/19/14
               the Compact Agreement Between the
               MCC and the Government of Georgia
               for the Period from January 1, 2011, to
               April 7, 2011 (FAS) and April 8, 2011, to
               August 4, 2011 (Close-out)
                                                                        2       01/31/13      01/31/14
                  Audit of the Millennium Challenge                     3       01/31/13      01/31/14
M-000-13-003-P                                              01/31/13
                  Corporation’s Programs in Mozambique                  4       01/31/13      01/31/14
                                                                        5       01/31/13      01/31/14
                  Audit of the Millennium Challenge
M-000-13-004-P    Corporation’s Monitoring of Trafficking   02/12/13    1       02/12/13      02/12/14
                  in Persons in MCC-Funded Programs




                                                      USAID OIG Semiannual Report to the Congress 155
                                Miscellaneous Reports
    Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                           That Funds Be Put to Better Use
                                         MCC
                             April 1-September 30, 2013


     Report              Date of                                                 Amount of
                                                 Report Title                                Type of Findings
     Number              Report                                                   Findings

                                       Quality Control Review
                                       (QCR) of the Ernst &
                                       Young S.R.L. Performance
                                       and Documentation
                                       Associated With the
                                       Audit Titled Audit of the
                                       Millennium Challenge
                                       Corporation (MCC)
    M-000-13-                          Resources Managed by
                         06/07/13
     001-Q                             Millennium Challenge
                                       Account-Moldova (MCA-
                                       Moldova), Under the
                                       Compact Agreement
                                       Between MCC and the
                                       Government of the
                                       Republic of Moldova From
                                       January 1, 2012, to June 30,
                                       2012
                                       Quality Control Review of
    M-000-13-
                         08/12/13      Diaz Murillo Dalupan and
     002-Q
                                       Company




15 6	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                Performance Audits
   Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                          That Funds Be Put to Better Use
                                       MCC
                            April 1-September 30, 2013


     Report            Date of                                           Amount of
                                            Report Title                                   Type of Findings
     Number            Report                                             Findings

                                  Audit of the Millennium
                                  Challenge Corporation's Fiscal
 M-000-13-005-P       09/20/13    Year 2013 Compliance with the
                                  Federal Information Security
                                  Management Act of 2002




               Incidents in Which OIG Was Refused Assistance or Information
                                            MCC
                                 April 1-September 30, 2013


Section 6(b)2) of the Inspector General Act of 1978 requires an inspector general to report to the head of the
agency whenever requested information or assistance is unreasonably refused or not provided.

During this reporting period, there were no reports of such instances.




                                                           USAID OIG Semiannual Report to the Congress 157
                                   Financial Audits
    Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                           That Funds Be Put to Better Use
                                        MCC
                             April 1–September 30, 2013

                                                                                               Amt. of
                          Date of                                                                         Type of
  Report Number                                                   Report Title                 Findings
                          Report                                                                          Findings
                                                                                                ($000)
                                                    Programs and Operations
                                       Limited Scope Audit of Millennium Challenge Account-
                                                                                                1,340       QC
 M-000-13-020-N           06/27/13     Morocco (MCA-Morocco) Staff Salaries and Fringe
                                                                                                  88        UN
                                       Benefits
                                                     MCA Audit and Reviews
                                       Audit of the Millennium Challenge Corporation (MCC)
                                       Resources Managed by Millennium Challenge Account-
                                       Mali (MCA-Mali), Under the Compact Agreement
 M-000-13-016-N           04/16/13     Between the MCC and the Government of Mali From
                                       July 1, 2012 to August 24, 2012 (Fund Accountability
                                       Statement) and August 25, 2012, to December 31, 2012,
                                       (Close-out)
                                       Audit of the Millennium Challenge Corporation
                                       (MCC) Resources Managed by Millennium Challenge
                                       Account-Lesotho (MCA-Lesotho), Under the Compact
 M-000-13-017-N           06/10/13
                                       Agreement Between the MCC and the Government
                                       of the Kingdom of Lesotho From January 1, 2012, to
                                       December 31, 2012
                                       Audit of the Millennium Challenge Corporation (MCC)
                                       Resources Managed by Millennium Challenge Account-
                                                                                                 164        QC
 M-000-13-018-N           06/10/13     Mongolia (MCA-Mongolia), Under the Compact
                                                                                                 164        UN
                                       Agreement Between the MCC and the Government of
                                       Mongolia From January 1, 2011, to December 31, 2011
                                       Audit of the Millennium Challenge Corporation
                                       (MCC) Resources Managed by Millennium Challenge
 M-000-13-019-N           06/10/13     Account-Tanzania (MCA-Tanzania), Under the Compact
                                       Agreement Between the MCC and the Government of
                                       Tanzania From January 1, 2012, to December 31, 2012
                                       Audit of the Millennium Challenge Corporation (MCC)
                                       Resources Managed by Alliance for Green Revolution
                                       for Africa (AGRA) a Covered Provider Under the Grant
 M-000-13-021-N           07/12/13
                                       Agreement Between the Millennium Development
                                       Authority (MiDA) and AGRA From July 1, 2011, to
                                       April 30, 2012




15 8	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                      MCC
                           April 1–September 30, 2013

                                                                                       Amt. of
                 Date of                                                                          Type of
Report Number                                    Report Title                          Findings
                 Report                                                                           Findings
                                                                                        ($000)
                            Audit of the Millennium Challenge Corporation (MCC)
                            Resources Managed by Millennium Challenge Account-
                            El Salvador (Fondo del Milenio), Under the Compact
M-000-13-022-N   07/12/13
                            Agreement Between the MCC and the Government
                            of El Salvador From January 1, 2012, to September 20,
                            2012
                            Audit of Fund Accountability Statement of the
                            Millennium Challenge Corporation (MCC) Resources
                            Managed by Millennium Development Authority (MiDA)
M-000-13-023-N   07/31/13
                            Under the Compact Agreement Between the MCC
                            and the Government of Ghana From July 1, 2011, to
                            April 30, 2012
                            Audit of the Millennium Challenge Corporation (MCC)
                            Resources Managed by Millennium Challenge Account-
M-000-13-024-N   08/08/13   Morocco (MCA-Morocco), Under the Compact                      1         QC
                            Agreement Between the MCC and the Government of
                            Morocco From January 1, 2012, to December 31, 2012
                            Audit of the Millennium Challenge Corporation (MCC)
                            Resources Managed by Millennium Challenge Account
                            - Philippines (MCA-Philippines), Under the Compact
M-000-13-025-N   08/12/13
                            Agreement Between the MCC and the Government of
                            the Republic of the Philippines From January 1, 2012, to
                            June 30, 2012
                            Fund Accountability Statement (FAS) and Close-out
                            Audit of the Millennium Challenge Corporation (MCC)
                            Resources Managed by Millennium Challenge Account
                            - Armenia SNCO, Under the Compact Agreement                  276        QC
M-000-13-026-N   08/16/13
                            Between the MCC and the Government of the Republic            1         UN
                            of Armenia From January 1, 2011, to September 29,
                            2011, (FAS) September 30, 2011, to January 27, 2012
                            (Close-Out)
                            Audit of the Millennium Challenge Corporation
                            (MCC) Resources Managed by Millennium Challenge
                            Account-Namibia (MCA-Namibia), Under the Compact
M-000-13-027-N   08/20/13
                            Agreement Between the MCC and the Government
                            of the Republic of Namibia From January 1, 2012, to
                            December 31, 2012




                                                     USAID OIG Semiannual Report to the Congress 159
                                    Financial Audits
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                         MCC
                              April 1–September 30, 2013

                                                                                               Amt. of
                           Date of                                                                        Type of
  Report Number                                                     Report Title               Findings
                           Report                                                                         Findings
                                                                                                ($000)
                                         Audit of the Millennium Challenge Corporation
                                         (MCC) Resources Managed by Millennium Challenge
  M-000-13-028-N           08/22/13      Account-Moldova (MCA-Moldova), Under the Compact
                                         Agreement Between the MCC and the Government of
                                         Moldova From July 1, 2012, to December 31, 2012
                                         Audit of the Millennium Challenge Corporation (MCC)
                                         Resources Managed by Millennium Challenge Account-
  M-000-13-029-N           09/03/13      Mongolia (MCA-Mongolia), Under the Compact
                                         Agreement Between the MCC and the Government of
                                         Mongolia From January 1, 2012, to December 31, 2012




16 0	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                       Reports With Questioned and Unsupported Costs
                                            MCC
                                 April 1-September 30, 2013

                                                     Number
                                                                      Questioned
                    Reports                          of Audit                          Unsupported Costs ($)
                                                                       Costs ($)
                                                     Reports

A. For which no management decision had
                                                        4             23,486,462             1,504,560
   been made as of April 1, 2013

B. Add: Reports issued April 1-September 30,
                                                        4              1,781,392              253,704
   2013


                    Subtotal                            8             25,267,854              1,758,264

C. Less: Reports with a management decision
                                                        41            23,486,462             1,504,560
   made April 1-September 30, 2013

    Value of costs disallowed by agency officials                      8,217,471              1,254,625

    Value of costs allowed by agency officials                        15,268,991               249,935

D. For which no management decision had
                                                        4              1,781,392              253,704
   been made as of September 30, 2013

1
 Unlike the monetary figures in this row, this figure is not subtracted from the subtotal. Some audit
reports counted here may be counted again in the figure below because some reports have multiple
recommendations and fall into both categories.




                                                            USAID OIG Semiannual Report to the Congress 161
                  Reports With Recommendations That Funds Be Put to Better Use
                                              MCC
                                   April 1-September 30, 2013




 During the reporting period, there were no reports with recommendations that funds be put to better use.




162	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                Reports Over 6 Months Old With No Management Decision
                                          MCC
                               April 1-September 30, 2013




During the reporting period, there were no reports more than 6 months old without a managment decision.




                                                     USAID OIG Semiannual Report to the Congress 163
                                  Significant Revisions of Management Decisions
                                                        MCC
                                            April 1-September 30, 2013



   Section 5(a)(11) of the Inspector General Act requires a description and explanation of the reasons for any
   significant revised management decisions during the reporting period.

   During this reporting period, MCC did not make any significant revisions of management decisions.




        Significant Management Decisions With Which the Inspector General Disagrees
                                           MCC
                                April 1-September 30, 2013



   Section 5(a)(12) of the Inspector General Act requires semiannual reports to include information concerning
   any significant management decisions with which the inspector general disagrees.

   During this reporting period, there were no instances in which the Inspector General disagreed with a
   significant management decision.




                               Significant Findings From Contract Audit Reports
                                                      MCC
                                           April 1-September 30, 2013


   The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181, Section 845) requires
   inspectors general to submit information on contract audit reports, including grants and cooperative
   agreements, that contain significant audit findings in semiannual reports to the Congress.

   The act defines “significant audit findings” to include unsupported, questioned, or disallowed costs in excess
   of $10 million and other findings that the inspector general determines to be significant.

   During the reporting period, OIG had no significant findings from contract audit reports for MCC.




16 4	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
SIGNIFICANT FINDINGS AND TABLES:
UNITED STATES AFRICAN DEVELOPMENT
FOUNDATION



USADF provides grants of up to $250,000 to local community groups and enterprises that benefit
underserved and marginalized groups in Africa. The Foundation measures grant success in terms of
jobs, increased income levels, and improved social conditions.

No performance audits were issued of USADF programs or operations during this reporting period.




	                                             U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   16 5
            Significant Recommendations Described Previously Without Final Action
                                          USADF
                                April 1–September 30, 2013

                                                                                       Management
       Report                                                     Date of       Rec.                  Final Action Target
                                    Report Title                                        Decision
       Number                                                     Report        No.                          Date
                                                                                          Date
  7-ADF-08-007-P
   Audit of the African     09/17/08                                              1     09/17/08*          12/31/13
   Development Foundation/                                                        7     09/17/08*          12/31/13
   Ghana Project Activities                                                      14     09/17/08**         12/31/13
							                                                                          *Revised managment decision 06/30/2011
							                                                                         **Revised managment decision 05/03/2011




                    Incidents in Which OIG Was Refused Assistance or Information
                                                USADF
                                      April 1-September 30, 2013


 Section 6(b)2) of the Inspector General Act of 1978 requires an inspector general to report to the head of the
 agency whenever requested information or assistance is unreasonably refused or not provided.

 During this reporting period, there were no reports of such instances.




16 6	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                 Financial Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USADF
                           April 1-September 30, 2013




No financial audits were issued during the reporting period.




                               Performance Audits
  Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                         That Funds Be Put to Better Use
                                     USADF
                           April 1-September 30, 2013




No performance audits were issued during the reporting period.




                                                        USAID OIG Semiannual Report to the Congress 167
                                Miscellaneous Reports
 Associated Questioned Costs, Unsupported Costs, and Value of Recommendations That
                              Funds Be Put to Better Use
                                        USADF
                              April 1-September 30, 2013




 During the reporting period, no miscellaneous reports were issued with associated questioned costs,
 unsupported costs, or recommendations that funds be put to better use.




                              Reports With Questioned and Unsupported Costs
                                                  USADF
                                        April 1-September 30, 2013


 During the reporting period, no reports were issued with questioned or unsupported costs.




                 Reports With Recommendations That Funds Be Put to Bettter Use
                                            USADF
                                  April 1-September 30, 2013




   During the reporting period, no reports were issued with recommendations that funds be put to better use.




16 8	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                          Significant Revisions of Management Decisions
                                              USADF
                                    April 1-September 30, 2013




Section 5(a)(11) of the Inspector General Act requires a description and explanation of the reasons for any
significant revised management decisions during the reporting period.

During this reporting period, USADF did not make any significant revisions of management decisions.




     Significant Management Decisions With Which the Inspector General Disagrees
                                       USADF
                             April 1-September 30, 2013



Section 5(a)(12) of the Inspector General Act requires semiannual reports to include information concerning
any significant management decisions with which the inspector general disagrees.

During this reporting period, there were no instances in which the Inspector General disagreed with a
significant management decision.




                        Significant Findings From Contract Audit Reports
                                              USADF
                                    April 1-September 30, 2013


The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181, Section 845) requires
inspectors general to submit information on contract audit reports, including grants and cooperative
agreements, that contain significant audit findings in semiannual reports to the Congress.

The act defines “significant audit findings” to include unsupported, questioned, or disallowed costs in excess of
$10 million and other findings that the inspector general determines to be significant.

During the reporting period, OIG had no significant findings from contract audit reports for USADF.




                                                          USAID OIG Semiannual Report to the Congress 169
170	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
SIGNIFICANT FINDINGS AND TABLES:
INTER-AMERICAN FOUNDATION



The Inter-American Foundation is an independent U.S. Government agency created to provide
development assistance in Latin America and the Caribbean. IAF provides grant support for creative
ideas for self-help received from grassroots groups and NGOs, while encouraging partnerships
among community organizations, businesses, and local governments that are working to improve the
quality of life for poor people and strengthen democratic practices

Audit of the Inter-American Foundation’s Fiscal Year 2013 Compliance with the Federal
Information Security Management Act of 2002
Report No. A-IAF-13-007-P

OIG contracted with the independent certified public accounting firm of CliftonLarsonAllen LLP
(Clifton) to conduct the audit. Clifton was required to conduct the audit in accordance with generally
accepted government auditing standards. The objective of this audit was to determine whether the
Inter-American Foundation (IAF) implemented selected minimum security controls for selected
information systems in support of the Federal Information Security Management Act (FISMA) of
2002.

To answer the audit objective, Clifton assessed whether IAF implemented selected management,
technical, and operational controls outlined in National Institute of Standards and Technology
Special Publication 800-53, Recommended Security Controls for Federal Information Systems and
Organizations, Revision 3. Clifton performed audit fieldwork at IAF’s headquarters in Washington,
D.C., from April 26, 2013, through August 6, 2013.

The auditors concluded that IAF implemented 71 of 85 tested security controls in support of FISMA.
For example, IAF established adequate information technology security policies and procedures.
They also implemented an effective incident handling and response program, and maintained
adequate control over physical access to facilities and the computer room.

However, auditors identified areas in IAF’s information security program that can be improved.
Based on the report, OIG made eight recommendations to help IAF strengthen its information
security program. Management decisions were made on each of the eight recommendations.
However, OIG disagreed with four of them and encouraged IAF to revise them to fully address the
weaknesses identified in Clifton’s audit report.



	                                               U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   171
             Significant Recommendations Described Previously Without Final Action
                                             IAF
                                 April 1–September 30, 2013

                                                                                             Management
         Report                                                            Date of    Rec.                Final Action
                                          Report Title                                        Decision
         Number                                                            Report     No.                 Target Date
                                                                                                Date
                              Audit of the Inter-American
                              Foundation’s Compliance                                  8      11/15/12     12/30/13
     A-IAF-13-001-P           with the Federal Information                 11/15/12    9      11/15/12     12/30/13
                              Security Managment Act of                               11      11/15/12     11/01/13
                              2002 for Fiscal Year 2012




                    Incidents in Which OIG Was Refused Assistance or Information
                                                  IAF
                                      April 1-September 30, 2013



 Section 6(b)2) of the Inspector General Act of 1978 requires an inspector general to report to the head of the
 agency whenever requested information or assistance is unreasonably refused or not provided.

 During this reporting period, there were no reports of such instances.




17 2	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                                  Financial Audits
   Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                          That Funds Be Put to Better Use
                                        IAF
                            April 1-September 30, 2013

     Report            Date of                                            Amount of
                                            Report Title                                  Type of Findings
     Number            Report                                              Findings



No financial audit reports were issued during this reporting period.




                                Performance Audits
   Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                          That Funds Be Put to Better Use
                                        IAF
                            April 1-September 30, 2013

      Report           Date of                                            Amount of
                                             Report Title                                 Type of Findings
      Number           Report                                              Findings

                                 Audit of the Inter-American
                                 Foundation’s Fiscal Year 2013
  A-IAF-13-007-P                 Compliance with the Federal
                                 Information Security Management
                                 Act of 2002




                                                            USAID OIG Semiannual Report to the Congress 173
                              Significant Findings From Contract Audit Reports
                                                      IAF
                                          April 1-September 30, 2013


 The National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181, Section 845) requires
 inspectors general to submit information on contract audit reports, including grants and cooperative
 agreements, that contain significant audit findings in semiannual reports to the Congress.

 The act defines “significant audit findings” to include unsupported, questioned, or disallowed costs in excess of
 $10 million and other findings that the inspector general determines to be significant.

 During the reporting period, OIG had no significant findings from contract audit reports for IAF.




                                 Miscellaneous Reports
     Associated Questioned Costs, Unsupported Costs, and Value of Recommendations
                            That Funds Be Put to Better Use
                                          IAF
                              April 1-September 30, 2013




 No miscellaneous reports were issued during this reporting period.




174	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
                       Reports With Questioned and Unsupported Costs
                                             IAF
                                 April 1-September 30, 2013




No reports were issued during this period with questioned or unsupported costs.




             Reports With Recommendations That Funds Be Put to Better Use
                                          IAF
                              April 1-September 30, 2013




No reports were issued during this period with recommendations that funds be put to better use.




                 Reports Over 6 Months Old With No Management Decision
                                            IAF
                                April 1-September 30, 2013




During the reporting period, there were no reports more than 6 months old without a managment decision.




                                                       USAID OIG Semiannual Report to the Congress 175
                                 Significant Revisions of Management Decisions
                                                       IAF
                                           April 1-September 30, 2013



 Section 5(a)(11) of the Inspector General Act requires a description and explanation of the reasons for any
 significant revised management decisions during the reporting period.

 During this reporting period, IAF did not make any significant revisions of management decisions.




       Significant Management Decisions With Which the Inspector General Disagrees
                                           IAF
                               April 1-September 30, 2013


 Section 5(a)(12) of the Inspector General Act requires semiannual reports to include information concerning
 any significant management decisions with which the inspector general disagrees.

 There were no significant management decisions during this reporting period with which the Inspector
 General disagrees.




176	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
SIGNIFICANT FINDINGS: OVERSEAS
PRIVATE INVESTMENT CORPORATION



The Overseas Private Investment Corporation is a U.S. Government development finance institution
that mobilizes private capital to address development challenges. It works with the U.S. private sector
to help U.S. businesses gain footholds in emerging markets by promoting increased revenues, jobs,
and growth opportunities at home and abroad. Operating in more than 150 countries, OPIC provides
financing, guarantees, and political risk insurance, and offers support for private equity investment
funds.

OIG provides oversight of OPIC under 22 U.S.C. 2199, as well as through a March 2013 MOU
between OIG and OPIC. This statute authorizes OIG to conduct reviews, inspections, and
investigations for OPIC. The 2013 MOU, which expired at the end of FY 2013, provided for OIG to
operate an OPIC fraud awareness program and oversee an audit of OPIC's compliance with FISMA
requirements. Under the agreement, OIG provided these services on a reimbursable basis.

OIG conducted one audit of OPIC during this reporting period.

Audit of the Overseas Private Investment Corporation’s Fiscal Year 2013 Compliance With the
Federal Information Security Management Act of 2002
Report No. A-OPC-13-006-P

FISMA requires agencies to develop, document, and implement an agency-wide information security
program to protect their information and information systems, including those provided or managed
by another agency, contractor, or other source. The act also requires agencies to have an annual
assessment of their information systems.

OIG contracted with the independent certified public accounting firm of Cotton & Company
LLP (Cotton) to conduct the audit. Cotton was required to conduct the audit in accordance with
U.S. Government Auditing Standards. The objective of the audit was to determine whether OPIC
implemented selected minimum security controls for selected information systems to reduce the risk
of data tampering, unauthorized access to and disclosure of sensitive information, and disruptions to
OPIC’s operations.

The auditors concluded that OPIC implemented 51 of the 69 tested security controls. For example,
OPIC effectively implemented incident response capabilities, configuration change control
procedures, security control assessments, and system authorization and risk assessment processes.


	                                                U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   17 7
However, auditors also identified several weaknesses in OPIC’s information security controls. Based
on the report, OIG made 14 recommendations to assist OPIC in strengthening its information
security program. Management decisions were made on all 14 recommendations, and final action
was taken on 1 of them.




178	 U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
    PEER REVIEWS



The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law 111-203) requires
federal inspectors general to report on results of peer reviews in their semiannual reports.

The following are results of peer reviews conducted on USAID OIG during the reporting period.

Audit

No peer reviews were conducted during this period. The last peer review of USAID OIG’s audit
functions was conducted in September 2012. There are no outstanding recommendations from a peer
review conducted on USAID OIG to be implemented.

In a comment letter accompanying the September 20, 2012, peer review report completed by the
Department of Energy (DOE) Office of Inspector General, the DOE Inspector General included
several recommendations “not considered to be of sufficient significance to affect the opinion
expressed in that report” concerning our Office of Audit: (a) to ensure adherence to auditing
standards, policies and procedures to fully document the planning and testing of fraud-related steps
and resolution of allegations; (b) to reemphasize compliance with auditing standards relating to
adequacy and documentation of supervisory review; and (c) to ensure that auditors (i) fully document
and report rationales for selection and application of sampling techniques and (ii) properly utilize
procedure summaries in TeamMate as primary work papers for documenting audit work. We have
attended to all of these recommendations. An internal review to address findings on fraud risk and
sampling techniques is planned for January 2014, and a training program on our Office of Audit
Handbook, also slated for January, will emphasize the issues set forth in the findings.

Investigations

No peer reviews were conducted during this period. The last peer review of USAID OIG’s
investigative functions was completed in April 2011. There are no outstanding recommendations
from a peer review conducted on USAID OIG to be implemented.




	                                              U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   179
18 0	U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s
ABBREVIATIONS


BU		      funds recommended to be put to better use

DCAA		    Defense Contract Audit Agency

FISMA		   Federal Information Security Management Act of 2002

IAF		     Inter-American Foundation

MCA		     Millennium Challenge Account

MCC		     Millennium Challenge Corporation

NGO		     nongovernmental organization

OIG		     Office of Inspector General

OPIC		    Overseas Private Investment Corporation

OMB		     Office of Management and Budget

QC		      questioned costs

UN		      unsupported costs

USADF	    United States African Development Foundation

USAID		   United States Agency for International Development




	                                         U S A I D O I G S e m i a n n u a l Re p o r t t o t h e C o n g r e s s   181
United States Agency for International Development

            Office of Inspector General

          1300 Pennsylvania Avenue, NW

                   Room 6.6.D

             Washington, D.C. 20523
